<html>
<title> - ELECTRONIC WASTE: INVESTING IN RESEARCH AND INNOVATION TO REUSE, REDUCE, AND RECYCLE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                     ELECTRONIC WASTE: INVESTING IN
                       RESEARCH AND INNOVATION TO
                       REUSE, REDUCE, AND RECYCLE

=======================================================================

                                HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 11, 2009

                               __________

                            Serial No. 111-1

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov




                   U.S. GOVERNMENT PRINTING OFFICE
47-543 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY


                            C O N T E N T S

                           February 11, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chair, Committee on 
  Science and Technology, U.S. House of Representatives..........     8
    Written Statement............................................     9

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................     9
    Written Statement............................................    10

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    11

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    12

Prepared Statement by Representative Russ Carnahan, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    12

Prepared Statement by Representative Harry E. Mitchell, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    13

Prepared Statement by Representative Brian Bilbray, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    13

                               Witnesses:

Dr. Valerie Thomas, Anderson Interface Associate Professor of 
  Natural Systems, School of Industrial and Systems Engineering, 
  and School of Public Policy, Georgia Institute of Technology
    Oral Statement...............................................    15
    Written Statement............................................    17
    Biography....................................................    19

Dr. Paul T. Anastas, Teresa and H. John Heinz III Professor in 
  the Practice of Chemistry for the Environment, School of 
  Forestry and Environmental Studies; Director, Center for Green 
  Chemistry and Green Engineering, Yale University
    Oral Statement...............................................    20
    Written Statement with Julie B. Zimmerman, Center for Green 
      Chemistry and Green Engineering, Yale University...........    21
    Biography....................................................    31

Mr. Phillip J. Bond, President, TechAmerica
    Oral Statement...............................................    31
    Written Statement............................................    33
    Biography....................................................    35

Mr. Jeff Omelchuck, Executive Director, Green Electronics 
  Council, Electronic Product Environmental Assessment Tool 
  (EPEAT)
    Oral Statement...............................................    36
    Written Statement............................................    38
    Biography....................................................    39

Mr. Willie Cade, Founder and Chief Executive Officer, PC 
  Rebuilders and Recyclers, Home of the Computers for Schools 
  Program
    Oral Statement...............................................    40
    Written Statement............................................    41
    Biography....................................................    43

Discussion.......................................................    43

             Appendix 1: Answers to Post-Hearing Questions

Dr. Valerie Thomas, Anderson Interface Associate Professor of 
  Natural Systems, School of Industrial and Systems Engineering, 
  and School of Public Policy, Georgia Institute of Technology...    62

Dr. Paul T. Anastas, Teresa and H. John Heinz III Professor in 
  the Practice of Chemistry for the Environment, School of 
  Forestry and Environmental Studies; Director, Center for Green 
  Chemistry and Green Engineering, Yale University...............    64

Mr. Phillip J. Bond, President, TechAmerica......................    67

Mr. Jeff Omelchuck, Executive Director, Green Electronics 
  Council, Electronic Product Environmental Assessment Tool 
  (EPEAT)........................................................    69

Mr. Willie Cade, Founder and Chief Executive Officer, PC 
  Rebuilders and Recyclers, Home of the Computers for Schools 
  Program........................................................    72

             Appendix 2: Additional Material for the Record

Statement by Representative Mike Thompson from the 1st District 
  of California..................................................    76

Closing the Loop: Electronics Design to Enhance Reuse/Recycling 
  Value, Final Report, January 2009, Conducted by the Green 
  Electronics Council in collaboration with the National Center 
  for Electronics Recycling and Resource Recycling, Inc..........    77

Discussion Draft.................................................   112


   ELECTRONIC WASTE: INVESTING IN RESEARCH AND INNOVATION TO REUSE, 
                          REDUCE, AND RECYCLE

                              ----------                              


                      WEDNESDAY, FEBRUARY 11, 2009

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:06 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chair of the Committee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                     Electronic Waste: Investing in

                       Research and Innovation to

                       Reuse, Reduce, and Recycle

                      wednesday, february 11, 2009
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On February 11, 2009, the Science and Technology Committee will 
receive testimony on draft legislation entitled ``The Electronic Waste 
Research and Development Act of 2009.'' Witnesses will provide their 
comments on, and suggestions to, the bill. They will also discuss ways 
in which research and development (R&D) can help address the challenge 
of managing the disposal of electronics products in the United States. 
Five witnesses, representing perspectives from academia, a non-profit, 
electronics producers, and electronics recyclers, will offer testimony.

Witnesses

        <bullet>  Dr. Valerie Thomas, Anderson Interface Associate 
        Professor, Georgia Institute of Technology. Dr. Thomas will 
        discuss her research on innovative methods to manage electronic 
        waste and the challenges facing the recycling and re-use of 
        electronic products.

        <bullet>  Dr. Paul Anastas, Teresa and H. John Heinz III 
        Professor in the Practice of Chemistry for the Environment and 
        Director of the Center for Green Chemistry and Green 
        Engineering, Yale University. Dr. Anastas will discuss the 
        applicability of research in green chemistry and engineering to 
        the electronics sector.

        <bullet>  Mr. Philip Bond, President, Technology Association of 
        America. Mr. Bond will discuss ways in which innovation through 
        R&D could help electronics manufacturers address the challenge 
        of electronic waste. He will also give his views on promoting 
        collaboration between industry and non-industry researchers to 
        encourage the transfer of successful research into products.

        <bullet>  Mr. Jeff Omelchuck, Executive Director, Green 
        Electronic Council and Electronic Product Environmental 
        Assessment Tool (EPEAT). Mr. Omelchuck will discuss the 
        development and utility of EPEAT, challenges to making existing 
        electronics products more environmentally friendly, and ways in 
        which R&D could address these challenges.

        <bullet>  Mr. Willie Cade, Chief Executive Officer, PC 
        Rebuilders and Recyclers. Mr. Cade will describe the challenges 
        faced by electronics refurbishers and recyclers, and discuss 
        ways to promote collaboration between academic researchers and 
        the recycling and refurbishing businesses.

Issues and Concerns

        <bullet>  Electronic waste, or e-waste, the term used to 
        describe used televisions, computers, cell phones, monitors, 
        etc., that are ready for discard, is a growing problem in the 
        U.S. and worldwide. The Environmental Protection Agency (EPA) 
        estimated that between 1980 and 2004, two billion electronic 
        products were sold in the U.S. Of these they estimated just 
        over half were still in use, while 42 percent had been disposed 
        of and nine percent were in storage. Of the amount disposed of, 
        only 11 percent reached recyclers. The rest went to 
        landfills.\1\ Electronics are bulky and contain hazardous 
        materials that pose concerns for disposal in landfills. Due to 
        the involvement of State and local governments, environmental 
        groups, and electronics producers, more of these products are 
        being recycled. However, as described below, there are still 
        many hurdles to cost-effective, nationwide electronics 
        recycling. Additionally, the biggest environmental footprint 
        for electronics arises out of their production. Enabling 
        consumers to use (or re-use) these products longer could reduce 
        the impact of this production on the environment. The draft 
        legislation discussed at this hearing will address some of the 
        challenges to increase recycling and re-use through R&D and 
        education.
---------------------------------------------------------------------------
    \1\ EPA Fact Sheet: management of Electronic Waste in the U.S., 
http://www.epa.gov/epawaste/conserve/materials/ecycling/docs/fact7-
08.pdf

        <bullet>  While e-waste recycling is increasing in the U.S., 
        the industry faces a number of challenges. These challenges 
        include convincing consumers to recycle, the logistics of 
        collecting e-waste, efficiently disassembling products, safely 
        removing hazardous substances, efficiently processing 
        materials, and recovering value from many of the e-waste 
        constituent materials. For instance, the more commingled a 
        stream of plastics becomes as casings and components from 
        products are mixed together in processing, the less value it 
        has for re-use. Improving the technologies that sort these 
        plastics, or developing new processes and materials that can 
        use non-homogeneous plastics will make e-waste recycling less 
        costly and will reduce waste material. From research on 
        influencing consumer behavior to automated methods of sending 
        information to recyclers about the products moving through 
        their plants, R&D could help make recycling more efficient and 
---------------------------------------------------------------------------
        cheaper.

        <bullet>  The design of electronic products could also aid in 
        making recycling more cost efficient. Many products are 
        difficult to disassemble and the location of hazardous 
        materials varies (i.e., mercury lamps in some flat panel 
        displays). Product design for recycling would look at the needs 
        of end-of-life management. Greater use of materials recycled 
        from old electronics is another up-front design choice that 
        would help make recycling more profitable. Researchers could 
        examine the feasibility of different design schemes and 
        recycled materials usage to help electronic product development 
        become more of a closed loop process.

        <bullet>  Scores of different chemicals and materials comprise 
        computers, televisions, cell phones and other electronics. Some 
        of the substances used in electronics (e.g., lead and 
        hexavalent chromium) have raised enough concern that the 
        European Union adopted a measure to ban their use in 
        electronics products sold in Europe.\2\ Manufacturers have been 
        able to comply with these requirements for most consumer 
        electronics, but the process to ban substances sensitive to the 
        environment and human health is on-going. For example, the risk 
        to human health posed by certain types of brominated flame 
        retardants used in electronics and other products has created a 
        controversy over their continued use. Comprehensive data on the 
        properties of substitutes for harmful materials would enable 
        electronics designers to change their products more quickly in 
        response to concerns raised by different materials. The 
        availability of this type of comprehensive data, provided by 
        the National Institutes of Standards and Technology, enabled 
        manufacturers to quickly meet the challenge of eliminating 
        ozone-layer depleting chlorofluorocarbons (CFCs) from their 
        products in the 1980's.
---------------------------------------------------------------------------
    \2\ The Restrictions on Hazardous Substances (ROHS) Directive, 
adopted buy the European Union in 2003.

        <bullet>  Increasing the amount of electronics headed to 
        responsible recyclers is essential to reducing the impacts of 
        e-waste. Also essential though is research to increase and 
        encourage the re-use of electronic products. Estimates of the 
        total amount of energy required over a computer's life cycle 
        show that roughly 80 percent goes into the computer's 
        production phase, and only 20 percent into the use phase.\3\ 
        Extending the amount of time a product is in use could not only 
        reduce the volume of e-waste, but also lessen the impact of the 
        production of these complex and sophisticated products on the 
        environment. Often consumers buy new cell phones, laptops, or 
        other devices because they want the functionality or `look' of 
        a new model, not because their current device is broken. 
        Consumers are often wary of purchasing used electronics because 
        they are unsure of a used product's value or they are afraid it 
        will not meet their needs. Developing re-use markets that aid 
        consumers in evaluating used devices could help keep these 
        devices in the hands of consumers for a longer period of time. 
        Prolonging a device's use could also be accomplished by 
        developing ways for consumers to easily upgrade their current 
        products.
---------------------------------------------------------------------------
    \3\ E. Williams (2002), ``The 1.7 Kg Microchip.''

        <bullet>  Improving the training of students equips the future 
        workforce to design products with a minimal environmental 
        impact. Continuing education of the existing workforce in the 
        electronics and recycling industries informs these individuals 
        of best-practices in their fields. Similarly, collaboration 
        between academic researchers and those in industry can help 
        transfer solutions to the problems identified above as fast as 
---------------------------------------------------------------------------
        possible.

Background

Regulations
    No federal law or national framework exists to handle the growing 
volume of e-waste generated by U.S. consumers. At least since 2000, 
with the convening of the National Electronics Stewardship Initiative, 
electronics producers and other stakeholders have been aware of the e-
waste problem. However, because of competing interests over financing 
mechanisms, electronics producers, environmental groups, and consumer 
representatives have not been able to reach a consensus on how a 
national e-waste program should be implemented. In the absence of 
federal regulations, some states and localities have instituted 
mandatory e-waste recycling. California implemented a program in 2005. 
Maine, Washington, and Minnesota implemented e-waste programs in 2007. 
Other states, like Oregon, are slated to begin their programs this 
year. Each State program is slightly different, creating a challenge 
for electronics companies that now must finance the take-back and 
recycling of products in all states with programs (except California, 
where consumers pay a fee for recycling at the time of purchase). In 
addition, many of these companies have extended this take-back service 
to consumers in states without specific e-waste programs, though the 
service is not always free of charge.
    The European Union has been ahead of the U.S. in dealing with e-
waste, passing the Waste Electrical and Electronic Equipment Directive 
(WEEE) in 2000, which banned disposal of e-waste in landfills and 
required producers to take-back their used products. The actual 
implementation of this directive has varied country by country. In 
Europe, just as in the U.S., the cost of recycling is also a challenge.

Export
    Another significant problem is the export of e-waste from the 
developed world to China and other developing nations, where low-paid 
workers pull apart the products to extract any valuable materials. 
Using crude methods, these workers are exposed to toxic substances, 
carrying a heavy burden on human health and the surrounding 
environment. While some exported electronics can be legitimately 
refurbished and re-used, an overwhelming quantity has no re-use value 
and is improperly and unsafely recycled or discarded. According to the 
Basel Action Network (BAN), approximately 80 percent of the e-waste 
directed to recycling in the U.S. is not recycled, but is instead 
exported. Much of this export is not illegal, though the EPA requires 
that any exporter of the leaded-glass cathode ray tubes (CRT) from old 
television certify that all CRT exports are going to legitimate 
processors overseas. This rule is frequently ignored and only minimally 
enforced. Both BAN and the Institute of Scrap Recycling Industries are 
working on separate standards that would promote accountability within 
the electronics recycling community. These standards will be available 
sometime this year.

Federal Activity
    When safely handled, e-waste can be a valuable source of 
commodities like gold and silver. These items are more enriched in 
these precious metals than a comparable weight of naturally occurring 
ore.\4\ To encourage recycling, the Environmental Protection Agency 
(EPA) offers facts on e-waste and information to consumers about where 
they can find recyclers in their area on their website. EPA also has 
the ``Plug Into eCycling Program'' which is a partnership between EPA, 
manufacturers, and retailers to offer consumers more opportunities to 
recycle or donate their old electronics. An example of an initiative 
under the program is the campaign ``Recycle your cell phone. It's an 
easy call.'' This is a national campaign supported by major 
manufacturers, carriers, and retailers to educate consumers about cell 
phone recycling. The EPA has also supported a Design for the 
Environment Program and Electronics Products Assessment Tool (EPEAT).
---------------------------------------------------------------------------
    \4\ USGS Fact Sheet 060-01: Obsolete Computers, ``Gold Mine'' or 
High-Tech Trash? Resource Recovery from Recycling, http://
pubs.usgs.gov/fs/fs060-01/

EPEAT
    EPEAT receives EPA funding, and is a product of the not-for-profit 
Green Electronics Council. EPEAT is an assessment tool that compares 
the environmental attributes of different brands and models of desktop 
and laptop computers. Many large institutional buyers, including 
sectors of the Federal Government, will only buy equipment that is 
ranked highly by EPEAT. EPEAT convenes manufactures, environmental 
representatives, and other stakeholders to establish performance 
criteria the products must meet to attain rankings of bronze, silver, 
or gold. Products are rated in such categories as to the amount of 
environmentally sensitive material they contain, ease of disassembly 
for recycling, and energy conservation.

Opportunities for R&D and Education
    As identified above, by supporting R&D and education, the proposed 
legislation can help reduce the impact of electronics products on the 
environment through recycling and re-use.

    Discussion Draft--Electronic Waste Research and Development Act

                           Section-by-Section

Section 1. Short Title

    Provides the short title of the legislation, the Electronic Waste 
Research and Development Act

Section 2. Findings

    Outlines the current background information, concerns, and impacts 
of electronic waste on the environment.

Section 3. Definitions

    Defines the terms Administrator as the Administrator of the 
Environmental Protection Agency; a consortium; the term e-waste; an 
institution of higher learning; and the Director as the Director of the 
National Institute of Standards and Technology.

Section 4.  Electronic Waste Engineering Research, Development and 
                    Demonstration Projects

    Directs the Administrator to provide grants through a competitive, 
merit-based process to be done jointly with institutes of higher 
education, non-profit research institutions, government laboratories, 
and for-profit entities (i.e., manufacturers, designers, refurbishers, 
or recyclers) to find ways to manage electronic waste through 
reduction, reuse, and recycling, and make the findings of the research 
available to the public. The section requires a report to Congress 
within two years after enactment and every two years thereafter of the 
grants awarded and a list of the projects and their findings.

Section 5.  National Academy of Sciences Report on Electronic Waste

    Directs the Administrator to arrange a study by the National 
Academy of Sciences to look at the current research programs and the 
barriers and opportunities available to reduce electronic waste, reduce 
the use of hazardous materials in electronic products, and better 
product design for efficient re-use and recycling.

Section 6.  Engineering Curriculum Development Grants

    Directs the Administrator to provide grants through a competitive, 
merit-based process to institutes of higher education and community 
colleges to reduce electronic waste through better teaching and 
training of students and current workforce by developing a green 
engineering curricula and creating internships.

Section 7.  ``Green'' Alternative Materials Physical Property Database

    Directs the Director to establish a physical property database for 
green alternative materials for use in electronic products.
    Chair Gordon. This hearing will come to order. Good morning 
and welcome to today's hearing on electronic waste. I would 
like to extend a special thanks to our witnesses, and today we 
will consider a draft legislation to establish programs to 
address the challenge of e-waste.
    Last April, the Committee held its first hearing on this 
topic. We explored the challenges of managing the discarded old 
computers, cell phones, TVs, and other electronic products. 
These obsolete and inoperable products are being discarded to 
become what we commonly refer to as e-waste, or electronic 
waste.
    As consumers move on to flat-screen displays and the latest 
smart phones, older products are likely to be discarded by the 
millions. However, as I am sure we will learn today, these old 
products still have value. They either are still functional or 
they contain valuable materials. So perhaps terming these 
sophisticated products as ``waste'' is a bit of a misnomer.
    However, only a small percentage of these products make it 
to the e-waste recyclers. Most of us put our old electronics 
out on the curb or store them in a closet or dresser drawer. 
Perhaps the most egregious practice is the export of e-waste to 
workers in the developing world. There the valuable commodities 
are stripped from the products and processed using primitive 
methods. These practices endanger people's health and pollute 
the areas where they live.
    This bill represents what I hope will be the first step at 
the federal level in addressing this growing crisis. As the 
Committee learned last April, over a dozen states, local 
governments, and many companies have begun to increase e-waste 
recycling, and through the international laws and regulations, 
companies have removed lead, mercury and other toxic materials 
from their electronic products.
    But the Committee also learned that these efforts are not 
without their challenges and much could be done better if we 
knew how to do it. The bill we are discussing today provides 
support for academic researchers to start tackling some of the 
barriers to making electronics greener.
    The recycling of plastics from electronics is a good 
example of where this type of research could make a difference. 
Current technology to sort plastics coming into the recycling 
plants cannot differentiate between all types of plastics. 
Plastic streams end up mixed and the reprocessing plastics can 
no longer be used in high-value applications. This is a problem 
that can be attacked from both sides.
    Technology to sort plastics can be improved and research 
can be done to figure out how to make mixed recycled plastics 
more suitable for use in new products. Creating more demand for 
recycled materials will make recycling more profitable and 
create less waste.
    This bill provides a mechanism for bringing together 
academic researchers and the industry partners. It is important 
that we are able to implement the new technologies to reduce 
waste and to manufacture products with environmentally friendly 
materials.
    And finally, the bill before us today addresses the need to 
educate both future and current workers. We need to get 
engineers thinking about green design of products and 
recycling. This should become central to the way we approach 
their jobs. To that end, the bill creates curriculum 
development and professional development opportunities.
    With that, I look forward to the testimony we are going to 
receive today, and I now recognize our distinguished Ranking 
Member, my friend from Texas, Mr. Hall.
    [The prepared statement of Chair Gordon follows:]
                   Prepared Statement of Chair Gordon
    Good morning and welcome to today's hearing on Electronic Waste. I 
would like to extend a special thank you to our witnesses. Today we 
will consider draft legislation to establish programs to address the 
challenge of e-waste.
    Last April, the Committee held its first hearing on this topic. We 
explored the challenges of managing the discarded old computers, cell 
phones, TVs, and other electronic products. These obsolete and 
inoperable products are being discarded to become what we now commonly 
refer to as e-waste.
    As consumers move on to flat screen displays and the latest smart 
phones, older products are likely to be discarded by the millions. 
However, as I'm sure we will learn today, these old products still have 
value. They either are still functional or they contain valuable 
materials. So perhaps terming these sophisticated products ``waste'' is 
a bit of a misnomer.
    However, only a small percentage of these products make it to e-
waste recyclers. Most of us put our old electronics out on the curb or 
store them in a closet or desk drawer. Perhaps the most egregious 
practice is the export of e-waste to workers in the developing world. 
There, the valuable commodities are stripped from the products and 
processed using primitive methods. These practices endanger people's 
health and pollute the areas where they live.
    This bill represents what I hope will be a first step at the 
federal level in addressing the growing crisis. As the Committee 
learned last April, over a dozen states, local governments, and many 
companies have begun to increase e-waste recycling. And through 
international laws and regulations, companies have removed lead, 
mercury, and other toxic materials from their electronic products.
    But the Committee also learned that these efforts are not without 
their challenges, and much could be done better if we knew how to do 
it. The bill we are discussing today provides support for academic 
researchers to start tackling some of the barriers to making 
electronics greener.
    The recycling of plastics from electronics is a good example of 
where this type of research could make a difference. Current technology 
to sort plastics coming into recycling plants cannot differentiate 
between all types of plastics. Plastic streams end up mixed and the re-
processed plastics can no longer be used in high-value applications. 
This is a problem that can be attacked from both sides.
    Technology to sort plastics can be improved and research can be 
done to figure out how to make mixed recycled plastics more suitable 
for use in new products. Creating more demand for recycled materials 
will make recycling more profitable and create less waste.
    This bill provides a mechanism for bringing together academic 
researchers and the industry partners. It is important that we are able 
to implement the new technologies to reduce waste and manufacture 
products with environmentally friendly materials.
    Finally, the bill before us today also addresses the need to 
educate both future and current workers. We need to get engineers 
thinking about green design of products and recycling. This should 
become central to the way they approach their jobs. To that end, the 
bill creates curriculum development and professional development 
opportunities.
    With that, I look forward to the testimony we are going to receive 
today. I now recognize our distinguished Ranking Member and my good 
friend from Texas, Mr. Hall.

    Mr. Hall. I thank you, Mr. Chair. I am very pleased that we 
are having this very interesting hearing today. Sixty-three 
years ago this week, the United States Army unveiled the 
world's first general purpose electronic computer. I remember 
it well. This Electronic Numerical Integrator And Computer, or 
ENIAC, was designed to be capable of solving a full range of 
computing problems. ENIAC took up to 680 square feet of space, 
weighed 30 tons and consumed 10 kilowatts of power. We have 
obviously come a long way since February 14, 1946. As 
electronic products have become faster and more reliable, they 
have also become more significantly smaller and more 
disposable. I just think that today's level of computational 
ability is hardly used by most people and yet still highly 
sought after in the marketplace. Advances in flat-screen 
technologies have led to a new generation of televisions. With 
each new technological advance and model replacement, we face 
an inevitable problem of electronic waste, or e-waste.
    There are a lot of aspects to the e-waste dilemma--the 
definition of e-waste, reuse and recycling of electronics, 
landfill disposal and hazardous waste, regulatory issues and 
export economies. The EPA has already instituted several 
programs to deal with these problems. They include EPA's 
Product Stewardship, which supports stake holder dialogues, 
pilot programs, public education and international cooperation 
to foster coordination of electronics use and recycling, EPA's 
Design for the Environment Program, which works with 
electronics manufacturers to incorporate environmental 
considerations into product design, also, EPA's Environmentally 
Preferable Purchasing Program, which helps federal agencies 
purchase environmentally preferable products, the Energy Star 
Program, which promotes energy-efficiency products through a 
labeling campaign, and EPA's WasteWise Program, which 
challenges its partners to set goals for reducing e-waste.
    I am grateful to the Chair for circulating the discussion 
draft that we have before us today and bringing this topic to 
the forefront. I am curious to see how some provisions in the 
draft fit with existing programs already at EPA. Clearly, none 
of us want to duplicate efforts already underway as we try to 
effectively and efficiently deal with this challenge.
    I am intrigued with a number of aspects of this bill. I am 
hoping to get some clarification and hear our panelists' 
thoughts on the ``Green Alternative Materials Physical Property 
Database.'' Would this database replicate the structure and 
functions of the OSHA/EPA Occupational Chemical Database or 
would it resemble the pollution prevention--what is that noise 
I hear?
    Chair Gordon. Electronic waste.
    Mr. Hall. Or would it--I thought you were fixing to get the 
hook after me. Or would it resemble the Pollution Prevention 
Resource Exchange? They write these things and I read them, Mr. 
Chair.
    I am hoping that the highly qualified panel we have here 
this morning will be able to shed some light on some of the 
gaps in electronic waste research, and if the discussion draft 
appropriately addresses these shortcomings, it would be good to 
know. I look forward to hearing from our witnesses today about 
this important issue, and I yield back my time.
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall
    Thank you, Mr. Chairman. I am pleased we are having this hearing 
today. Sixty-three years ago this week, the United States Army unveiled 
the world's first general-purpose electronic computer. The Electronic 
Numerical Integrator and Computer, or ENIAC (in-e-ack), was designed to 
be capable of solving a full range of computing problems. ENIAC took up 
680 square feet of space, weighed 30 tons, and consumed 150 kilowatts 
of power. We have obviously come a long way since February 14, 1946. As 
electronic products have become faster and more reliable, they have 
also become significantly smaller and more disposable.
    Blackberry devices, iPods, cell phones and other small electronics 
are rapidly replaced by newer models with more gadgets. Computers and 
laptops provide a level of computational ability that is hardly used by 
most people, yet still highly sought after in the marketplace. Advances 
in flat-screen technologies have led to a new generation of 
televisions. With each new technological advance and model replacement, 
we face an inevitable problem of electronic waste, or e-waste.
    There are many aspects of the e-waste dilemma: the definition of e-
waste; reuse and recycling of electronics; landfill disposal and 
hazardous waste; regulatory issues and export economies. The EPA has 
already instituted several programs to deal with these problems. They 
include:

        <bullet>  EPA's Product Stewardship which supports stakeholder 
        dialogues, pilot programs, public education and international 
        cooperation to foster coordination of electronics reuse and 
        recycling.

        <bullet>  EPA's Design for the Environment Program which works 
        with electronics manufacturers to incorporate environmental 
        considerations into product design.

        <bullet>  EPA's Environmentally Preferable Purchasing Program 
        which helps federal agencies purchase environmentally 
        preferable products.

        <bullet>  The Energy Star Program which promotes energy-
        efficiency products through a labeling campaign.

        <bullet>  EPA's Waste Wise Program which challenges its 
        partners to set goals for reducing e-waste.

    I am grateful to the Chairman for circulating the discussion draft 
we have before us today and bringing this topic to the forefront. I am 
curious to see how some provisions in the draft fit with existing 
programs already at EPA. Clearly, none of us wants to duplicate efforts 
already underway as we try to effectively and efficiently deal with 
this challenge.
    I am intrigued with a number of aspects of this bill. I am hoping 
to get some clarification and hear our panelists' thoughts on a ``Green 
Alternative Materials Physical Property Database.'' Would this database 
replicate the structure and functions of the OSHA/EPA Occupational 
Chemical Database? Or, would it resemble the Pollution Prevention 
Resource Exchange, a clearinghouse that brings together information 
from a consortium of regional pollution prevention information centers 
funded by the EPA?
    I am hoping that the highly qualified panel we have this morning 
will be able to shed some light on some of the gaps in electronic waste 
research and if the discussion draft appropriately addresses these 
shortcomings. I look forward to hearing from our witnesses today about 
this important issue. I yield back the balance of my time.

    Chair Gordon. Thank you, Mr. Hall, and your staff wrote 
some very good information there. We want to follow up on that.
    Additional Members may submit statements that they have at 
this time, including records at this point, and I will submit 
one from my friend, the Congressman from the 1st District of 
California, Mike Thompson, who has been very active in this 
issue. He has a written statement that we will include. [See 
Appendix 2: Additional Material for the Record.]
    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Thank you, Chairman Gordon, for convening this hearing on a public 
policy issue that as of yet, has remained mostly unaddressed.
    E-waste is a somewhat new term to our lexicon, but it is evident 
that it is one that we will increasingly hear near future. As consumers 
buy new cell phones, computers, iPods and other electronic devices with 
increasing frequency, we must address the issue of what to do with 
these discarded items, some of which contain harmful and ever-lasting 
materials.
    Some states have already taken steps to regulate and promote the 
recycling and re-use of e-waste and I believe it is time for the 
Federal Government to evaluate its role in this issue as well. We need 
to ensure that an e-waste policy is streamlined so that participation 
can extend across industries and products.
    While it's true that new technologies are reducing the relative 
sizes of electronics and appliances, the problem of e-waste is one to 
which relatively little research has been devoted. Manufacturers, when 
economically and technologically feasible, should phase out products 
that are proving to be particularly durable and potential health 
hazards. It's clear that a national framework to address these concerns 
is needed.
    In the tradition of the Science and Technology Committee, we have 
sought to address an issue on the forefront of the technology 
discussion. I look forward to hearing testimony today and thank you, 
Mr. Chairman for my time.

    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Good morning, Mr. Chairman and Ranking Member.
    It really is stunning to know that the United States exports 80 
percent of its electronic waste to other countries.
    It is shameful that much of that waste goes to developing countries 
like China, where workers disassemble televisions and computers, often 
at great hazard to their health. The waste then goes into landfills in 
those countries, putting vulnerable people at risk for toxic ground and 
water pollution.
    The Committee on Science and Technology has held hearings in 
previous years on this issue, and I want to thank the Chairman and 
Ranking Member for their work to help inform Members.
    Now, we have legislation with the intention to begin to address 
this problem. Section 4 of the bill will be particularly helpful.
    This section provides for a competitive grants program fostering 
collaborations between institutes of higher education, non-profit 
research institutions, government laboratories, and for-profit entities 
(i.e., manufacturers, designers, refurbishers, or recyclers).
    Grant money will help fund ways to manage electronic waste through 
reduction, reuse, and recycling.
    Mr. Chairman, I am in strong support of this program within the 
Environmental Protection Agency.
    Although the Agency is making some efforts to encourage and educate 
consumers about proper disposal of electronic waste, those efforts do 
not go nearly far enough.
    What we need is for technology manufacturers to make computer 
parts, digital music players, televisions, mobile phones, photocopiers 
and other equipment that is more environmentally sustainable.
    If the Longworth Cafeteria can serve cups and plates that are made 
of biodegradable material, then the high-tech industry can make 
products that won't end up in landfills or harm workers who are trying 
to recycle them.
    Mr. Chairman, I also appreciate Section 6 of the bill. This section 
will establish a competitive grant program for institutions of higher 
education to improve teaching methods regarding ``green engineering.''
    Stimulating our education system to prepare experts who can tackle 
these problems will be a key component for success.
    Although the bill does specify community colleges as target 
recipients of the grant funding, I don't see provisions encouraging 
minority-serving institutions to apply.
    This committee may expect future interest from me in amending the 
legislation to encourage applicants from minority-serving institutions. 
These colleges and universities receive less research grant money and 
have traditionally struggled to compete with the larger universities. 
It is my intention to provide them with opportunities to increase 
research and graduate-level training.
    Mr. Chairman, I thank you again for holding today's hearing, and I 
wish the witnesses a warm welcome.
    I yield back the remainder of my time.

    [The prepared statement of Mr. Carnahan follows:]
           Prepared Statement of Representative Russ Carnahan
    Mr. Chairman, thank you for hosting this important hearing on 
investing in research and development technologies in regard to 
electronic waste in the United States.
    In the U.S. and around the globe, everyday new technologies and 
electronics enter the marketplace and retire older models. These 
disposed electronics can contain lead, mercury, and other harmful 
substances that, unless properly disposed of, can contaminate our 
environment and present health dangers to our citizens. Estimates from 
the Environmental Protection Agency have shown that the majority of 
these retired products are inevitably sent to landfills while only 
small amounts are recycled. This is partly due to the general lack of 
public awareness of the potential danger that these electronics pose to 
the environment, as well as a lack of any coherent strategy from which 
to deal with electronic waste. This must change and I hope that this 
draft legislation is an important first step in bringing about this 
change.
    Also, I believe it is our responsibility to fundamentally change 
the way we think dealing with electronic waste. We cannot solely focus 
on electronic waste from a recycling perspective; sustainable design 
which takes into account the entire life cycle of an electronic must be 
a part of any new research and development that goes into reducing, 
reusing and recycling our electronic waste.
    To the witnesses before us today, I want to thank you for taking 
the time out of your busy schedules to appear before us and I look 
forward to hearing your testimonies.

    [The prepared statement of Mr. Mitchell follows:]
         Prepared Statement of Representative Harry E. Mitchell
    Thank you, Mr. Chairman.
    As American consumers attempt to keep up with the latest technology 
trends by purchasing the newest cell phones and laptops, the number of 
discarded electronic products is rapidly increasing.
    When electronic products are properly handled, these products can 
transform into a valuable source for reusable equipment.
    However, if these products are not disposed of properly, they are 
potentially harmful to both human health and the environment.
    Currently, there are no federal regulations in place for the 
appropriate disposal of electronic waste (e-waste).
    I look forward to hearing from our witnesses about potential 
practices for handing e-waste.
    I yield back.

    [The prepared statement of Mr. Bilbray follows:]
           Prepared Statement of Representative Brian Bilbray

Chairman Gordon and Ranking Member Hall:

    Thank you very much for holding this timely and important hearing. 
History will show that the steps we take now on the issue of electronic 
waste (e-waste) will pay monumental dividends down the road.
    Throughout our living rooms and newspapers we are reminded about 
the effect that greenhouse gas emissions, water pollution and wasteful 
habits are having on polluting our environment. Climate change is a 
frequent term from playgrounds to nursing homes. Yet, one area we are 
fundamentally ignoring is the effect our race to be technologically 
superior is having on our world.
    According to the Environmental Protection Agency (EPA) between 1980 
and 2004, two billion electronic products were sold in the United 
States. Of these, EPA estimates that just over half are still in use, 
while 42 percent had been disposed of and nine percent were in storage. 
These products contain harmful carcinogens and deadly plastics that are 
a threat to mankind and the environment when not properly disposed.
    Creating an efficient and safe recycling program, along with 
research and development to reduce the toxic components of e-waste will 
be required to mitigate this problem. I am pleased to see that Sony 
Corporation, located in my district, has undertaken one such effort.
    On August 20, 2007, Sony Corporation launched their nationwide 
program titled ``The Sony Take Back Recycling Program.'' This 
innovative recycling approach will allow consumers to recycle all Sony 
products for free at 75 Waste Management Recycle America eCycling drop-
off centers across the United States. Stan Glasgow, President and CEO 
of Sony Electronics, noted in a statement announcing the program: 
``Providing the highest level of service and support doesn't stop once 
a purchase is made. We believe it is Sony's responsibility to provide 
customers with end-of-life solutions for all the products we 
manufacture.'' Glasgow further stated, ``Through the Take Back 
Recycling Program, our customers will know that their Sony products 
will be recycled in an environmentally responsible manner.''
    Private corporations alone should not be required to do all the 
heavy lifting. The Federal Government has a role to play in these 
efforts as well. It is estimated that the Federal Government purchases 
up to $60 billion worth of electronic equipment. This is millions of 
computers, televisions, telephones, and copiers. If we are going to ask 
private citizens to take part in cleaning up their electronic waste, 
the government must do the same.
    This month I will be re-introducing legislation that will require 
the Federal Government to purchase products that meet EPA's Electronic 
Product Environmental Assessment tool (EPEAT) standards. EPEAT is a 
system to help purchasers in the public and private sectors evaluate, 
compare and select desktop computers, notebooks and monitors based on 
their environmental attributes. EPEAT also provides a clear and 
consistent set of performance criteria for the design of products, and 
provides an opportunity for manufacturers to secure market recognition 
for efforts to reduce the environmental impact of its products. By 
procuring environmentally safe products the Federal Government will do 
its part in protecting the environment.
    As this committee goes forward with its work, I hope that we will 
have additional opportunities to explore ways to prevent electronic 
waste from contaminating our great nation.

    Chair Gordon. Now, Ms. Biggert, I understand you are on a 
short leash here today, and so we will now introduce the 
witnesses and we will begin with you.
    Ms. Biggert. Thank you very much, Mr. Chair, and thank you 
for the opportunity to introduce one of our witnesses to the 
Full Committee today. It is my pleasure to welcome and 
recognize Mr. Willie Cade, a native of my hometown, Hinsdale, 
Illinois, and owner of PC Rebuilders and Recyclers of Chicago. 
The final addition to our panel on electronic waste, his 
testimony promises to be both informative and enlightening from 
his career in recycling electronics.
    Since he founded his business in 2000, Mr. Cade has 
refurbished and delivered over 40,000 computers for use in 
schools and not-for-profit organizations. He was quickly 
recognized for his hard work and talent when he was selected as 
the first Microsoft-authorized refurbisher in the United 
States. Recognizing the growing prevalence of e-waste, Mr. Cade 
went a step further and co-founded the International Computer 
Refurbishers Summit, now in its sixth year since inception. 
With obvious hands-on experience, Mr. Cade is in a unique 
position to educate policy-makers and the industry on the 
realities of mitigating the electronic waste stream. He has 
some terrific suggestions on research and collaboration efforts 
as well as ways to increase consumer awareness and 
participation.
    So Mr. Cade, we look forward to your testimony and thank 
you for joining us today, and I yield back.
    Chair Gordon. Thank you, Ms. Biggert.
    To help offset Dr. Ehlers' intellect, we have a top draft 
choice here today, and I would like to ask unanimous consent 
that Congressman Rush Holt from New Jersey be permitted to 
introduce a witness. Mr. Holt--or Dr. Holt, I should say.
    Mr. Holt. Thank you. ``Representative'' is fine.
    Thank you, Mr. Chair, and I am pleased to introduce, to 
commend and to recommend to my colleagues here on the 
Committee, Dr. Valerie Thomas to talk to you today. I have 
known Dr. Thomas in a number of capacities over decades now, 
first as a stellar student in my electrodynamics course at 
Swarthmore College and as a participant in my physics and 
public policy seminar, later as a superbly active citizen when 
she and her family lived in the 12th Congressional District in 
New Jersey, also as a fine musician and a wonderful mother. Dr. 
Thomas completed her Ph.D. in physics at Cornell after 
graduating from Swarthmore, and now serves as the Anderson 
interface associate professor at Georgia Tech. Her research, 
among other things, looks at efficient use of materials and 
innovative ways to manage electronic waste. Over the years she 
has conducted really outstanding research in a number of areas 
of interest to this committee.
    In addition to her excellent science, I think Dr. Thomas 
really exemplifies the potential for scientists to be involved 
in public policy in an effective way. A few years back, Valerie 
was a Congressional Science Fellow of the American Physical 
Society and worked as a staff member in my office. So I have 
seen her from a variety of perspectives and she really is 
superb. Before her service in my office, she served as a 
lecturer at the Woodrow Wilson School of Public and 
International Affairs, and as a research scientist there at 
Princeton University. She continues her commitment to bridge 
science and public policy as a faculty member now at the School 
of International and Systems Engineering and the School of 
Public Policy.
    Mr. Chair, I recommend Valerie Thomas to your consideration 
today.
    Chair Gordon. Thank you, Congressman Holt, although you 
failed to mention that you are also the godfather to her 
children, and so for that reason you are going to be recused 
today.
    Our next witness is Dr. Paul Anastas. He is the Teresa and 
John Heinz III Professor in the Practice of Chemistry for the 
Environment and the Director of the Center of Green Chemistry 
and Green Engineering, the School of Forestry and Environmental 
Studies at Yale University, and Mr. Phillip Bond is the 
President of TechAmerica. I would like to yield to our friend, 
Congressman Wu, for an introduction.
    Mr. Wu. Thank you very much, Mr. Chair, and it is my 
pleasure to introduce a fellow Oregonian at today's hearing. 
Mr. Omelchuck is the Executive Director of the Green 
Electronics Council located in Portland, Oregon. The Green 
Electronics Counsel oversees the Electronic Product 
Environmental Assessment Tool, which helps manufacturers and 
consumers market and purchase environmentally friendly 
electronic products. So welcome, Mr. Omelchuck, and I also want 
to extend a warm Oregon welcome to Mr. Bond, who is a graduate 
of, and a trustee of, Linfield College in McMinnville, Oregon.
    Chair Gordon. Well, the West Coast is well represented here 
today, and as witnesses know, we try to limit our testimony to 
five minutes in terms of the spoken testimony. We have a copy 
of your written testimony already. So we will now start with 
Dr. Thomas.

 STATEMENT OF DR. VALERIE THOMAS, ANDERSON INTERFACE ASSOCIATE 
PROFESSOR OF NATURAL SYSTEMS, SCHOOL OF INDUSTRIAL AND SYSTEMS 
ENGINEERING, AND SCHOOL OF PUBLIC POLICY, GEORGIA INSTITUTE OF 
                           TECHNOLOGY

    Dr. Thomas. Chair Gordon and Ranking Member Hall and 
Members of the Committee, thank you for the opportunity to 
testify today, and also I would like to thank Representative 
Holt for his very kind introduction. I am Valerie Thomas and I 
am an associate professor at Georgia Tech in the School of 
Industrial and Systems Engineering.
    It is widely recognized that electronics are not well 
designed for recycling. The valuable components are hard to 
extract and difficult to reuse. What is less well understood is 
that the electronics supply chain has not been designed for 
recycling either. The supply chain for making and selling 
electronics is a model of efficiency managed with electronic 
data interchange, electronic manifests, radio-frequency tags on 
pallets and cartons, and UPC codes on every single package. In 
stark contrast, the end-of-life supply chain is managed almost 
entirely by hand with little recordkeeping or even potential 
for monitoring or oversight. That the results have included 
unsafe, polluting, and illegal activities at the end-of-life 
should not be a surprise.
    Electronics are just one example of the myriad products 
that consumers and businesses are increasingly expected to 
recycle. Major efforts to increase electronics recycling have 
brought the rate up to about 18 percent. Major efforts to 
encourage battery recycling including the 1996 Mercury 
Containing and Rechargeable Battery Management Act have been 
even less successful. If electronics or any other complex or 
hazardous products are going to be recycled at high rates, 
innovation and creative use of technology will be needed.
    Electronics could have a standard label that would allow 
recyclers to identify the make and model of the product and 
manage its recycling or refurbishment. These labels could be 
something like UPC bar codes or they could be radio frequency 
ID (RFID) tags. In a small project sponsored by the U.S. EPA 
(Environmental Protection Agency), electronics manufacturers, 
retailers and recyclers, and in fact Willie Cade at the other 
end of the table from me and I are working together on this, 
are beginning to work out how to use RFID to make electronics 
recycling work better.
    Recycling rates for electronics are low because collection 
programs are difficult to use and because products are 
difficult to recycle. Products need to be designed for 
recycling and collection programs need to be very easy, almost 
automatic, regardless of how complex the product is. Currently, 
consumers are mainly responsible for managing recycling. There 
have been efforts to make producers responsible for recycling.
    A third way might work better: improve both product design 
and collection systems so that products can manage their own 
recycling. Rather than having to continue to work so hard to 
educate consumers about how to recycle each and every one of 
their purchases, products could almost manage themselves. For 
example, consumers could recycle electronics just by putting 
them in their curbside recycling bin. The bin could, or should, 
be able to automatically read the label on the product and 
automatically arrange for pickup. The recycler or the 
recycler's computer system would automatically arrange for 
resale or recycling and the consumer would get a rebate for 
that item. Basically the consumer would not have to do much of 
anything. The tag on the product would put everything in 
motion.
    Electronics recycling is important but it occurs in a 
larger context of energy use and manufacturing impacts, impacts 
of recycling and of reuse. Good recycling research is done in 
the context of all of the impacts of electronics and considers 
all alternatives.
    And I would like to make one last point. Environmental 
problems are among the key challenges facing the world. 
Students want to solve environmental problems. Courses related 
to energy, environment, and sustainability draw students in to 
the study of engineering. At Georgia Tech, our environmental 
courses are packed. Section 6 of the draft E-waste R&D Act 
supports environmental training for engineers. This would not 
only help to solve environmental problems, it would also 
attract more students to engineering.
    Thank you for your attention, and I would be happy to 
answer questions.
    [The prepared statement of Dr. Thomas follows:]

                  Prepared Statement of Valerie Thomas

    Disposal or recycling of electronics can have significant human 
health and environmental impacts. Electronics can contain lead, 
brominated flame retardants, cadmium, mercury, arsenic and a wide range 
of other metals and chemical compounds. The recycling rate is, at best, 
about 18 percent, and most electronics collected in the U.S. for 
recycling have been sent to other countries for processing (US EPA 
2008). In a 2008 report, the GAO found that a substantial fraction of 
these end up in countries where disposal practices are unsafe to 
workers and dangerous to the environment. Used electronics exported 
from the United States to some Asian countries are dismantled under 
unsafe conditions, using methods like open-air incineration and acid 
baths to extract metals such as copper and gold (US GAO, 2008; Williams 
et al., 2008).
    If it is carried out correctly, electronics recycling can prevent 
pollution, create jobs and save resources. Keeping activities such as 
sorting and reprocessing of electronics in the urban areas where they 
have been used and collected can provide significant economic and 
social benefits (Leigh et al., 2007a, 2007b). These benefits could be 
significantly enhanced if plans for recycling and refurbishment were 
incorporated into the design of the product and its supply chain.
    It is widely recognized that electronics have not been designed for 
recycling: the valuable components are hard to extract and difficult to 
reuse, and the valuable constituents are mixed with a complex set of 
low value and potentially hazardous materials.
    What is less well recognized is that the electronics supply chain 
also has not been designed for recycling. The existing supply chain for 
manufacturing, delivery, and retailing of electronics is a model of 
efficiency, managed with electronic data interchange, electronic 
manifests, radio-frequency tags on pallets and cartons, and UPC codes 
on individual product packages. These kinds of supply chain 
innovations, developed over the past thirty years, have saved money and 
allowed for the efficient production and retailing of tens of thousands 
of products. In stark contrast, the end-of-life supply chain is managed 
almost entirely by hand, with little record-keeping or even potential 
for monitoring or oversight. That the result has included unsafe, 
polluting, and illegal disposal activities should not be a surprise.
    Electronics are just one example of the myriad products that 
consumers and businesses are increasingly expected to recycle. Recent 
major efforts to encourage electronics recycling have brought the 
recycling rate up to about 18 percent. Major efforts to encourage 
recycling of batteries--including passage of the 1996 Mercury-
Containing and Rechargeable Battery Recycling Act--have been even less 
successful. The draft E-Waste R&D Act proposes to address low recycling 
rates by ``studying factors that influence behavior and educating 
consumers about electronic waste.'' This will not be nearly enough. To 
achieve high collection rates, recycling programs for consumer products 
such as electronics and batteries will need a different approach to 
collection.
    If electronics--or any other complex or hazardous product--are 
going to be recycled as part of a planned and well managed system, 
supply chain innovation is needed. Use of information technology to 
manage the end-of-life supply chain will be especially important 
because there are thousands of different makes and models of 
electronics products that enter the waste stream every year.
    Electronics--and other complex products that need to be recycled--
could have a standardized label that would allow recyclers to identify 
the make and model of the product and manage its recycling or 
refurbishment. These labels could be something like a standard UPC bar 
code (Saar et al., 2004). Alternatively, a radio-frequency 
identification code (RFID) could be installed inside the product and 
serve the same function while being easier to read and providing more 
information (Thomas, 2008, 2009).
    In a small project sponsored by the US EPA and convened by the RFID 
standards organization, EPCglobal, recyclers, electronics 
manufacturers, and retailers are beginning to think through how 
electronics recycling could be improved by use of RFID tags. This is an 
ongoing project, but in our preliminary report (Maxwell, 2008), the 
group has concluded that potential benefits for manufacturers and 
retailers include:

        <bullet>  increased efficiency and lower cost for recycling,

        <bullet>  opportunities for recycling incentives, rebates, 
        coupons and trade-ins,

        <bullet>  improved warranty management, and

        <bullet>  better after-sale services.

    Potential benefits for recyclers include:

        <bullet>  improved inventory control,

        <bullet>  more efficient product sorting and management,

        <bullet>  improved audit capabilities,

        <bullet>  integration of product data into online markets, and

        <bullet>  easier and less costly reporting to regulators and 
        clients.

    Better management of today's recycling programs is only the 
beginning of what could be accomplished. The end-of-life management of 
electronics and other products could be transformed by a combination of 
improved product design, innovative online markets, integration of 
information technology into product management, and supply chain 
innovations. Already, online markets such as eBay, Craig's List, and 
Freecycle have made the reuse and refurbishment of electronics easier 
and more common. Already, companies like Recycle Bank use RFID codes on 
recycling bins to reward consumers for recycling.
    In the future, consumers could start the process of recycling, 
reuse or resale simply by putting their unwanted item in their own 
``smart'' recycling bin: the bin would automatically read the label on 
the product, and automatically arrange for recycling pick-up; the 
recycler, receiving information in advance about the items in the bin, 
would be able to automatically arrange for sorting and resale or 
recycling, and the consumer would receive a rebate for recycling that 
specific item, based on its value or hazard. This kind of system places 
the capability to enter the collection system within the product 
itself. Rather than having to continue to work so hard to educate 
consumers about how to recycle each and every one of their purchases, 
consumer products could, almost, manage themselves (Saar and Thomas, 
2002; Thomas, 2003).
    Today, recycling programs for electronics and other consumer 
products have low recycling rates both because collection programs are 
difficult for consumers to use and because the products are difficult 
to recycle. To achieve high recycling rates, products need to be 
designed for recycling, and collection programs need to be designed to 
be very easy, almost automatic, regardless of the complexity of the 
product. Currently, consumers are mainly responsible for managing the 
recycling or disposal of their products. In some locations there have 
been efforts to make producers responsible for managing the recycling 
or disposal of their products. A third approach might work better: 
improve both product design and collection systems so that products can 
increasing manage their own entry into the collection and recycling 
system.
    With respect to the specifics of the legislation: The draft E-Waste 
R&D Act will be most effective if it takes into account the entire life 
cycle of electronics products. Electronics can have environmental 
impacts in manufacturing and in use as well as in disposal. Use of 
recycled materials or components can reduce the environmental impact of 
electronics production. In some cases reusing or refurbishing 
electronics will result in more energy use than would purchase of a new 
model; in other cases used or refurbished electronic devices can 
provide more environmental, economic and social benefit than recycling. 
A research program that focuses only on end-of-life has the potential 
to overlook major opportunities for reducing the environmental impacts 
of electronics, and could be counter-productive. The research program 
should consider the full life cycle of electronics.
    With respect to engineering education: The Engineering 2020 study 
from the National Academy of Engineering has identified environmental 
issues as one of the key challenges facing the world and the 
engineering profession now and in the coming decades (NRC, 2002). 
Equally importantly, students realize that this important, and courses 
related to energy, environment, and sustainability can draw students in 
to the field of engineering. Section 6 of the draft E-Waste R&D Act 
supports the consideration of environmental consequences in 
undergraduate and graduate-level engineering curriculum. Many 
institutions of higher education have already made substantial progress 
in this area. A recent survey shows that teaching and research in 
sustainable engineering are part of the activities of most of the top 
100 engineering programs in the United States (Murphy et al., 2009). At 
my own institution, the Georgia Institute of Technology, almost every 
school in the College of Engineering has environmental offerings at 
both the undergraduate and graduate level. Yet there is much to be 
done. By and large, the environmental aspects of the engineering 
curricula are at an introductory level. The next step is to develop the 
depth and rigor that engineers will need, and that engineering 
departments will require for environmental material to be adopted into 
their core curricula. Engineering schools are well-prepared to take the 
next steps, and support for this work would be welcomed.

References

Leigh, N.G., Realff, M.J., Ai, N., French, S.P., Ross, C., Bras, B. 
        Modeling Obsolete Computer Stock Under Regional Data 
        Constraints, Resources Conservation and Recycling 51(4):847-
        869, 2007a.

Leigh, N.G., N. Ai, S. French, B. Bras, M. Realff, J. Barringer. 
        Exploring Opportunities for Urban Redevelopment and Mitigating 
        Inequality via Sustainable Electronic Waste Management: An 
        Atlanta Case Study. The 48th Association of Collegiate Schools 
        of Planning (ACSP) Annual Conference, Milwaukee, Wisconsin, 
        Oct. 18-21, 2007b.

Maxwell, E. 2008. Project PURE Preliminary Report.

Murphy, C., D. Allen, B. Allenby, J. Crittendon, C. Davidson, C. 
        Hendrickson, S. Matthews, Sustainability in Engineering 
        Education and Research at U.S. Universities. Submitted to 
        Envir. Sci. Technol., 2009.

National Academy of Engineering. The Engineer of 2020: Visions of 
        Engineering in the New Century. National Academy Press, 
        Washington DC, 2004.

Saar, S., M. Stutz, and V.M. Thomas. ``Toward Intelligent Recycling: A 
        Proposal to Link Bar Codes to Recycling Information,'' 
        Resources, Conservation, and Recycling 41(1):15-21, 2004.

Saar, S. and Thomas, V. ``Toward Trash That Thinks: Product Tags for 
        Environmental Management,'' Journal of Industrial Ecology, 
        6(2):133-146, 2002 http://dx.doi.org/10.1162/108819802763471834

Thomas, V.M. ``Radio-Frequency Identification: Environmental 
        Applications,'' White Paper, Foresight in Governance Project. 
        Woodrow Wilson International Center for Scholars, 2008. http://
        wilsoncenter.org/index.cfm?topic<INF>-</INF>id=1414&fuse 
        action=topics.item&news<INF>-</INF>id=484400

Thomas, V.M. ``A Universal Code for Environmental Management of 
        Products,'' Submitted to Resources, Conservation and Recycling, 
        2009.

Thomas, V.M., ``Product Self-Management: Evolution in Recycling and 
        Reuse,'' Environmental Science and Technology 37(23):5297-5302, 
        2003.

US EPA 2008. Statistics on the Management of Used and End-of-Life 
        Electronics. http://www.epa.gov/epawaste/conserve/materials/
        ecycling/manage.htm and Fact Sheet: Managed of Electronics 
        Waste in the United States. http://www.epa.gov/epawaste/
        conserve/materials/ecycling/docs/fact7-08.pdf

US GAO 2008. Electronic Waste. EPA Needs to Better Control Harmful U.S. 
        Exports Through Stronger Enforcement and More Comprehensive 
        Regulation. August. GAO-08-1044.

Williams, E. et al. Environmental, Social, and Economic Implications of 
        Global Reuse and Recycling of Personal Computers. Envir. Sci. 
        Technol. 42(17):6646-6454, 2008.

                      Biography for Valerie Thomas

    Valerie Thomas is the Anderson Interface Associate Professor of 
Natural Systems in the H. Milton Stewart School of Industrial and 
Systems Engineering at the Georgia Institute of Technology, with a 
joint appointment in the School of Public Policy. She has a Ph.D. in 
physics from Cornell University, and a B.A. from Swarthmore College. 
She has previously worked at Carnegie Mellon University and Princeton 
University, and in 2004-05 she was a Congressional Science Fellow, 
sponsored by the American Physical Society.

    Chair Gordon. Thank you, Dr. Thomas.
    Dr. Anastas.

STATEMENT OF DR. PAUL T. ANASTAS, TERESA AND H. JOHN HEINZ III 
  PROFESSOR IN THE PRACTICE OF CHEMISTRY FOR THE ENVIRONMENT, 
SCHOOL OF FORESTRY AND ENVIRONMENTAL STUDIES; DIRECTOR, CENTER 
   FOR GREEN CHEMISTRY AND GREEN ENGINEERING, YALE UNIVERSITY

    Dr. Anastas. I would like to thank you, Chair Gordon and 
the Members of the Committee for the opportunity to comment on 
this draft bill. My name is Paul Anastas. I am the Director of 
the Center for Green Chemistry and Green Engineering at Yale 
University, and I offer this testimony on behalf of myself and 
my Associate Director, Professor Julie Zimmerman. I want to 
compliment the Committee on addressing this serious issue of e-
waste and the draft bill has many excellent professions that I 
certainly endorse.
    The main message that I would like to make to the Committee 
today is really threefold. One is that if we are going to look 
at the issue of waste--electronic waste--it cannot be waste 
alone but design throughout the entire life cycle of 
electronics; second, that there are design frameworks that 
exist currently to ensure that electronics are able to be green 
and sustainable; and third, that through research and 
development, we are able to not only ensure that they meet 
environmental goals but also economic goals and performance 
goals.
    So first a few words about waste. When we look at the issue 
of how you design any electronic, it is important to know that 
looking at waste alone is not going to do anything for the 
manufacturers and assemblers and exposing them to hazardous 
substances. We know that in a typical cell phone, there are 
approximately 60 elements in the periodic table that are used 
in cell phones today, and focusing on waste is not going to 
address that issue. It is also of note that we only have 
reliable information on approximately seven of those elements 
in terms of what our supplies are and what our usage is. So 
focusing on the design allows us to not only meet our waste 
goals but also build in performance, build in capabilities and 
build in profitability while addressing these hazardous waste 
substances. It allows us to ensure the materials that are used 
are benign, non-bioaccumulative, non-endocrine disrupting and 
allows us to get higher performance at the same time.
    The sustainable design frameworks, there have been 
principles of green chemistry and green engineering in the 
literature for some time that have been used across industry 
sectors. It is often said that the compass is more important 
than the speedometer and that we need to know what the ``true 
north'' of sustainable design is. Just in the past few years, 
Presidential Green Chemistry Challenge Awards have shown that 
companies across industry sectors from chemicals to plastics to 
polymers to pharmaceuticals to agriculture and, yes, to 
electronics, have eliminated enough hazardous substances, 
according to the EPA, to fill a train car hundreds of miles 
long. Now, they didn't do this because of a regulation or `thou 
shall do green chemistry and green engineering,' it is because 
you can meet environmental and economic goals simultaneously.
    So with all of these good news stories, with all of these 
historic accomplishments, that is good news, but the better 
news is, this represents a fraction of the power and the 
potential of these green design frameworks, and for every one 
product that has been redesigned in this way, there are 
hundreds, perhaps thousands, that have not even been considered 
in these new frameworks. So the potential is immense, and one 
of the things that is absolutely required is fundamental 
research. I could list off the various areas necessary for 
dematerialization such as nanotechnology, benign materials, 
alternative chemicals that are not persistent, bioaccumulating 
and toxic, molecular self-assembly, but that is detailed in my 
written testimony.
    There are examples of very productive industry-university 
cooperative research programs that can be used as models for 
this bill including the technology for sustainable environment 
at EPA and industry-university partnerships out of the NSF 
(National Science Foundation).
    I would just like to conclude by saying that I view the 
fundamental research areas that I briefly listed as the bricks 
that make up the structure of sustainable electronics. The 
framework for sustainable design, the green chemistry and green 
engineering principles, are the mortar that hold those bricks 
together. The structure can only stand, can only be strong, can 
only be stable with both of these elements, that is, the 
fundamental research within the sustainable design frameworks.
    That said, I would like to thank you again and I would be 
happy to answer questions at an appropriate time.
    [The prepared statement of Dr. Anastas follows:]

               Prepared Statement of Paul T. Anastas and
                           Julie B. Zimmerman

    Chairman Gordon, Members of the Committee, I am pleased to testify 
today on the topic of the proposed E-Waste R&D program. My name is Paul 
Anastas and I am the Teresa and H. John Heinz III Professor in the 
Practice of Chemistry for the Environment and the Director for the 
Center for Green Chemistry and Green Engineering at Yale University.
    The bill under discussion today centers on the problem of e-waste. 
My testimony focuses on considering solutions to this problem from a 
broader context. E-waste, like waste of any kind, is fundamentally an 
end-of-pipe problem. To truly address this issue in a meaningful and 
permanent sense, a research program should be designed to tackle it at 
its source--at the design-level of the products. Though creating the 
infrastructure and technologies necessary to manage and reuse waste 
materials is an important short-term goal, the enormous growth 
projected for the electronics sector is also an opportunity to re-
imagine how these products are designed and attempt to eliminate not 
only the notion of waste, but also the environmental impacts of 
electronics on humans and the environment throughout their life cycle. 
My testimony seeks to make the following key points:

        1.  E-waste is a serious and growing problem and yet it is only 
        one aspect of the much larger issue as we seek to move toward 
        sustainable electronics.

        2.  Waste is one egregious symptom of flawed design. With 
        improved design, we can address not only the waste issue but 
        also the important issues of energy usage, worker/assembler 
        safety, depletion of scarce, rare, and precious metals, and the 
        reduction of toxics use and replacement with benign 
        alternatives.

        3.  Sustainable design frameworks exist to achieve these goals 
        including the Principles of Green Chemistry and the Principles 
        of Green Engineering.

        4.  Significant research challenges exist and can be addressed 
        through thoughtful investment by the Federal Government in 
        academic research in partnership with the private sector.

        5.  Advances in sustainable design of electronics can lead to 
        improvements in overall environmental performance, including 
        waste, while at the same time creating innovations in 
        functional performance that enhances jobs and competitiveness.

Introduction

    Electronic devices are a central feature of our daily lives. We 
rely on them for everything from communicating with our loved ones to 
monitoring our blood glucose to ensuring that our cars respond 
intelligently to changing road conditions.
    Not only do electronics provide us with a vast array of personal 
benefits, but they also have a potentially significant role to play in 
sustainable development. For example, electronics could lead to greater 
environmental sustain ability by significantly reducing the need for 
transport, leading to the dematerialization of certain products (such 
as the virtual provision of multimedia), or providing improved 
environmental monitoring capacity. With recent concern over global 
climate change, large-scale efficiency gains resulting from information 
and communication technology (ICT) use across sectors are seen as a key 
tool for transitioning to a lower-carbon world and facilitating low-
carbon development.\1\ On the social development side, ICT can 
facilitate general access to knowledge, build community-organizing 
capacity, and provide access to local and global markets. All of these 
are dramatically under-served needs in the developing world.
---------------------------------------------------------------------------
    \1\ Smart 2020: Enabling the low carbon economy in the information 
age. The Climate Group, on behalf of the Global eSustainability 
Initiative. 2008. ICT's potential role in mitigating climate impacts 
was the subject of the recently-published ``SMART 2020'' report, which 
concluded that ICT's potential for increasing the efficiency of other 
sectors is so great that it beyond offsets the use-phase emissions of 
the ICT sector itself, though the CO<INF>2</INF> emissions reductions 
needed to stabilize atmospheric greenhouse gas levels still exceed what 
those gains would represent.
---------------------------------------------------------------------------
    Sustainable development will require that the services provided by 
electronics continue to be made available to an ever-widening pool of 
consumers. The importance and value of electronics and their ability to 
offset other environmental problems are often used to excuse their own 
environmental impact. However, even a small impact subject to the scale 
of production that electronic devices will see in the coming decades 
would be unacceptably large. It is even more daunting to consider that 
electronics have one of the largest impacts per unit mass out of any 
product category. Electronic devices are inherently complex--they 
contain hundreds of materials, many of which are toxic, and require 
extremely precise structure and assembly on a minute scale, making them 
very resource-intensive to produce. As electronic devices become 
increasingly central to human life, we need to develop ways to 
sustainably provide their key services without tacitly accepting the 
problems they currently bring with them.
    Thus far, industry's understandable initial response to these 
concerns has been to embark on a program of incremental improvement--
making each generation of products slightly less toxic, slightly more 
energy efficient, slightly ``less bad.'' However, in a time 
characterized by explosive growth in the worldwide use of electronics, 
a commitment to incremental improvement is not sufficient. Nor will 
even a reasonably effective end-of-pipe waste management system for the 
e-waste stream sufficiently address the material throughput or toxicity 
issues that are already apparent. We cannot solve an exponential 
increase in problems with a linear decrease in impact.
    Our longer-term research priorities must be targeted toward the 
drastic reduction of both the volume and the toxicity of this waste 
stream through concerted efforts at better design. We need to clearly 
define the challenges we hope to tackle, and then address them in a 
more creative and innovative manner than has thus far been applied. 
This approach will also require efforts to build our long-term capacity 
for innovation, through the building of a sustain ability knowledge 
base throughout our nation's engineering programs. The good news is 
that sustainable electronics are possible. We have the tools and design 
frameworks required for getting on the right path. However, to overcome 
a challenge, we must first recognize it as a challenge--and define our 
targets appropriately.

The Electronics-Manufacturing Sector: Historic & Current Problems

    The electronics-manufacturing sector is characterized by quick 
product turnover, complicated and globalized production chains, capital 
intensity, a high level of outsourcing, and a global material 
footprint. A typical computer contains over 1,000 components, whose raw 
materials draw on the majority of the periodic table. It's usual for 
these components to be manufactured and assembled in different parts of 
the world--for example, semiconductor chips made in Scotland, a disk 
drive made in the Philippines, an LCD monitor made in South Korea, 
circuit boards fabricated in China and assembled in Taiwan, and the 
final product assembled in Mexico.\2\ In 2005, only 25 percent of 
production was done ``in house,'' with 75 percent outsourced to 
contract manufacturers, primarily in Asia.\3\
---------------------------------------------------------------------------
    \2\ Example adapted from Schipper, Irene and de Haan, Esther. ``CSR 
Issues in the ICT Hardware Manufacturing Sector'' SOMO ICT Sector 
Report. September 2005.
    \3\ Schipper, Irene and de Haan, Esther. ``CSR Issues in the ICT 
Hardware Manufacturing Sector'' SOMO ICT Sector Report. September 2005.
---------------------------------------------------------------------------
    Environmental concerns for electronic devices, can be broken down 
into three major categories:

        --  The use of hazardous and toxic substances

        --  Resource and energy intensity

        --  The loss of materials and their embedded value to the waste 
        stream

    The complexity of electronic products represents an investment of 
energy, water, and processing time that goes far beyond the basic value 
of their structural materials. For example, the production of a memory 
chip requires about 600 times its weight in fossil fuel. This is at 
least an order of magnitude higher than any other product category--for 
comparison: the production of a car requires 1-2 times, and an aluminum 
can requires 4-5 times its weight in fossil fuel.\4\
---------------------------------------------------------------------------
    \4\ Environmental Science and Technology, ``The 1.7 Kilogram 
Microchip: Energy and Material Use in the Production of Semiconductor 
Devices,'' Williams, E.D.; Ayres, R.U.; Heller, M.; (Article); 2002; 
36(24):5504-5510. http://dx.doi.org/10.1021/es0256430
---------------------------------------------------------------------------
    Many electronic products, especially older models, contain 
substantial quantities of hazardous substances. For example, older 
cathode ray tubes (CRTs) contain between four and seven pounds of 
lead.\5\ In 2003, the High Density Packaging User Group (HDPUG) 
conducted an industry-wide survey of the material composition profiles 
of certain IT components. Using methodologies ranging from analytical 
testing to surveys and literature reviews, they categorized what they 
considered to be the environmentally relevant materials present in 
electronic equipment based on toxicity and volume. The chart below 
presents a summary of their findings.
---------------------------------------------------------------------------
    \5\ EPA 67 FR 40509, June 12, 2002. California Environmental 
Protection Agency, Managing Waste Cathode Ray Tubes, Fact Sheet August 
2001. From the ``Recycling Technology Products'' Paper.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In addition to these substances of concern identified by the HDPUG 
group, many others are often highlighted, including: halogenated and 
other ozone-depleting substances (i.e., CFCs), plasticizers, refractory 
ceramic fibers, asbestos, lithium, and copper (which, along with 
arsenic and nickel, can catalyze the increase of dioxins during 
incineration).\7\
---------------------------------------------------------------------------
    \7\ WEEE and Hazardous Waste. A report produced for DEFRA. March 
2004.
---------------------------------------------------------------------------
    The loss of material to the waste stream is really a problem with 
three distinct sub-categories, which build on the problems already 
discussed:

        --  reducing the volume of waste entering landfills

        --  reducing pollution caused by the toxic content of disposed 
        electronics

        --  closing material loops and recovering the economic value of 
        materials

    The disposal and recycling of waste electronics has become an 
international and multidimensional issue. A great deal of attention is 
often paid to the volume of e-waste entering the waste stream. The 
volume is significant--the U.S. EPA estimates that more than 3.2 
million tons of electronic waste enters U.S. landfills every year\8\ 
and that this volume will continue to grow rapidly in the coming 
decades, the more significant problem with e-waste relates to its 
qualitative characteristics. E-waste is expensive to manage properly 
because of its bulk, small components, and toxic constituents. This 
distinguishes e-waste from ordinary garbage, while simultaneously 
making it particularly important to manage properly. However, from an 
economic perspective, only some subsets of e-waste make financial sense 
to recover, while the bulkiest ones (plastics) must be dealt with at a 
cost.
---------------------------------------------------------------------------
    \8\ Environmental Protection Agency. 
www.epa.govjepaoswerjoswjconservejpluginjindex.htm
---------------------------------------------------------------------------
    The off-shoring and improper recycling of e-waste has resulted in 
unsafe working conditions for thousands of workers in the developing 
world. In a many cases, ``recycling'' of e-waste involves burning parts 
over open pit fires in order to melt solder and separate out valuable 
components. A recent study examining heavy metal contamination levels 
in Guiyu, China, a village heavily involved in e-waste recycling, found 
that levels of lead and copper in road dust were 371 and 155 times 
higher, respectively, than in a non-e-waste recycling site 30 
kilometers away. The contamination levels in the village were likely to 
pose significant health risks, particularly to children, which the 
authors correlated with body loading studies done in the same 
region.\9\ Exposure to high levels of heavy metals can result in both 
acute and chronic health conditions ranging from damage to the nervous 
system, and changes to blood composition, lung, kidney, and liver 
functioning.\10\
---------------------------------------------------------------------------
    \9\ Leung AOW, Duzgoren-Aydin NS, Cheung KC, Wong MH. ``Heavy 
Metals Concentrations of Surface Dust from e-Waste Recycling and its 
Human Health Implications in Southeast China.'' Environmental Science 
and Technology. January 2008, in press.
    \10\ Ibid.
---------------------------------------------------------------------------
    Rapid technological advances in the electronics sector result in 
quick product turnover. This rapid turnover is exacerbated by fashion- 
and software-driven hardware obsolescence. The average lifespan for a 
PC manufactured in 2005 was estimated to be two years.\11\ Though 
demand for electronic devices in the industrialized world continues to 
grow, the most significant growth is occurring in developing countries. 
Today only 10 percent of China's population of 1.3 billion owns a 
computer. By 2020 that number is projected to rise to 70 percent. By 
that same year, half the world's population will own a mobile phone and 
almost a third of the global population will have a PC (currently one 
in 50).\12\ This translates to over four billion PCs in active use 
worldwide.
---------------------------------------------------------------------------
    \11\ National Safety Council, ``Electronic Product Recovery and 
Recycling Baseline Report: Recycling of Selected Electronic Products in 
the United States,'' May 1999.
    \12\ Smart 2020: Enabling the low carbon economy in the information 
age. The Climate Group, on behalf of the Global eSustainability 
Initiative. 2008.
---------------------------------------------------------------------------
    Not only does this imply a massive increase in the production of 
electronic devices, but it will also necessitate greater network 
capacity to support their energy needs, more materials to allow for 
their manufacture, and the creation of an infrastructure for their end-
of-life management.
    The topics touched on here are likely to be covered in more detail 
in other testimonies. However, I would like to draw attention to a few 
areas, which I believe do not get sufficient attention, and which 
should guide the development of research priorities in this field.
    The first is what I believe to be an insufficient focus on the 
toxicity of some of the material components of electronic devices. Many 
industry representatives point to the incremental improvements achieved 
in recent generations of electronic products and consider this a 
successful stopping point for the elimination of toxic and hazardous 
materials. However, the fact remains that electronic devices still 
contain many hazardous materials. What we should ultimately be aiming 
for is the total elimination of toxic and hazardous materials in these 
products. Only when products are truly benign will their mass 
production not pose a substantial threat to workers, users, and those 
handling the equipment at end-of-life. Truly benign products do not 
pose an inherent risk--they can be handled properly or mishandled 
without any threat to humans or the environment. This is not an easy or 
short-term proposition, but it is the goal that we should at least be 
aspiring to achieve. Perhaps, and likely, this cannot be achieved 
through the search for direct analogues of existing toxic materials. 
Instead, we can focus on shifting towards new technological avenues. 
For example, rather than replacing the lead in cathode ray tubes with a 
benign alternative, we instead replaced CRTs with an entirely different 
technology.
    Another issue, which is only infrequently touched upon, is the 
question of material scarcity. The operating assumption within the high 
tech manufacturing industry is that sufficient material exists to 
continue satisfying the enormous and growing demand for electronics. 
However, these assumptions are not always grounded in firm data--
because in many cases, the data does not exist. We generally have a 
very poor understanding of the material quantities that we consume, or 
how consistently we can expect those flows to continue. One example 
particularly relevant to the electronics sector is that of tantalum, a 
scarce metal that is essential for the manufacture of capacitors and 
resistors. At the very least we should attempt to better quantify the 
stocks and flows of various resources through the electronics sector to 
improve our capacity for impact assessment.
    Finally, I would like to draw attention to the potential of 
emerging technologies. These nascent technologies including molecular 
self-assembly, nanotechnology and nanomaterials, self-healing polymers, 
organic batteries and others, offer the promise of not merely meeting 
environmental goals but also dramatically increasing performance and 
competitiveness. Only though proper support for the basic research and 
development of these innovative new fields can the power and potential 
of these green chemistry and green engineering solutions be realized.

Frameworks for Sustainable Design

    It has become widely accepted that any consideration of product 
sustainability should take into account the entire product life cycle--
from raw material acquisition and manufacturing, through use, to 
disposal.
    Looking at the entire life cycle helps prevent ``problem 
shifting.'' For example, energy-saving compact fluorescent light bulbs 
save a great deal of electricity, but represent a life cycle trade-off 
because they contain mercury--thus shifting environmental burden from 
the use phase to manufacturing and end-of-life. Examining the whole 
life cycle also helps standardize the environmental burden against the 
unit of service provided--for example, a disposable cup may have a much 
lower environmental cost than a metal travel mug, but the metal travel 
mug is capable of providing hundreds of uses in comparison with the 
disposable's single use. A key step in optimizing any system requires 
an objective look at where the largest areas for improvement lie within 
the system as a whole.
    Several frameworks for sustainable design, all of which take a life 
cycle perspective, have become well established over the past decade, 
among them the 12 Principles of Green Chemistry and the 12 Principles 
of Green Engineering.\13\ Though it is unnecessary to go into the 
details of this design framework here, it implies some key approaches 
for responding to the problems outlined above through re-design:
---------------------------------------------------------------------------
    \13\ Anastas, P.T., and Zimmerman, J.B., ``Design through the 
Twelve Principles of Green Engineering,'' Env. Sci. and Tech., 
37(5):95-101, 2003. Anastas, P.T., Warner, J.C., Green Chemistry: 
Theory and Practice, Oxford University Press, 1998.

---------------------------------------------------------------------------
        1.  Eliminate or severely reduce toxicity (toward zero hazard)

                <bullet>  Materials and energy sourcing--By changing 
                the nature of the materials and energy that are input 
                into the process of making electronics, we can 
                dramatically improve all aspects of the life cycle 
                stages of electronics including that of e-waste.

                          Reduce the use of hazards wherever possible 
                        (i.e., replacing toxic flame retardants, 
                        plasticizers, mercury, lead, and arsenic--
                        containing substances, etc.).

                          Design new materials, plastics, composites 
                        and alloys that increase performance while 
                        reducing toxicity.

                          Ensure that the new materials are designed 
                        such that included as part of functional 
                        performance are things like non-persistence, 
                        non-bioaccumulation, degradability, non-
                        mutagenic/non-carcinogenic, and non-endocrine 
                        disrupting.

        2.  Close the material loop (achieve zero waste)

                <bullet>  Design for reuse and end-of-life. The primary 
                goal for end-of-life design for electronics should be 
                to retain the embedded complexity of these products 
                because they are so resource-intensive to produce. 
                Functional components should be re-used whole as a 
                first priority, recycled for their raw materials as a 
                second priority, and appropriately disposed of as a 
                last resort.

                          Incorporate take-back schemes

                          Reduce material diversity

                          Improve the ease of product disassembly

                          Incorporate renewable/biodegradable 
                        materials wherever possible and advisable

                <bullet>  Think broadly about possible material 
                synergies outside of the industry.

                          Can waste products be sold as feedstock to 
                        other industries? Example: IBM is reported to 
                        have recently begun selling its information-
                        scoured silicon chips as a feedstock for solar 
                        panels.\14\
---------------------------------------------------------------------------
    \14\ The Associated Press. ``IBM to Recycle Chips for Solar 
Panels.'' The International Herald Tribune. 30 October 2007. <http://
www.iht.com/articles/2007/10/30/business/ibm.php>

                          Can other industries' wastes be purchased as 
                        feedstock? \15\ Example: University of Delaware 
                        Professor Richard Wool's chicken-feather-based 
                        circuit boards, which take an existing waste-
                        stream (three billion pounds of chicken 
                        feathers are disposed of annually) and use it 
                        as a feedstock to make a more efficient circuit 
                        board than the conventional version.\16\
---------------------------------------------------------------------------
    \15\ De la Pena, N. ``Sifting the Garbage for a Green Polymer.'' 
The New York Times. 19 June 2007. <http://www.nytimes.com/2007/06/19/
science/19poly.html>
    \16\ Frazer, L. ``Chicken Electronics--A Technology Plucked from 
Waste.'' Environ. Health Perspect. 112(10):A564-A567, July 2004.

        3.  Optimize resource use at the design stage (for energy, 
---------------------------------------------------------------------------
        materials, and time)

                <bullet>  Determine and design for optimal product 
                lifetime--Extending useful product life for most 
                electronics would lead to overall energy and resource 
                savings. This is also supported by recent life cycle 
                analysis studies that have shown that the use phase 
                only comprises about 20 percent of total energy 
                consumption over the lifetime of an electronic 
                device.\17\ However we must also balance this with the 
                concerns of ``locking-in'' resources into technologies 
                that may become obsolete or that may be perceived to be 
                obsolete by style-conscious consumers.
---------------------------------------------------------------------------
    \17\ Williams, Eric. Energy Intensity of Computer Manufacturing: 
Hybrid Assessment Combining Process and Economic Input-Output Methods. 
Environmental Science and Technology. 2004; 38(22):6166-6174. http://
dx.doi.org/10.1021/es035152j

                          Therefore, product lifetimes should be 
                        increased, but provisions should be made for 
---------------------------------------------------------------------------
                        adaptability and upgradeability.

                          Modular options could provide trend-
                        conscious consumers with exchangeable 
                        components for a new product appearance. These 
                        style upgrades could largely go on within 
                        companies out of customer view.

                <bullet>  Select production methodologies that are as 
                efficient as possible

                <bullet>  Select materials that deliver functionality 
                with minimal resource input

                <bullet>  Expand the number of services delivered by 
                any single device

Specific Research Priorities

    The high turnover in the electronics sector is often framed as a 
problem, but from a sustainable design perspective it can also be seen 
as an opportunity. With technology advancing rapidly, each new 
generation of products is the chance to try something new and truly 
break out of existing technological paradigms. However, there are 
certain problems that will need to be dealt with sooner than others.
    Innovations in areas ranging from chemistry and materials science 
to systems engineering and policy will be required to effectively 
address the problem of e-waste.

          Short-term

                <bullet>  Up-cycling historic wastes--

                          Research on the transformation or 
                        destruction of current toxics.

                          Determine the applications for the direct 
                        re-use of electronics, component re-use, or 
                        recycling--with the goal of retaining as much 
                        embedded complexity as possible.

                          Nanotechnology has the potential to 
                        revolutionize a number of industries through 
                        the creation of materials with novel physical 
                        properties. This area needs to be thoroughly 
                        investigated in order to maximize its potential 
                        benefits in the electronics sector while 
                        designing through newly emerging Green-Nano 
                        programs to reduce the intrinsic of toxicity 
                        and eco-toxicity.

                <bullet>  Improve design for disassembly to enhance the 
                reuse and recyclability of new products--both through 
                new recycling technologies and new product design.

                          Research new material joining options such 
                        as fasteners, welds, adhesives

                          Examine the potential for the use of new 
                        materials developed through bio-based and 
                        molecular self-assembly techniques

                <bullet>  Improve the recycling infrastructure

                          Educate consumers about electronic waste

                          Facilitate the collection of electronic 
                        products

                <bullet>  Extend useful product life

                          Determine the factors that lead to 
                        technological failure

                <bullet>  Conduct basic research on materials and life 
                cycle impacts

                          Support data-gathering programs that will 
                        allow for the completion of Life Cycle Analyses 
                        (LCAs) and Material Flow Accounts (MFAs)

    The toxic materials contained in older electronic products that 
will hit the waste stream in the next 10 years are a potentially 
serious environmental problem. Effective ways of managing these legacy 
products remain an unresolved challenge. Improving recycling technology 
to be able to safely extract valuable materials from this waste stream 
will be one of the earliest priorities.
    Plastics present another challenge because although they constitute 
a large part of the volume of the e-waste stream, however they 
represent a low fraction of the value, which does not create economic 
incentive for their recovery. In the near-term, one of the solutions to 
this problem will be to research alternative uses for the mixed plastic 
stream that can be extracted from legacy electronics. A market for 
these materials needs to be established if we wish to successfully 
divert them from landfills and other disposal options.
    To avoid these very problems with future generations of electronic 
products, an immediate, concerted research effort should be directed at 
designing components and materials that are easily separable and 
recoverable. For materials used in very minute quantities, advanced 
separation techniques should be explored. This is, a key priority for 
putting an immediate dent into the future e-waste stream.
    Historically, the ``use phase'' of electric and electronic 
equipment has been considered the most important energy-consuming phase 
of the product life cycle. Though this holds true for large appliances 
such as washing machines and refrigerators, in the case of most 
personal electronic devices such as computers, the majority of resource 
consumption and energy usage occurs before the product even reaches the 
consumer. A now widely cited study found that the life cycle energy 
burden of a computer is dominated by the production phase (81 percent) 
as opposed to operation (19 percent).\18\ This is one of the major 
reasons that extending the usable lifespan of ICT devices has been 
identified by many groups as a potentially promising approach to 
mitigating their environmental impact.\19\
---------------------------------------------------------------------------
    \18\ Williams, Eric. Energy Intensity of Computer Manufacturing: 
Hybrid Assessment Combining Process and Economic Input-Output Methods. 
Environmental Science and Technology. 2004; 38(22):6166-6174. http://
dx.doi.org/10.1021/es035152j
    \19\ Ibid.
---------------------------------------------------------------------------
    An important problem for evaluating the environmental 
sustainability of electronic products is the lack of sufficient 
information on life cycle impacts. Because of insufficient data, we 
don't even know how much of certain materials (such as precious metals) 
we are using, and how quickly we are depleting our existing stock. It 
is estimated that the typical mobile phone made today contains 
approximately sixty chemical elements from the Periodic Table. Of 
these, we may have adequate data on the supplies and usage rates of 
eight of them. This is something that needs to be remedied through 
basic research.

          Mid-term

                <bullet>  Begin to phase out toxics

                <bullet>  Investigate new materials and improve 
                existing functionalities

                          Develop new display technologies

                          Improve energy storage capability

                <bullet>  Basic material research on polymers, 
                composites, and conducting organic materials.

    A central tenet in the 12 Principles of Green Chemistry is that we 
should strive to eliminate toxic and hazardous materials to the 
greatest extent possible throughout their life cycle. Though the 
ultimate goal of product re-design should be the elimination of toxic 
and hazardous substances, this process will need to be carefully 
managed and not forced through by over-eager legislation. The trade-
offs of eliminating certain toxic substances for alternative materials 
appear to be highly uncertain in some areas, and have often led to 
heated debates, particularly just prior to the adoption of definitive 
regulatory measures. Among several recent examples, one of the most 
prominent is the regulatory push to eliminate lead.
    Consumer electronics constitute 40 percent of the lead found in 
landfills,\20\ largely originating from cathode ray tube (CRT) 
monitors, but also present in significant quantities in printed circuit 
boards. Lead is well known to have neurotoxic effects and presents a 
particular risk for children. The recently adopted RoHS directive in 
the European Union, which has been in effect since July 1, 2006, has 
severely restricted the use of lead in any new electronic devices, 
particularly in solders, which forces manufacturers interested in 
continuing sales in the EU market to switch to alternatives.
---------------------------------------------------------------------------
    \20\ Silicon Valley Toxics Coalition, ``Fourth Annual Computer 
Report Card,'' January 9, 2003; http://www.svtc.org/cleancc/pubs/
2002report.htm
---------------------------------------------------------------------------
    Tin-lead solders have been used for over half a century, and 
shifting to alternatives has raised concern about the performance of 
the alternatives.
    Therefore, it is important to innovate truly better alternatives to 
existing toxic products, and not prematurely stifle the process through 
legislative bans in the absence of the necessary research on the green 
chemistry alternatives. This fundamental research is essential to 
meeting the genuine goals of moving away from toxic materials in ways 
that don't cause unintended environmental, health, and economic 
consequences.

          Long-term

                <bullet>  Material basis of computers

                          Non-depleting

                          Non-rare, scarce, toxic metals

                          Non-persistent, non-accumulating, non-toxic 
                        materials

                <bullet>  Focus on new dematerialized product 
                conceptions

                          Nanoscale materials and components

                          Molecular self-assembly

                          Biomimetic devices

                <bullet>  Strive for holistic applications of green 
                design

                          Dematerialize--use fewer devices with less 
                        overall material to provide the same services

                          Close material loops--cease to design 
                        products whose components cannot be fully 
                        recovered for some kind of use

    The ultimate message is that green chemistry and engineering 
principles can only lead to sustainability if they are applied 
systematically. Incremental improvements along specific problem 
trajectories are essential stepping stones, but the full-fledged, 
system-wide adoption of these design foundations calls for 
transformative breakthroughs--both in products themselves and in the 
logistical systems we have in place for managing them and their waste 
streams. This integrated approach to design is the only way to truly 
address the e-waste problem.
    These key transformative innovations will likely rely heavily on 
dematerialization and will probably make use of technologies that are 
currently unknown or just emerging, such as nanoscale self-assembly, 
self-healing materials, programmed decomposition, biological mining and 
recovery (for minute quantities of valuable materials).
    The ultimate goal is to create products that can provide increased 
benefits to our society and our economy--on energy that is renewable, 
made of materials that are benign, and based on renewable and reusable 
feedstocks. This vision is the goal of perfection we seek through green 
chemistry and green engineering and it is only through holding out 
goals of perfection--the ``true north''--that we guarantee continuous 
improvement rather than settling for half-solutions and comprises.
    The E-Waste R&D program that is ultimately established should be as 
visionary and broad looking as possible in its scope, and avoid 
treating the problem of e-waste as a single, narrow challenge.

Program Structure

    Research and Education--There are many models in the Federal 
Government that have been successful in ensuring the same general goals 
that are sought by this legislation:

        1.  Excellence in research

        2.  Partnership with industry

        3.  Integrating education

        4.  Sound science basis for policy inputs

    Some of the outstanding models that could be considered in this 
research include the Industry--University Cooperative Research Centers 
that are funded out of the National Science Foundation; the Technology 
for a Sustainable Environment Program that until recently was funded 
out of the U.S. Environmental Protection Agency and part of an 
interagency program with NSF had an excellent track record; and the 
Integrated Graduate Education and Research Training (IGERT) grants 
provide and excellent model that could be adapted to partnerships with 
industry. There are also the excellent examples of Engineering Research 
Centers (ERCs) and Science and Technology Research Centers (STCs) that 
have very productive industry/academic partnerships for research and 
education.
    Leveraging research--In addition to the establishment of centers 
dedicated to this important area, it would also be worth considering 
how to leverage the portfolio of existing research that will greatly 
impact future electronics. Those projects in areas such as 
nanotechnology, polymers and materials, electrical engineering, product 
design, metallurgy, and others currently funded by federal research 
programs because of their direct and important relevance to 
electronics. By ensuring that the next round of program solicitations 
supporting this research contain requirements for the principal 
investigator to discuss potential environmental and human health 
benefits of their work and the use of this information as criteria in a 
funding decision. This could have a tremendous positive impact on 
funding for the field.

Policy Issues
    The successful implementation of the outcomes of this endeavor will 
additionally need to be supported by innovative policy frameworks in 
order to function efficiently and to provide incentives for the 
adoption of environmentally superior designs.
    It should be noted that ``product stewardship'' or Extended 
Producer Responsibility (EPR) concepts as implemented in existing e-
waste legislation have not been effective, and seem unlikely to become 
effective, at changing product design. This is because, for both 
economic and environmental reasons, almost all product recovery and 
recycling systems are collective--they handle all manufacturers' 
products collectively. While manufacturers may pay for their share of 
the waste collected, or their share of products produced, no system has 
yet been developed to provide a financial incentive for individual 
manufacturers to make their products easier to recycle. In addition, 
the collective nature of both the end-of-life system and the component 
supply chain makes it difficult for individual electronics 
manufacturers to adopt dramatic innovations for the reduction of 
environmental impact.
    Another big source of contention regarding electronics recycling 
has been the search for an appropriate financing system. State and 
local governments would like to see manufacturer-financed recycling 
programs because not enough funding is available for government-
financed options.\21\ However, the cost of compliance with even a 
single law can be a challenge for industry, and with the recent barrage 
of new regulations, industry has voiced that it cannot bear these costs 
alone. The National Electronics Product Stewardship Initiative 
(NEPSI)--a dialogue between stakeholders convened by the EPA in 2001 to 
devise a single national solution to electronics take-back and 
recycling was brought to an unsuccessful close when participants could 
not reach a consensus on the financing system for e-waste recycling.
---------------------------------------------------------------------------
    \21\ From recycling doc--Oregon Department of Environmental Quality 
Federal Register comments in Appendix VII.
---------------------------------------------------------------------------
    The key challenge has been that all of the proposed industry 
funding schemes burden different manufacturers unequally, and in every 
case the burdened companies have vigorously opposed the specific scheme 
that would disadvantage them. In response to the lack of a national 
solution, many U.S. states have developed their own systems, creating a 
regulatory patchwork. This is in addition to the emerging international 
patchwork of regulations creating an uncertain regulatory environment 
making it difficult for the industrial sector to continue to innovate 
in a clear direction.
    These are all overlying issues that need to be addressed to ensure 
the ultimate effectiveness of any proposal.

Conclusion

    This bill provides a tremendous opportunity to address the 
important and growing issue of the impacts of electronics on our 
environment, our health, and our economy. It is essential that the 
legislation incorporate the following elements.

        1.  Do not focus merely on waste since the only effective and 
        economically beneficial way to address the issue is through 
        redesign of the life cycle of electronics.

        2.  Funding for research is essential on the green chemistry 
        and green engineering solutions for the sustainable design of 
        electronics. Initially this research will focus on removing 
        some of the most problematic toxic, bio-accumulating, 
        persistent substances and later can address the key systems 
        approaches of biomimicry, organic energy storage, and 
        dematerialization all fundamental to a sustainable ICT 
        enterprise.

        3.  Models for government funding for successful industry-
        university partnerships exist and those should be considered.

        4.  Policy research to provide the incentives for the design, 
        development, purchasing, recycling, reuse, and remanufacturing 
        of electronics, is an important element.

    Thank you for the opportunity to comment on this important 
legislation.

                     Biography for Paul T. Anastas

Degrees

B.S., Chemistry, University of Massachusetts at Boston

M.A., Chemistry, Brandeis University

Ph.D., Chemistry, Brandeis University

    Paul T. Anastas is Teresa and H. John Heinz III Professor in the 
Practice of Chemistry for the Environment with appointments in the 
School of Forestry and Environmental Studies, Department of Chemistry, 
and Department of Chemical Engineering. In addition, Prof. Anastas 
serves as the Director of the Center for Green Chemistry and Green 
Engineering at Yale. From 2004-2006, Paul Anastas served as Director of 
the Green Chemistry Institute in Washington, D.C. He was previously the 
Assistant Director for the Environment in the White House Office of 
Science and Technology Policy where he worked from 1999-2004. Trained 
as a synthetic organic chemist, Dr. Anastas received his Ph.D. from 
Brandeis University and worked as an industrial consultant. He is 
credited with establishing the field of green chemistry during his time 
working for the U.S. Environmental Protection Agency as the Chief of 
the Industrial Chemistry Branch and as the Director of the U.S. Green 
Chemistry Program. Dr. Anastas has published widely on topics of 
science through sustainability, such as the books Benign by Design, 
Designing Safer Polymers, Green Engineering, and his seminal work with 
co-author John Warner, Green Chemistry: Theory and Practice.

    Chair Gordon. Thank you for your testimony.
    Mr. Bond.

    STATEMENT OF MR. PHILLIP J. BOND, PRESIDENT, TECHAMERICA

    Mr. Bond. Thank you, Mr. Chair and Members of the Committee 
and the staff for inviting us here today for an important 
hearing. I also want to commend the Committee for a hearing 
that it held April 30 of last year on e-scrap and would commend 
to you the testimony of HP, which gave, I think, relevant 
testimony at that. I am here on behalf of TechAmerica, and you 
may not know TechAmerica but you know who we are. It is a 
result of a merger of AEA, the American Electronics 
Association, ITAA, the Information Technology Association of 
America, and two others, which just last night, with Mr. Wu in 
our presence, unveiled the new name of TechAmerica, this merger 
of four associations which touches almost every State capital 
across the United States as well as offices here, Brussels, and 
in Beijing, so really a grassroots-to-global representation of 
the technology industry.
    As Mr. Hall said in his opening comments, the technology 
sector has dramatically overhauled our economy. Even ten years 
ago if I had been here and mentioned companies like Google or 
eBay, that would have drawn a blank from everyone, and yet 
today they are ubiquitous brands. He mentioned the ENIAC 
computer, which filled a room, and today we wear on our hips 
more computing power than that had. Technology has also become 
a fundamental enabler, not just in the economy and innovation 
but in the energy and environmental challenges facing us today. 
The industry is helping to lead the way in producing new and 
sustainable contributions. For instance, electric motors that 
use variable speed drives happen to be powered by chips from 
companies like Texas Instruments and they are estimated to 
annually prevent emissions of 68 million tons of greenhouse 
gases. Recently a study by the American Council for an Energy 
Efficient Economy concluded that electronics and widespread IT 
had been among the principal drivers of increased energy 
productivity over the last 15 to 20 years, and now the 
transition to energy independence will also include a 
reliability upon more of these devices critical to the 
functioning of energy systems, electric cars, and a smart grid. 
For instance, computer chips are being developed by National 
Semiconductor to improve the conversion efficiency for 
photovoltaic solar power, smart grid technologies that allow 
two-way communications and thus less energy burned in the home 
or business. Migration to new computing models--you have heard 
of cloud computing--will result in a lower societal energy use 
for computing. Our industry has been a part of these, helping 
to drive them, and looks forward to contributing innovation and 
advances in this area as well. Now, as we have gone about this, 
as the Committee recognizes, there has been a byproduct of the 
industry's growth in terms of e-scrap or e-waste and we are 
actively working in that arena as well. Dr. Thomas has 
referenced the work going on to remove substances such as lead 
and mercury from designs. HP, Apple, and Dell, among others, 
have introduced notebook computers that use LED technology 
instead of mercury-containing fluorescent lamps, and such 
innovations, which continue nonstop, are notably and 
importantly almost always done in conjunction with our higher 
education system. The legislation being proposed by Chair 
Gordon recognizes that, embraces that, and in our view, goes a 
long way toward helping enable some real solutions, first by 
authorizing the National Academy of Sciences report, because we 
have got to get the science right; secondly, by funding R&D for 
green alternatives; and finally, requiring work with 
universities to improve the training of undergraduate and 
graduate students, and I just want to endorse what Dr. Thomas 
said earlier: what a great magnet this particular area can be 
for a new generation of students. I believe the key will be the 
ability of the private sector to work with the leading 
universities. Merely funding the research is not enough. We 
need to make sure it provides concrete, implementable solutions 
that the private sector can use.
    There are specifics in the bill requiring academic 
institutions to partner with companies to include participation 
by industry in the reviewing body that will evaluate proposals 
to ensure that they are practical. Applications must reference 
the companies and associations that contribute to a project. We 
think that collaboration is critical, and the application must 
include important transfer research results, again, making it 
relevant to the real world, which we think is so critical.
    We stand ready to be of an assist to the Committee and the 
Members in any way that we can, believing that more innovation 
is going to be part of the solution going forward. Thank you, 
Mr. Chair.
    [The prepared statement of Mr. Bond follows:]

                 Prepared Statement of Phillip J. Bond

    Mr. Chairman and Members of the Committee, good morning. My name is 
Phil Bond and I am the President of TechAmerica. Thank you for this 
opportunity to testify today in support of legislation that would 
authorize federal programs to study and conduct research on ways to 
reduce the environmental impacts posed by discarded electronic 
products.
    Many of you may not know TechAmerica, but you know who we are. 
TechAmerica was launched as a result of the mergers of AeA, the 
Information Technology Association of America, the Cyber Security 
Industry Alliance (CSIA), the Information Technology Association of 
America (ITAA), and the Government Electronics & Information 
Association (GEIA). TechAmerica is the leading voice for the U.S. 
technology industry, which is the driving force behind productivity 
growth and jobs creation in the United States and the foundation of the 
global innovation economy. Representing approximately 1,500 member 
companies of all sizes from the public and commercial sectors of the 
economy, it is the industry's largest advocacy organization. It offers 
the technology industry's only grassroots-to-global network, with 
offices in State capitals around the United States, Washington, D.C., 
Europe (Brussels) and Asia (Beijing).
    For the last few decades, the high tech industry has produced 
innovative and revolutionary products that have powered the U.S. 
economy and dramatically changed the way Americans live, work, and 
play. Just think, in 1996 if I had testified before this committee, 
names like Google and Oracle would mean very little to you. Today, they 
are two of the most well known brands around and their innovations have 
changed the way Americans and business do pretty much everything. Over 
the last 25 years we have moved from Commodore 64s to Portable hand-
held computers with exponentially more ability; we have gone from 
portable phones carried in suitcases to portable phones smaller than 
your hand; from giant jukeboxes and walkmans to iPods; from green 
screens to hi-definition; from copper phone service to massive high-
speed networks.
    More than improved technologies, technology has become a 
fundamental enabler, driving productivity and growth across every 
economic sector, from farmers using GPS to improve their crop yields to 
manufacturers using computer assisted design and manufacturing tools to 
improve productivity on the factory floor. Technology provides 
innovators with improved tools to help them do whatever they are doing 
in ways that were unimaginable only a few years ago.
    The industry is now stepping up to lead the way in inventing and 
producing new technologies to make the economy more energy efficient 
and sustainable. Electric motors that use variable speed drives, 
powered by chips produced by companies such as Texas Instruments, are 
estimated to annually prevent the emissions of 68n million tons of 
greenhouse gases.\1\
---------------------------------------------------------------------------
    \1\ ``Doing Moore Using Less,'' Semiconductor Industry Association, 
available at http://www.sia-online.org
---------------------------------------------------------------------------
    A recent study conducted by the American Council for an Energy 
Efficient Economy for AeA found that high tech electronics and the 
widespread advancement of information and communications technologies 
have been among the principal drivers of increased energy productivity 
during the past 15-20 years.\2\ These technological drivers of energy 
efficiency span the range from computers and cell phones to numerous 
types of sensors, microprocessors and other technologies embedded in 
every day products such as cars, lighting systems, motors and 
appliances. The report states that the continued development and 
expanded application of such technologies will help ensure that 
economic development continues to move in a direction that is both 
economically dynamic and environmentally sustainable.
---------------------------------------------------------------------------
    \2\ http://www.aeanet.org/aeacouncils/
AeAEurope<INF>-</INF>Energy<INF>-</INF>Efficiency<INF>-</INF>Report<INF>-</INF>
17Sep07.pdf. Other recent reports highlight the positive contribution 
that information technology can make in improving the overall 
efficiency of the economy and combating climate change. See, e.g., 
American Council for an Energy-Efficient Economy (ACEEE), ``A Smarter 
Shade of Green,'' (2008) (``For every extra Kwh of electricity that has 
been demanded by ICT, the U.S. economy increased its overall energy 
savings by a factor of about 10. . .''); The Climate Group and the 
Global e-Sustainability Initiative, ``Smart 2020: Enabling the Low 
Carbon Economy in the Information Age,'' (2008) (ICT strategies could 
reduce up to 15 percent of global emissions in 2020 against a 
``business as usual'' baseline.)
---------------------------------------------------------------------------
    The transition to energy independence in the United States will 
also depend upon the growth and proliferation of electronic devices, 
which are critical to the functioning of renewable energy systems, 
electric cars, and the ``smart grid.'' Electronic circuitry is 
essential to the efficient functioning of hybrid cars just as 
semiconductor advances will be critical to expanding the consumer 
utility and acceptance of plug-in electric vehicles by substantially 
extending their range and performance. Computer chips are being 
developed by National Semiconductor that improve the conversion 
efficiency of renewable energy sources such as photovoltaic solar 
power, increasing the cost-effectiveness and long-term sustainability 
of these installations.
    Smart grid technologies will allow two-way communication between 
the home and our energy utilities that, when combined with networked 
home and electronic products and appliances, will lower energy usage by 
all Americans. This collaboration between our network providers, 
electric companies, hardware manufacturers, network equipment 
manufacturers and consumer electronics and appliance companies 
represents a who's-who of TechAmerica's membership of 1,500 companies--
too numerous to list them all here. The Smart Grid will incentivize the 
production of energy-efficient and intelligent appliances, smart 
meters, new sensing and communications capabilities, and electric 
powered passenger vehicles--all of which will be produced by, or made 
possible by TechAmerica's member companies.
    The migration to new computing models, such as cloud computing, 
will bring new economies of scale resulting from shared data storage 
and processing capabilities. The result will be significant decreases 
in societal energy usage while at the same time increasing our overall 
computing power. Such innovations in the high tech industry will allow 
greater energy productivity throughout the economy without any 
sacrifices in quality of life.
    Our industry is also uniquely poised to create ``green jobs'' that 
will employ Americans and provide very good wages. One ``career of the 
future'' that will grow from new models of computing is an energy 
management coordinator, who would ensure that innovative, high-tech 
products are programmed and operating at levels that provide the most 
energy efficient result. TechAmerica's members are driving innovation 
in this sector.
    Clearly, the technology industry will continue to play a critical 
and leading role in enabling energy efficiency and renewable energy. 
However, as the Committee recognizes, a by-product of the industry's 
growth has been an increase in the number of discarded, obsolete 
electronic products that require management. The United States 
Environmental Protection Agency has estimated that the electronic waste 
stream is growing 2-3 times faster than any other waste stream in the 
United States.\3\ Clearly, something must be done.
---------------------------------------------------------------------------
    \3\ See http://www.epa.gov/NE/solidwaste/electronic/index.html. 
(``While various reports estimate that electronic waste is less than 
four percent of the total solid waste stream in the United States 
(eCycling FAQs), electronic waste is growing 2-3 times faster than any 
other waste stream (i.e., paper, yard waste.'')
---------------------------------------------------------------------------
    The high-tech industry has been actively working to address this 
issue. Our greatest strength is the ability to innovate and create 
products. Designing for the environment has become an integral strategy 
in most companies' design and engineering efforts. Additionally, 
electronic products are fundamentally unique: In every product cycle, 
they become smaller, faster, more functional, and more energy-
efficient. That phenomenon alone delivers significant benefits for the 
environment.
    Furthermore, engineers are working to remove hazardous substances, 
such as lead and mercury, from product designs. These materials often 
provide unique benefits and functionality, including safety shielding 
and energy efficiency. Companies are developing substitute materials 
that can achieve the same functionality with fewer environmental 
impacts. For example, HP, Apple and Dell, amongst others, have 
introduced several notebook computer models that use LED technology 
instead of mercury-containing fluorescent lamps. Others are exploring 
the use of halogen free flame retardants in electronic products.
    Products are becoming more recyclable. New techniques allow for 
easy and quick disassembly. Companies are exploring the use of plastic 
resins that can be reused in new products. They are also working with 
recyclers to help understand how product design impacts the recycling 
process. All of these efforts will help facilitate and promote more 
cost effective and efficient recycling operations for electronic 
products.
    It's important to emphasize that our industry is a partner in this 
endeavor. One of the hallmarks of America's leadership in the global 
economy is collaboration between universities, private laboratories, 
government agencies and companies. Together we create innovative and 
marketable solutions in areas like defense, health care, the hard 
sciences and, of course, technology. Greening our products and solving 
the e-waste problem is no different--if all these communities can work 
together in committing resources to research and development of e-waste 
solutions, we will be able to tackle this problem without harming the 
industry's greatest strength--its ability to innovate.
    The legislation being proposed by Chairman Gordon and before this 
committee today will go a long way towards reaching this goal. First, 
by authorizing a National Academy of Sciences report that will assess 
the environmental impacts caused by the disposal of electronic 
products, the legislation will help fill a critical data gap that 
currently exists. It is important to understand the problem before 
effective policies can be constructed. Second, by funding the research 
and development of green alternatives to hazardous materials in 
electronics as well as research into product design to facilitate the 
disassembly and recycling of electronic waste, the legislation will 
address two of the most important challenges the technology industry is 
seeking to overcome: the development of ``greener'' products that are 
easier to recycle. Finally, by working with universities to improve the 
training of undergraduate and graduate engineering students in 
environmental considerations--the legislation will guarantee that 
future products will be designed with environmental considerations as 
priority design characteristics as opposed to being considered only 
when the products are discarded.
    The key to this research and development being successful will be 
the ability for universities, labs and not-for-profit organizations to 
partner with the high tech industry in developing workable, efficient, 
and cost-effective solutions. Merely funding the research is not 
enough--ensuring that the research provides concrete and implementable 
solutions for the private sector will lessen, if not end, the 
environmental issues posed by the disposal of electronic products.
    The current draft of the bill contains several important provisions 
that I believe will enhance public-private collaboration and ensure 
that the outcomes envisioned in the bill lead to concrete, beneficial 
innovations that improve the environmental profile of high tech 
products. We congratulate the Chairman for his foresight in including 
these provisions, and we urge that these principles be retained and 
strengthened in the bill.
    Specifically:

        <bullet>  Section 4 calls for the academic institutions to 
        partner with companies and associations involved in the 
        production, sale, and recycling of electronic products. 
        Requiring the research institutions to partner with companies 
        and associations will improve the likelihood that the research 
        projects will yield beneficial results.

        <bullet>  Similarly, Section 4(b) calls for industry 
        participation in the reviewing body that will evaluate 
        proposals and ensure they have merit. Once again, the explicit 
        call for industry participation in the review of proposals will 
        improve the prospects for projects that provide practical 
        information to the companies that produce these products.

        <bullet>  Section 4(d)(1) states that the application must 
        reference the companies and associations contributing to the 
        project. We believe that requiring evidence of this type of 
        collaboration and support is an essential element of successful 
        partnership between universities, labs, not-for-profits and 
        industry.

        <bullet>  Section 4(d)(3) specifies the application must 
        include information on how the Centers for Electronic Waste 
        Research will ``transfer research results into practice to 
        address the electronic waste issue, with emphasis on the 
        feasibility of incorporating research results into industry 
        practice.'' Making applicants expressly identify how the 
        results will be transferred into practical outcomes in another 
        important element of ensuring successful outcomes.

        <bullet>  Section 4(e)(6) requires that the evaluation of 
        proposals consider the technology transfer plan and the 
        feasibility of integrating the research into practice.

    We believe that these provisions will further the goal of ensuring 
that the academic research will be meaningful and transferred into 
tangible improvements in the design, production and recycling of 
electronic products. This approach will improve the prospects for 
promoting research that is applied by companies and ultimately achieves 
the environmental benefits that are the goals of this bill.
    Again, thank you for the opportunity to testify today. I look 
forward to working with the Chairman and this committee on passage of 
this legislation.

                     Biography for Phillip J. Bond
    Phillip J. Bond is President of TechAmerica, the broadest U.S. 
technology association with 1,500 member companies and 17 regional 
councils across the country. TechAmerica is the new association 
resulting from the January 1, 2009 merger of the Information Technology 
Association of America (ITAA) and the American Electronics Association 
(AeA).
    Previously, Bond was appointed President and Chief Executive 
Officer of ITAA in June, 2006. In that capacity, he engineered two 
earlier mergers that brought the Government Electronics and IT 
Association (GEIA) and the Cyber Security Industry Alliance (CSIA) 
under the ITAA banner. Bond also is President of the World Information 
Technology and Services Alliance (WITSA), a network of industry 
associations representing more than 60 high-tech trade groups around 
the world.
    Today, TechAmerica represents some 1,500 leading software, 
hardware, services, Internet, telecommunications, electronic commerce 
and systems integration companies. The association offers business 
services, networking, standards development, research and grassroots-
to-global policy coordination for its members.
    Bond is a highly accomplished executive in both government and 
industry. Prior to joining ITAA, he served as Senior Vice President of 
Government Relations for Monster Worldwide, the world's largest online 
career site, and General Manager of Monster Government Solutions. From 
2001 to 2005, Bond was Under Secretary of the U.S. Department of 
Commerce for Technology and, from 2002-2003, served concurrently as 
Chief of Staff to Commerce Secretary Donald Evans. In his dual role, 
Bond worked closely with Secretary Evens to increase market access for 
U.S. goods and services and further advance America's technological 
leadership at home and around the world. He oversaw the operations of 
the National Institute of Standards and Technology, the Office of 
Technology Policy, and the National Technical Information Service. He 
has been recognized in Scientific American magazine in its list of the 
Top 50 Tech Leaders of 2003.
    Earlier in his career, Bond served as Director of Federal Public 
Policy for the Hewlett-Packard Company, and previously as Senior Vice 
President for Government Affairs and Treasurer of the Information 
Technology Industry Council. From 1993 to 1998, Bond served as Chief of 
Staff to Congresswoman Jennifer Dunn (R-WA). He was Principal Deputy 
Assistant Secretary of Defense for Legislative Affairs from 1992 to 
1999. Earlier, Bond was Chief of Staff and Rules Committee Associate 
for Congressman Bob McEwen (R-OH) from 1990 to 1992. From 1987 to 1990, 
he served as Special Assistant to the Secretary of Defense for 
Legislative Affairs.
    Bond is a trustee and graduate of Linfield College in Oregon. He 
also serves on the board of the National Center for Women in 
Information Technology. He and his wife, Diane, have two daughters and 
reside in Fairfax Station, Virginia.

    Chair Gordon. Thank you, Mr. Bond. I think we look forward 
to being a partner with you. You will be a great resource.
    And now Mr. Jeff Omelchuck.

  STATEMENT OF MR. JEFF OMELCHUCK, EXECUTIVE DIRECTOR, GREEN 
     ELECTRONICS COUNCIL, ELECTRONIC PRODUCT ENVIRONMENTAL 
                    ASSESSMENT TOOL (EPEAT)

    Mr. Omelchuck. Thank you, Mr. Chair. Thank you for holding 
this hearing on this important issue and for providing all of 
us the opportunity to testify today. My name is Jeff Omelchuck. 
I am the Executive Director of the Green Electronics Council, a 
nonprofit based in Portland, Oregon that works cooperatively 
with all stakeholders interested in electronics and the 
environment from manufacturers to NGOs to the purchasers and 
users of electronics and recyclers to try to realize the 
benefits of electronic products without saddling society with 
some of the negative aspects of it today. I am also the 
Executive Director of EPEAT (Electronic Product Environmental 
Assessment Tool) Inc., which Congressman Wu introduced, and 
thank you very much.
    I wanted to highlight a few of the key issues that I think 
are emerging that make electronics rather unique products, that 
one, I think it is just striking that every advance we have 
made in society, nearly every advance in the last 50 years has 
been enabled largely by information technologies. At the same 
time, they are the most impactful product on the planet to 
manufacture. This is a striking kind of situation for a 
technology. Recent research indicates that probably about 80 
percent of the environmental impact associated with desktop 
computers happens during the material extraction and 
manufacturing phase. Most of this impact occurs because of the 
chemicals and energy and water used in the manufacture of the 
product. The point is that these indirect materials can't be 
recovered during manufacturing because they are not present in 
the product. I think this argues for strong consideration of a 
program that emphasizes reuse of these products and trying to 
do what we can to extend the life of these products as long as 
possible to amortize this impact of manufacture of a longer use 
life. So if e-waste only deals with the waste end as it 
typically has in Europe, I think we are missing a huge 
opportunity to reduce the environmental impact of these 
products.
    Electronics are different from many other commodities that 
we think about recycling. If you think of beverage containers 
or other things, the goal of recycling those is to recover the 
material out of those so we can reuse that material and recover 
the aluminum or recover the plastic for reuse. The issue with 
electronics is rather different. I think our highest priority 
needs to be to prevent inappropriate recycling, as Dr. Anastas 
described and Chair Gordon described. A lot of this material is 
shipped overseas where they make crude attempts to recover the 
expensive and valuable parts out of it and their attempts have 
grave environmental issues associated with them. We need to 
prevent the export of our own waste where it causes these 
problems. Secondly, as a secondary priority, I think we need to 
keep toxics out of the environment. We need to prevent the 
pollution caused by e-waste itself. This is an issue that we 
don't face with, say, aluminum cans or plastic bottles. Third, 
we need to recover the high value and rare materials out of 
electronics. They are available often in quite trace quantities 
but they are also very impactful materials too to create and 
extract and make available in our society, so recovering those 
is probably the highest priority. And finally, recovering the 
plastics and ferrous metals, which is what we do mostly today 
in the small percentage that we do recycle. It is probably the 
lowest priority.
    I would like to further make the point that, as Dr. Anastas 
did, that e-waste systems are incapable of affecting product 
design and the product design greatly impacts the results of 
how well they are recycled but just collecting the waste and 
recycling at the end of the stream does nothing to affect 
product design, and there are recycling systems, electronics 
recycling systems, all over the world at this point. None of 
them affect product design. There is no incentive placed on the 
manufacturer to change product design to make them more 
recyclable. There is, however, an effective way to affect 
product design, and that is a green purchasing system, a 
specification placed by the purchasers of the product on green 
design, and there is a very powerful program in place today 
called EPEAT. It is a program that my organization manages. It 
is the program used by the U.S. Federal Government when they 
specify green electronics. Such programs do have the capacity 
and capability of affecting product design and doing so 
effectively today. Today EPEAT has created over $60 billion 
market incentive for manufacturers to design and manufacture 
greener products.
    I would like to make one input on the bill. The reason that 
we do not today have an electronics recycling program in the 
United States is because of difficulties with the funding 
system. Each funding system that has been proposed affects 
different kinds of manufacturers differently, disadvantages 
some more disproportionately than others. Therefore, each 
possible funding solution is opposed by somebody, and that has 
prevented us moving forward collectively to have a system that 
works. Therefore, I suggest that in addition to the research 
proposed in the bill that we also include policy and economic 
research in trying to figure out the funding system that will 
enable progress.
    Thank you very much for this opportunity to testify.
    [The prepared statement of Mr. Omelchuck follows:]

                  Prepared Statement of Jeff Omelchuck

    Recycling the huge amount of legacy electronics that have already 
been produced is a critical environmental issue. A good e-waste system 
would keep the environmentally sensitive materials in electronics out 
of our landfills, groundwater, and air and would allow us to recover 
and re-use many of the valuable materials. In addition, it must prevent 
the export of American e-waste to countries and places that cannot, or 
do not, recycle it properly. There are many ways that the development 
of an effective national electronics system would benefit from further 
research. We strongly support the proposed ``Electronic Waste Research 
and Development Act'' and the creation of a national e-waste recycling 
system. Below we present some research and thinking about e-waste 
recycling and suggest some areas needing further research.
    Research suggests that over 80 percent of the environmental impacts 
associated with Information and Communications Technology (ICT) occur 
during the manufacture of the product.\1\ Much of this impact stems 
from the electricity, fossil fuels, chemicals, and water used to make 
semiconductors, printed circuit boards, and other components. While 
recycling recovers some of the material contained in the product, none 
of these indirect materials or energy can be recovered. This suggests 
that one of the best ways to reduce the environmental impacts 
associated with electronics is to amortize the high impact of 
manufacturing them over a longer use life. Thus, it is critical that an 
e-waste ``recycling system'' encourage product and component re-use.
---------------------------------------------------------------------------
    \1\ E. Williams (2002), ``The 1.7 Kg Microchip.''
---------------------------------------------------------------------------
    While product design clearly affects recyclability, the reverse is 
not true. Electronic products are not designed for optimal End-of-Life 
(EOL) outcomes. Further, if there were comprehensive Design for EOL 
(DfEOL) guidelines it is not clear why manufacturers would follow them. 
While most recycling systems charge manufacturers a fee based on their 
market share or ``collection share,'' \2\ it doesn't make environmental 
or economic sense to actually return each manufacturer's products to 
them or process them separately. Because of this, individual 
manufacturers have no incentive to make their products more easily or 
efficiently recycled. In fact, many of the innovations that any one 
manufacturer might make to improve recyclability (use of unique 
materials, novel connectors, disassembly methods, etc.) have the 
potential to actually reduce the overall recyclability of the common 
waste stream. Innovation by individual manufacturers has not and will 
not improve product recyclability. Collective collection and recycling 
argues for common product DfEOL standards.
---------------------------------------------------------------------------
    \2\ Including the EU WEEE system, China's system, and the systems 
of the U.S. States that have implemented e-waste recycling programs.
---------------------------------------------------------------------------
    Enforcing a common DfEOL standard via regulation would be very 
difficult, and once enacted it would be very slow to evolve in this 
fast-moving industry. However, electronics manufacturers are very good 
at listening to and meeting the needs of their customers. An eco-label 
or ``green purchasing system'' that carries substantial market demand 
is the most practical and responsive way to implement a common DfEOL 
standard and is a necessary component of an e-waste solution.
    With EPA and the Federal Government's help, in two and a half years 
EPEAT has become the most influential green purchasing system for 
electronics on the planet. EPEAT registration is now required on over 
$60 billion of IT purchase contracts from the U.S. Federal Government, 
the Canadian Federal Government, many states and provinces, and a 
growing list of international businesses and public agencies. EPEAT's 
DfEOL and other criteria are clearly affecting the design practices of 
IT manufacturers globally.
    EPEAT was developed by and for institutional purchasers--
organizations that buy computers on purchase contracts. Retail 
consumers represent approximately 40 percent of the market for laptops, 
desktops, and monitors yet EPEAT is not known or used by consumers. In 
addition, stakeholders have begun the process of developing EPEAT 
standards for other electronic product types with substantial consumer 
markets. If EPEAT is to be an effective tool for improving the 
recycling outcomes for consumer electronics then consumers must place a 
purchasing preference on EPEAT registered products, as the U.S. 
Government does. Building consumer awareness of the importance of e-
waste recycling and of buying products that are optimized for efficient 
recycling will require market research and likely public investment.
    Recent research conducted by GEC et al. and sponsored by EPA\3\ 
shows that e-waste recycling technologies and practices vary 
considerably within the U.S., ranging from manual deep disassembly and 
materials sorting to whole product shredding. In addition, it appears 
that different types of electronic products are more efficiently 
recycled in different manners. Therefore, the DfEOL criteria may be 
different for different types of products that should be recycled in 
different ways. Further research is needed to refine DfEOL criteria.
---------------------------------------------------------------------------
    \3\ Rifer et al. (2009), ``Closing the Loop: Electronics Design to 
Enhance Re-use/Recycling Value.'' (See Appendix 2: Additional Material 
for the Record.)
---------------------------------------------------------------------------
    The research report also describes a pilot project sponsored by GEC 
and the National Center for Electronics Recycling to create a ``Close 
the Loop Registry'' of recyclability information for many electronic 
products. Further research and support for piloting and implementing 
this DfEOL registry are needed.
    Finally, research suggests that a significant amount of e-waste is 
caused by software driven hardware obsolescence. It is clear that the 
commercial models of both the software and hardware industries have no 
clear incentive to prevent or reduce this. Further research is needed 
to determine if there are ways to change software and hardware product 
design practices, or the commercial incentives of these industries, to 
reduce material and energy churn without damaging the innovation and 
competitiveness of the industry.

Comments on proposed ``Electronic Waste Research and Development Act''

    The primary reason that the U.S. does not have a comprehensive e-
waste recycling program is disagreement between manufacturers as to how 
such a system would be funded. Each manufacturer has opposed a system 
whose funding would put them at a competitive disadvantage with respect 
to their competitors. As a result, each possible system is opposed by 
one or more powerful manufacturers and the result is no system. The 
proposed act would do little to solve this fundamental problem. We 
recommend that the research supported under the act include research 
into possible funding models and how to reduce or eliminate competitive 
inequities that prevent forward motion.

                      Biography for Jeff Omelchuck
    I received a BS in Industrial Engineering from Montana State in 
1982.
    Moved to the Silicon Valley where I worked in high-tech 
engineering.
    Received an MS from Stanford in 1987 on an Honors Fellowship from 
my employer.
    Moved to Oregon and worked for a computer company from 1990-1992.
    Started a consulting practice in Oregon that evolved to focus on 
sustainability management systems in 1992.
    Founded the GEC in 2005.
    GEC was selected to manage EPEAT in late 2005.
    We launched EPEAT in 2006.

    Chair Gordon. Thank you, Mr. Omelchuck. Just collaterally, 
you had mentioned water in the process, and another major 
legislative effort by this committee is going to be on water, 
and one of the elements of that will be research to how to use 
in closed systems, and how to use water and reuse water more 
efficiently.
    Now Mr. Cade, you are recognized.

   STATEMENT OF MR. WILLIE CADE, FOUNDER AND CHIEF EXECUTIVE 
OFFICER, PC REBUILDERS AND RECYCLERS, HOME OF THE COMPUTERS FOR 
                        SCHOOLS PROGRAM

    Mr. Cade. Thank you, Mr. Chair. It is an honor to be here 
today and I particularly want to echo my fellows at the table 
here in terms of their testimony, so I am going to skip kind of 
quickly on to the recommendations that I would have in the 
legislation.
    First of all, in the definitions, I would suggest that 
there be very specific references to reuse, refurbishment, 
repair, remanufacturing, material recovery, and proper 
disposal. I think the current draft lacks some definition on 
that, and my experience has been when it is enacted into law, 
if those definitions are not clear, it becomes very 
problematic.
    I would also suggest the definition of ``hazardous'' and 
``potentially hazardous.'' I think that is one of the issues 
that really is hard for us to deal with in this particular 
situation, and I do want to let people know that using their 
computers in the home is not hazardous. There just is potential 
for hazard later on.
    In terms of section 4, the research and development, in 
terms of part 1--one of the things that we have been doing--I 
have run the collection facility for the city of Chicago on 
Goose Island and over the last year we cataloged over 7,000 
items that people have brought to us as computer waste, and of 
those, 3,000 different model numbers exist with 425 different 
brands that those are made up of. The average age of that 
equipment is 10.2 years old so that is a very important number 
there to understand, and while we may want to design better 
products that are going to be coming down the road later, we 
have a large backload, large volume of equipment that we are 
going to need to deal with for many years to come. Our data 
suggests that the equipment is actually being stored longer and 
longer now that people are putting more and more of their 
valued data on that equipment. The other thing that I think is 
very important in this particular process is that we understand 
that this is not equipment that is not functional. It is just a 
perception that it doesn't work as well as the new equipment, 
and one of the things that we are very excited about is using 
these older Pentium 3, Pentium 4 systems to help homes monitor 
their energy use in the new smart grid environment. We are 
currently working with the Centers for Neighborhood Technology 
on creating a product that will measure your home energy use--
and therefore be able to reduce your consumption.
    One of the things that we anticipate is, by the mere 
savings on energy usage in a home, we will be able to finance 
the purchase of a PC for low-income families. Today there is 
still 25 percent of the households that do not have a computer 
in them. If we can provide them with a computer that can help 
them reduce their energy consumption, we believe we can finance 
not only the computer, a working model that has all the bells 
and whistles, but also the Internet connection and still save 
them dollars and energy on their home plans.
    And I believe that this remaking of the products, the 
remanufacturing, the reuse, the refurbishment of these products 
will actually give us the ability to bring home the electronics 
industry. If you are competing merely on cost per hour for 
production, we probably can't compete with foreign competitors 
but if we are competing on a whole system of collection and use 
and knowledge and understanding of these systems and to bring 
product out, I believe we will be able to do a very, very good 
job with it. We are currently working on a pilot project in the 
city of Chicago where 100,000 homes will have smart meters, 
will be able to connect to these smart meters and be able to 
bring back information to the home user. Reports show--studies 
show--right now that the home user who has that kind of 
information is saving anywhere from 15 to 30 percent of their 
home energy costs. Average home energy costs right now are 
about $1,200 a year. That is a significant savings.
    Thank you very much, and I will be happy to entertain any 
questions.
    [The prepared statement of Mr. Cade follows:]

                   Prepared Statement of Willie Cade

    Mr. Chairman, Members of Congress, thank you for the opportunity to 
be before you today and testify on the issue of Electronic Waste: 
Investing in Research and Innovation to Reuse, Reduce, and Recycle. I 
would especially like to thank Congresswoman Biggert for her support of 
my work. I have submitted my full written testimony to the Committee 
and I will only summarize my statement at this time.
    Fifteen years ago I began working with discarded computer equipment 
to help bridge the digital divide for at risk students in high school. 
I was attending a board meeting of LINK Unlimited a not-for-profit 
organization that supplies mentors and financial aid for capable 
students to attend the best schools in the City of Chicago. During the 
meeting I was arguing that each student needed a personal computer in 
their home so they could prepare adequately for college. The then Chief 
Financial Officer of Waste Management offered four conference rooms 
full of equipment that they were storing because they didn't know how 
to throw it away. So began my adventure of computer refurbishment and 
electronics recycling. When I walked into the conference rooms on that 
cold February morning I saw opportunity not a pile of waste. For me 
this is e-opportunity not e-waste. With the Chairman's indulgence I 
will continue to use my term e-opportunity not e-waste.
    We quickly discovered that the single most complicated part of 
computer refurbishment was installing a fresh, reliable, and legal 
operating system across a broad spectrum of hardware. We worked with 
Microsoft for seven years and in 2000 the Microsoft Authorized 
Refurbisher (MAR) Program was launched. My company was one of the first 
five organizations that Microsoft authorized to reinstall their Windows 
operating system on refurbished computers in the U.S. Since then we 
have refurbished over 40,000 computers for schools, not-for-profits, 
and in homes of children at risk. We provide a complete system (CPU, 
monitor, keyboard, mouse and speakers) with an instruction booklet, 
free U.S. bases telephone support and a three year hardware warranty 
for a starting price of $150.00. Our fist year failure rates are less 
than new equipments first year failure rates.
    We reluctantly became involved with equipment that we could not use 
for our refurbishing because of the demands of our donors. If we wanted 
the good stuff we had to take the whole lot. While this has 
significantly complicated our business model it has also provided us 
with enormous opportunities. Early in 2000 the extra equipment was 
relatively easy to deal with but as more and more equipment was brought 
out of closets and store rooms the task became more challenging. Today 
a significant majority of equipment is not refurbishable for general 
personal computer usage. Recently a stakeholder group supported by the 
U.S. Environmental Protection Agency has published ``Responsible 
Recycling (R2) Best Management Practices for the Electronics 
Industry.'' This document is attached at the end of this testimony. 
These practices specify the philosophy and practice that high quality 
organizations should employ. I whole heartily support the 
implementation of these practices in certification programs like. There 
is some controversy that these practices do not hold organizations like 
mine to a high enough standard. As a practitioner of the art of e-
opportunity I believe that significant research and development must be 
carried out before we can practically implement higher standards. This 
legislation is well suited to accomplish those goals.

Comments on the draft legislation:

Section 3: Definitions.
1)  I would suggest that the legislation include a specific definition 
of ``recycling'' that includes reuse, refurbishment, repair, 
remanufacturing, material recovery, and proper disposal. I have 
attached to my testimony a brief concept document on ``Strategies for 
Improving the Sustainability of E-Waste Management Systems'' that may 
be useful in defining the above terms.

2)  I would suggest that the legislation include a definition of 
``hazardous'' and ``potentially hazardous'' materials. I believe that 
it is important to assure consumers they are not overly exposed to 
environmental hazards while using a computer. It is however important 
to educate people that improper handling may be harmful to themselves 
and the environment.

Section 4:  Electronic Waste Engineering Research, Development, and 
        Demonstration Projects.
Part 1)  I believe that Radio Frequency Identification (RFID) should be 
the major way that efficiency of recycling (in all of its forms) be 
studied. For over a year my organization has cataloged over 7,000 items 
at the Computer Collections facility that we operate for the City of 
Chicago on Goose Island. We keep detailed data on each item over one 
pound that is delivered to this permanent collection facility. There 
are roughly 3,000 different model numbers from over 425 different 
Brands. The average age of the equipment is 10.2 years old. People 
travel on average six miles to drop off their equipment. TVs average 
15.5 years old while Apple Computers are two to three years older than 
other brands of computers. CPUs average 25 pounds and monitors average 
35 pounds while TVs average 45 pounds. Automated triage with the 
support of RFID must be developed that fully utilize both the carbon 
investment of the products and increase the recovered value. (Note: 
over 80 percent of the energy used in the life cycle of a computer is 
used in the making of the product.)

Part 2)  Casual reading of the Discussion Draft in this section might 
lead one to believe that research should only be done on ``e-
opportunity'' only after it has been destroyed and separated into 
different commodities. While I concur that much work still needs to be 
done on that issue there is a broader area of research that should be 
identified. A significant majority of the equipment being turned in by 
consumers and organizations is still functioning. Newer models may have 
come on to the markets that perform the desired tasks faster and 
better: triggering the false impression that the older equipment is 
waste. For instance most of the working CPUs that we receive could be 
cost effectively remanufactured into home energy monitoring and control 
devices, thus allowing consumers simple and efficient ways to take 
advantage of Smart Grid technology in their homes. I believe that the 
refurbishing and remanufacturing of e-opportunity will bring the 
electronics manufacturing industry back home.

Part 3)  The university setting is well suited for this kind of basic 
materials research. I applaud the Committee for it's inclusion in this 
legislation.

Part 4)  I believe that it will be at least 15 years before all of the 
potentially hazardous materials will be removed from our electronic 
devices. In the mean time we need to develop safe methods of removing 
those materials both in developed and underdeveloped countries. Many 
well intentioned environmentalists have suggested that unwanted 
electronic devices that come from the US and go to developing countries 
should be shipped back to us for end-of-life processing. I would rather 
see safe portable processes that are applicable in many different 
environments.

Part 5)  Product design is one of the most important issues in 
transforming e-opportunity into value. To that end I currently teach a 
graduate/undergraduate ``e-opportunity'' course at the University of 
Illinois at Urbana/Champaign. The course is housed in its industrial 
design department, the oldest such program in the country. This 
semester we are conducting a contest, open to all students on campus, 
for the most creative and the most ``geeky'' use of e-opportunity. I 
would like to invite each and every Member of this committee to be a 
judge for this contest on April 21st of this year.

Part 6)  We need scientifically sound tools that aid us in assessing 
the environmental impact of e-opportunity and manufacturing in order to 
make informed decisions about the quality of our processing and balance 
it against the needs to be cost effective. I am not suggesting that we 
diminish our goal of 100 percent environmental safety but rather that 
we use these new tools to expedite reaching those goals. Again I 
applaud the Committee on the inclusion of this section of the 
legislation.

Part 7)  We have not come close to exhausting our electronic devices. 
All too often our perception of obsolescence prematurely retires our 
electronics. Product design that can incorporate repairs, upgrades, 
etc., need to be encouraged and real business cases need to be found to 
support them.

Part 8)  I believe that the single biggest issue confronting consumers 
and business in recycling their equipment is the concern about data 
security. People are not educated nor can they readily identify a 
device that has its data erased. Given that the systems turned in at 
our facility in Chicago are on average 10.2 years old and preliminary 
research has shown that people use their computers for about six years 
they must be storing them for four plus years. RFID can allow a 
complete and reliable chain of custody that can generate better 
consumer acceptance and therefore quicker equipment turn around. This 
would be a better utilization of the carbon investment made in our 
devices.

    I also applaud the inclusion of sections 5, 6, and 7.
    Please let me reiterate the following point . . . this legislation 
will significantly contribute to bringing home the electronics 
manufacturing industry.

                       Biography for Willie Cade

    Willie Cade is the founder and CEO of PC Rebuilders & Recyclers 
(PCRR). He started the company in 2000 to help underprivileged students 
get cost effective computers. PCRR has placed over 40,000 refurbished 
computers in schools, not-for-profit organizations and in homes of at 
risk children. Mr. Cade has been at the for front of the computer reuse 
industry for the past 15 years. In the early years he worked closely 
with Microsoft to help create what is today's successful Community 
Microsoft Authorized Refurbisher (Community MAR) program. He founded 
the first ever refurbisher conference and continues to organize them 
today. He is active nationally and internationally creating best 
management practices that help reduce the possible harm of e-waste. Now 
Mr. Cade's expertise is being shared with graduate and under graduate 
students at the University of Illinois Urbana/Champaign. Along with 
Wal-Mart and Microsoft he is co-sponsoring an e-waste ``new products'' 
competition this spring at the University.

                               Discussion

    Chair Gordon. Thank you, Mr. Cade. And we would appreciate 
your specific recommendations on definitions and we would 
recommend again the panel any other recommendations they might 
have on our draft as well as anyone in the audience or watching 
or listening to us on a website now. This has been a 
collaborative effort to get to the point we are now, but I am 
sure that as we have more people thinking and giving input, we 
can make it even better.
    So at this point we will now have the first round of 
questions, and the Chair recognizes himself for five minutes.
    Mr. Bond, you raised the issue earlier of the collaboration 
with the private sector and the universities and how that is 
going on now. I know that as this takes place, there is going 
to be some proprietary research, so is there going to be any 
kind of special provisions that we need in this bill that will 
provide incentives for the public sector and private sector to 
work together?
    Mr. Bond. I think that as a general rule, the Federal 
Government's role in doing a lot of the basic research, 
fundamental research and very often through a grant structure 
where you have a lead investigator, a lead at the university 
who then invites private-sector participation at a pretty 
fundamental level is very good and it allows for the 
proprietary innovations that might be built on top of that, but 
I think you will find a ready and willing partner in the 
private sector to do some of that fundamental research, new 
materials that could be incorporated into design, better uses 
or testing and research into uses of new materials that we 
haven't thought of before, technologies to recover materials. I 
think the industry has shown that it is on the edge of its seat 
and willing to----
    Chair Gordon. So you don't think any kind of special 
provisions need to be made for proprietary issues?
    Mr. Bond. Well, we have some vehicles in the government 
already for cooperative research and development agreements and 
so forth that take that into account to protect intellectual 
property, but I think there is a great agreement that there is 
a first step where the government should lead and the private 
sector is more than willing to participate.
    Chair Gordon. On that topic, I think one of the biggest 
obstacles to national e-waste R&D initiative, like many things, 
is tech transfer and getting it from the academic research area 
into industry, so I will just ask Mr. Bond if you want to, or 
anybody else wants to, have any comments on how we can make 
that transfer better.
    Mr. Bond. Just in some very general terms, I want to 
observe that I think the tech transfer laws in this country 
have been one of the great, great global competitive advantages 
we have had. As we try to maintain our global edge 
competitively, I think we have to constantly look at that 
because others--it is a competitive market and other 
universities based in other countries are trying to attract 
investment from some of the multinational companies that do 
significant research. So I think we want to continue to look at 
that and would certainly welcome thoughts from those in the 
more academic side of the equation, but I think we need to have 
a balance in this as we do in so many things to make sure that 
as we divide the intellectual property, that it doesn't result 
in a stalemate but it instead results in the tech transfer.
    Chair Gordon. Well, let us ask anybody else on the panel. 
Mr. Cade.
    Mr. Cade. Thank you, Chair. I do teach at the University of 
Illinois, Champaign Urbana, an e-waste sustainable class, and 
one of the--we are working on those. Also, the University has 
an international component to it. They have research centers 
outside the United States. We are finding that their 
cooperation with us has been extraordinarily wonderful, and we 
are actually using students to take this pile of equipment and 
bring it back to life. We have already discovered just through 
a few trials some major issues that we need to input to our 
friends over here at EPEAT (Electronic Product Environmental 
Assessment Tool) in terms of making this product more 
accessible for reuse and refurbishment.
    Chair Gordon. Anyone else want to comment?
    Dr. Anastas. I would just suggest that there are existing 
models that have been used in various agencies to address this 
exact type of question. When you look at the Technology for 
Sustainable Environment out of the Environmental Protection 
Agency (EPA), that has not only brought about excellent 
industry-university partnerships but also sprouted quite a 
number of new businesses. If you look at some of the National 
Science Foundation (NSF) models, the industry-university 
cooperative research centers, the engineering research centers, 
and science and technology centers, these questions of tech 
transfer and intellectual property have been dealt with well.
    Chair Gordon. Mr. Bond, I know you would like to speak. I 
would like to get on to one other question before my time runs 
out, and maybe you want to help us with that one. The E.U. has 
taken more of a regulatory position across the board than we 
have in this country, although some states have. This bill 
really is in the research area. But are there any lessons to be 
learned from what the E.U. has done that would be pertinent to 
our bill in terms of not regulations, but rather research? Is 
anyone familiar with what they are doing over there or have 
anything they want to suggest? Yes, sir.
    Mr. Omelchuck. Mr. Chair, the E.U. has completed twice now, 
I believe, comprehensive performance reviews of the e-waste 
system implemented in Europe. They recently completed, I think 
very recently in the last few weeks, completed a second kind of 
comprehensive review of the system so that is available to be 
researched. I recommend that we look closely at that. The other 
striking thing about the E.U. system, the two things that I 
would observe, are that even though it is a regulatorily 
required comprehensive system, the actual rate of recovery of 
electronics is surprisingly low, in the 35 percent range, which 
means still 65 percent, even though it is a regulatorily 
required system, still 65 percent of the e-waste is leaving the 
system inappropriately, is escaping the system, which is a 
surprising number, I think, for many of us.
    Chair Gordon. Well, that is why Mr. Baird is very 
interested in how do we--the psychology aspect of getting folks 
to work with the system. My time is running out here, so 
anybody else want to comment on the lessons from the E.U. Yes, 
Dr. Thomas.
    Dr. Thomas. One lesson from the E.U. is that there is some 
kind of goal set forward by the government, and to move things 
forward in the United States, it might not have to be an E.U.-
style program but some guidance to push forward recycling and 
remanufacturing to let--because industry--it won't just be one 
industry that needs to work on this. Somehow there needs to be 
integration between the manufacturers and the retailers and the 
recyclers and university researchers and EPA or some other 
government agency could provide some forum for making these 
organizations work together productively. That won't happen in 
a vacuum.
    Chair Gordon. It needs to be good, Mr. Bond, because----
    Mr. Bond. It is going to be short. I don't know about good. 
Just that there are a full range of stakeholders that should be 
a part of that discussion and part of that research, the 
government and its procurement rules, just to name one quickly.
    Chair Gordon. Thank you.
    Dr. Ehlers is recognized.
    Mr. Ehlers. Thank you, Mr. Chair, and first of all, thank 
you for holding the hearing. This is a very important topic. I 
was watching 60 Minutes a few weeks or months ago and wrote a 
note to myself that I had to check into this. They were talking 
about how they had followed a container of used computers, 
waste computers, some of them post recycling, supposedly, and 
followed it all the way to China where it was simply burned on 
a trash heap after they had extracted some things. Everyone 
along the line specifically violated the law because they are 
not allowed to do this. So whatever we do, it has to have teeth 
and it has to have enforcement.
    Secondly, let me say the Minority regards this as a very 
serious issue and would be very happy to work with you on 
developing a really good and strong bill.
    I looked at some of the options and you have mentioned some 
of the options. I don't see any reason we can't do it. We just 
have to make sure we do it right and we have to make sure we do 
it fairly, and any specific suggestions you have along that 
line would be useful. But before I go to you and ask for your 
comments on that, let me just ask a question, a generic 
question. What does the U.S. House of Representatives do with 
its used computers? When I was involved in computerizing the 
House for the first time in 1994 and 1995, we decided that any 
used computers from the House would be available for purchase 
by the employees, who loved that and many of them didn't have 
good computers at the time and it got them in the home computer 
business and we thought it was beneficial to the House too. 
Later on we were told we were not allowed to do this because 
that was somehow giving a bonus to the employees. I didn't 
particularly worry about that but it turns out I don't know 
whether it was GSA (General Services Administration) or what 
stopped us from doing it. But it has gotten steadily worse. We 
then proceeded in our district office, when we changed 
computers, and donated them to nonprofit organizations. That 
lasted two years and then we were told we couldn't do that 
either. I think we have to broaden our discussion to the GSA 
and what they are doing about this problem because they have 
responsibility for a huge number of computers nationwide, and 
if we can set up a program that works for the GSA, it most 
likely will work for the Nation. Plus, I don't think it hurts 
for the government to be first and find out what the burdens 
are on this so that we are not imposing unusual burdens on the 
private sector. We can answer their questions and say well, we 
are doing it and this is how we are doing it and it works.
    Mr. Baird. Will the gentleman yield for one second, Mr. 
Ehlers?
    Mr. Ehlers. Yes.
    Mr. Baird. I faced the same problem in my office this year, 
would like to donate my computers to the local schools, and 
have been prohibited. Jose Serrano, our colleague, has a bill 
to allow us to do just that, and I would encourage all my 
colleagues to co-sponsor that bill. It is ludicrous that we 
can't give our replaced computers to local education, and I 
applaud the gentleman for his initiative.
    Mr. Ehlers. And I would even broaden it to other nonprofit 
organizations. There are a lot of social organizations that 
could easily pass these on to poor individuals who can't afford 
one. That is my basic point. I hope we can answer the questions 
internally about what the U.S. House does, what the GSA does, 
and change that.
    Back to--oh, I should mention, by the way, my wife would be 
very happy if we adopt a good program because I cannot in good 
conscience throw out a computer now. We have seven or eight of 
them in the basement and the basement is starting to overflow 
with that and my other junk.
    I appreciate any comments you would like to make. Mr. Cade.
    Mr. Cade. Thank you. Just--we do--we have worked over the 
last number of years to try to get Executive Order 12999 
changed so that refurbishers like myself can take the equipment 
from government agencies and distribute them. The issue really 
is around software and about the issue. In order to securely 
give the equipment to us, it needs to be--the hard drive needs 
to be wiped. It is tantamount to taking an engine out of a car 
and delivering the car to someone's driveway and saying here, 
you have got a great product, have fun with it. So we actually 
have in the last three Congresses had legislation to change 
Executive Order 12999 to allow refurbishers to get the 
equipment and then pass it on to the not-for-profits, et 
cetera, and I will be happy to take the equipment from your 
home.
    Mr. Ehlers. Yes, Dr. Anastas.
    Dr. Anastas. I would just like to comment on your remark 
that we need to do this right and comment on why it is so 
important to have sustainable design frameworks that allow us 
to do the right things right and not the right things wrong. 
What I mean by that is, so often we see good intentions for 
environmental and sustainability issues get it wrong, looking 
at our solar photovoltaics that are using toxic scarce metals, 
our biofuels that may not be compatible with our land-use 
policies, our efficient lighting that may introduce toxins into 
the environment. So how do you ensure that you are not going to 
be doing the so-called right things wrong? And it is these 
design frameworks of understanding that the intrinsic nature is 
of the materials and energy flows that we are using in our 
electronics, not only what we make but how we make it, and so 
that is why I come back to the compass being more important 
than the speedometer and knowing that when you are trying to 
make something green and sustainable that you are actually 
heading in the right direction.
    Mr. Ehlers. A very good comment, and just a quick comment 
in response. Individuals generally do not look to the future as 
much as they should and analyze what can and should be done, 
and yet you save money by doing it. I was struck this morning 
when I heard the news once again there is a lot of talk about 
the lead in the water in Washington, D.C., and the damage it 
has done to the children. Every few years this appears and the 
problem never gets solved. Kids continue to drink water with 
lead in it. And if you just analyze the cost of what that is 
compared to fixing the problem in the first place, I am sure 
fixing it is infinitesimal and I think you will find the same 
thing with the computer situation. If you do it right, it is 
going to cost less in the long run than whatever we are doing 
now or whatever might happen if we don't do things right.
    With that, I yield back.
    Chair Gordon. Thank you, Dr. Ehlers. My daughter has been 
drinking that water. I am terrified. And we do need to get some 
answers.
    If I could real quickly--as usual, you know, you raised 
some very good questions, some of which aren't particularly in 
our jurisdiction but let me try to respond. It is my 
understanding that Mike Thompson on the House side and Barbara 
Boxer on the Senate side are organizing a recycling effort and 
that there will be a time where we can do that. The second 
thing is, as the former Chairman of the House Administration 
Committee, why don't you and I collaborate and write a joint 
letter to the Speaker and to Minority Leader Boehner about 
those things that it may not be--you know, what we can do 
administratively, maybe not legislatively but administratively 
and make those recommendations and challenge them to do that? 
So we will work together on that.
    Mr. Ehlers. Thank you very much, and if anyone wants an 
original Mac SE, I have one in my basement.
    Chair Gordon. Okay. Ms. Johnson, you have been very 
patient. You are recognized for questions.
    Ms. Johnson. Thank you very much, Mr. Chair.
    I would like to pose a question to the panel. We have in 
some of our schools a program where computers are rebuilt by 
students and they are teaching them to do that. Do you see any 
danger in that? Does that have to do with anything about 
restricting where they are circulated?
    Mr. Cade. The actual process of the refurbishment is 
typically swapping out whole parts so there is typically no 
danger associated with that. That is one of the reasons I 
recommended earlier that we put in the legislation a definition 
of ``hazardous'' and ``potentially hazardous.'' We don't see 
any, and we have been audited with environmental experts on 
those issues when we are refurbishing computers. We are 
typically undoing screws or unplugging things. We are not 
taking and grinding up the material to that end, and I am 
certain that that is not happening in the schools. So with a 
high degree of confidence I would say that there is not any 
increased exposure risk to the students in that kind of a 
program.
    Mr. Bond. Congresswoman, if I could add too, the upside of 
that is, a number of programs around the country have shown 
that it serves to demystify the computer to the kids and make 
them that much more willing to pursue a career in that field.
    Ms. Johnson. Yes. How can we leverage existing R&D that may 
be beneficial to solving the challenge of the e-waste?
    Dr. Anastas. If I may, there is a tremendous portfolio of 
research going on currently in green nanotechnology, some of 
the leading groups out of the University of Oregon. There is 
wonderful work going on in biomimetic materials. There is 
wonderful work going on on new types of batteries, energy 
storage, energy scavenging. That type of broad research is 
being done for a wide range of purposes but is directly 
relevant to the up-front design of next-generation electronics. 
By leveraging that existing research, there could be a real 
multiplier effect on the purposes of this legislation.
    Ms. Johnson. What is the rationale for exporting it? Is it 
for disposal or----
    Mr. Omelchuck. If I may, the rationale is really not--you 
know, it is not illegal or intentional activity by and large, 
so it is being exported to these places that you saw in the 60 
Minutes documentary. It is at the edge of legality. It is 
neither legal in China nor is it really legal in the United 
States so I think it is hard to describe the rationale. It is 
being done because it is mildly profitable.
    Ms. Johnson. Thank you very much.
    Mr. Bond. If I could, Congresswoman, I would add that at 
least theoretically, and I believe in practice, there are 
examples too where someone would refurbish and then export what 
had been considered e-scrap or e-waste to maybe a developing 
nation or someplace where it would really be of use, and so you 
want to make sure as you think of an international regime that 
you don't somehow make that illegal because it was considered 
scrap but it has been refurbished and could be put to use in 
some other setting.
    Mr. Omelchuck. And I would add to that that the reality is 
that all electronics today, or almost all, are built in Asia, 
and if this is where they end up, there are very legitimate 
reasons to want to send the materials from which they were 
built back to Asia because that is where they can be used by 
and large and so there are legitimate reasons to do it. The 
challenge is to do it appropriately.
    Ms. Johnson. Thank you very much.
    Chair Gordon. Thank you, Ms. Johnson.
    Ranking Member Hall, do you have any questions?
    Mr. Hall. Thank you, Mr. Chair. I was called away to an 
emergency meeting and I don't know what questions have been 
asked. I had looked forward to hearing their testimony, and I 
will read it at a later time, and I thank you. I won't waste 
your time with repetition of questions.
    Chair Gordon. Thank you, sir. We will move on then to Mr. 
Bilbray.
    Mr. Bilbray. Thank you, Mr. Chair. I think it is important 
that we come back to certain terminologies that could be very, 
very damaging to this. Your reference to the term hazardous, we 
have thrown that around and we like to say that, and the 
argument, especially coming from California, is you always want 
to go to the extreme of safety to avoid any possibility of 
exposure on a lot of this stuff, and in California we have seen 
what has happened with that. You can't walk into any store or 
any hotel without a big warning sign, ``The carpeting may cause 
cancer,'' you know, that basically people just turn off and 
don't read it. But the definition of ``hazardous''--you know, I 
served ten years on hazardous reviews boards and on 
environmental health agencies, and the definition does matter, 
doesn't it? It really draws a defined there yet.
    Mr. Cade. Yes, and I think it is important to make the 
distinction between hazardous material and potentially 
hazardous, and much of the problems that you see in informal 
recycling is the issues that they bring up using things like 
cyanide, et cetera, so it is in the processing that those are 
the real hazards that are coming up or the inappropriate 
burnings and those kinds of things. So I think that is exactly 
right, and I would defer to your experience in terms of writing 
the legislation in terms of making those kinds of points. Thank 
you very much.
    Mr. Bilbray. Mr. Chair, I just want to point that out 
because it triggers certain processes and we have to be 
careful, and I just--not to belabor but to give you an example. 
We had a great system where there was an entrepreneur who went 
around to all the shipyards and all the industrial places and 
took the sandblasting sand and used that sandblasting sand in 
an asphalt mix, in other words, recycled it, put it into a 
product, avoided having to go out into the back land and mine 
sand from riverbeds and stuff, and it was going into an asphalt 
or concrete where it was stabilized, but because the item was a 
waste product, it triggered a whole environmental oversight 
that outlawed his ability to recycle it and it ended up having 
to go to facilities to be thrown away rather than reused. 
Nobody meant that kind of thing to happen so we have got to be 
careful with our trigger going down. You have a comment?
    Dr. Anastas. I would just say that this speaks directly to 
the provisions in the bill for the physical, chemical property 
database, that when you are looking at the substances in this 
determination of hazardous or potentially hazardous, you are 
looking at what are the intrinsic physical properties, chemical 
properties that allow something to be hazardous, allow it to be 
bioavailable, and those intrinsic properties are so essential 
in this database because separating the intrinsic nature of 
these substances from the circumstances, those about whether or 
not people are going to be exposed, is the difference between 
hazardous and potentially hazardous. So I think the provisions 
for physical-chemical property database is well founded.
    Mr. Bond. Just real quickly, underscoring the Chair saying 
we have to get this right, it is further complicated by needing 
to weigh other societal benefits, so originally in laptops we 
went to fluorescent lamps because it was going to decrease the 
amount of energy used, but then there are problems with 
fluorescent lamps because they have mercury, so would you have 
not wanted that societal goal met for this one? Now, 
thankfully, we are moving to LED technologies, which are going 
to be the next innovation and we will avoid a problem. As the 
design for environment improves, the need for regulation 
hopefully will go down.
    Mr. Bilbray. And the issue of exportation, exporting the 
material, the waste product, it is universal in recycling and 
maybe one of the things we need to talk about is why we don't 
make it legal to do more reprocessing within the boundaries of 
the United States because I don't care if it is cardboard or if 
it is e-waste, the rule is ship it thousands of miles away, 
they will recycle it, come back out, increase the carbon 
footprint and it becomes a real problem there. I think one of 
the answers, and I am glad to see that Member Baird is 
interested in this too, is this issue of the Federal Government 
looking at purchases of materials and designing the e-material 
from the beginning to be recyclable so that you not only 
eliminate the waste problem but you provide a long-term source 
of material for the next generation so that now you have 
engineered something to where you build it with materials that 
then can be taken and used as a natural resource or a recycled 
resource for the next generation. There is a sustainable 
economic base, and I think I am very excited with that, and 
that is, Mr. Chair, where we get into an issue that in the air 
strategy we always call the technology forcing regulation, and 
one way to do that would be for us within our own purchasing 
and procurement, and as Ranking Member on Procurement and 
Government Oversight, I would like to work with this committee 
at moving that item one step further and setting an example for 
the next generation of e-recycling and that is basically using 
it as the mainstream, not as a subsidiary of the source for 
material. Thank you very much, Mr. Chair.
    Chair Gordon. Thank you, Mr. Bilbray.
    Mr. Smith, I apologize to you for jumping over you. 
Promptness should be rewarded, and we will get to you right 
after Mr. Baird.
    Mr. Baird. Thank you, Mr. Chair. First, I want to applaud 
you, Mr. Chair, for taking the initiative that Mr. Ehlers 
raised. It is tremendously frustrating, we are mandated to 
replace our computers because they fall out of currency with 
the current operating systems and then we see local schools in 
our district and we can't give our computers to them. Instead, 
we have to transfer them and get them scrubbed. It is crazy. 
And anything you can do to fix that would benefit our kids and 
make a lot more sense.
    I want to ask a few questions. My district has made a real 
effort on e-waste recycling but I would like to know something 
about what are the best practices and what do we know actually 
works. Let me--I do a lot of work on my own computers at home, 
and just uninstalling a single program is frankly a pain 
oftentimes. Are there industries--so what are my obstacles, and 
I am a pretty environmentally responsible person. What are my 
obstacles? One is, it is fairly complicated to uninstall. 
Secondly, you just don't know what to do with the waste. You 
sit there with batteries or an old cell phone, or I don't know 
how many old chargers I have sitting around that I don't even 
know what they go to. There is copper in there and that is 
useful and a valuable material but I don't know what to do with 
it. So we have seen in other areas that the computer industry 
has done things to establish standardization. The USB port is 
an example. I mean, there are hundreds. They have these whole 
networks of people that work together. Are they doing anything 
to come up with standard procedures or mechanisms to facilitate 
this? For example, a well-hidden complete delete button that 
deletes every--you know, that auto-scrubs your entire computer 
for when the time comes to put it away, standard mechanisms by 
which you could extract transformers or copper, et cetera. What 
is being done in that realm and what are the best practices to 
help public citizens respond?
    Mr. Cade. Mr. Baird, we actually have built into our 
refurbished computers the ability to do exactly what you are 
talking about, a one-button, well-hidden erase. We did it 
because we provide our equipment across the United States and 
we provide 800-number support based in the United States for 
that equipment, and what we found is, approximately 80 percent 
of our errors that our users have are software related, not 
hardware. They will call me up and say my computer doesn't work 
and so after a few minutes I will go through and I go, if you 
are willing to lose everything on your computer, then fine, I 
will reset that back to factory settings for you, and so you 
are absolutely right. We need to develop those. And our process 
takes about 20 minutes in order to completely reset the data. 
Unfortunately, what it doesn't do, it doesn't--because of the 
nature of the way software has been designed, it doesn't erase 
the information, it just loses the ability to find it. And so I 
agree with you totally that we need to have or some way 
encourage, particularly hard disc manufacturers or any storage 
devices a one-button, let us erase it all and know that that is 
done.
    I looked into my drawer before I came today and I have 
approximately 17 different USB drives with storage. I have no 
idea what is on any of them. I took a magnet and tried to 
degauss them. They don't degauss. I also, by the way, put it 
through a washing machine because it was left in my pants. The 
thing still works. So we have gotten lots of equipment out 
there, and if you look at the NIST [National Institute of 
Standards and Technology] special report 80088 on erasing 
information, it is a much bigger problem and especially since--
I mean, I am personally concerned about it because I do my tax 
returns myself on my computer. I don't want to change them out. 
And I understand. I think, by the way, that is the fundamental 
problem with e-waste right now is people just don't have 
confidence in understanding how to get rid of the--and they 
need to rely on people like me.
    Mr. Baird. And you don't want to take the time. I have got 
several old Mac laptops sitting around. I don't know what is on 
them but I don't want somebody else to find out what is on 
them.
    Mr. Cade. Well, and that is why it is so important, the 
work that we are doing with Dr. Thomas on RFID (radio frequency 
identification), individual identification of product, because 
that will give us a verifiable custody history that we can work 
on, and it is the kind of thing that we need to develop, and 
just back to Representative Johnson's point about the nature of 
this legislation. It has requirements in it that it is multi-
departmental in terms of working on these research centers. 
That is an absolute must in my mind, everywhere from the art 
and design and industrial design product all the way through to 
the chemist and all the products that they are working with.
    Mr. Omelchuck. I would like to respond also. I think, 
Representative Baird, your first premise was that the House 
needs to obsolete our computers at a pretty rapid rate because 
they are no longer compatible with the new operating systems, 
and I think that is an assumption that we as the society need 
to look at pretty closely.
    Mr. Baird. I agree. I didn't want to do this. The former 
computer worked just fine. It now crashes with regularity. So I 
paid more money to get a system that works less well and then I 
can't recycle or reuse my prior system. That is pretty stupid.
    Mr. Omelchuck. Right. So I think that is really a 
fundamental issue that--and it was part of my testimony to 
encourage research in the amount of e-waste, hardware waste 
caused actually by software obsolescence and of course I think 
we all recognize that that is a very challenging problem to 
address with the hardware-software industry. That scares the 
bejeebers out of them to have us looking at that, but I think 
it is something that needs to be looked at in the light of day 
and thought about.
    The other comment I wanted to make is, you talked about 
design for end-of-life and how we design these products for 
end-of-life, and I just wanted to return to the point that e-
waste doesn't do that. However, there are developing research 
programs around design for end-of-life on electronic products. 
In fact, EPEAT, the system we operate, has probably the best 
criteria of any eco label around designed for end-of-life and 
to be candid, it needs more research. We don't really quite yet 
understand how design affects end-of-life scenarios and the 
challenge in the United States is that the actual process used 
to recycle electronics is all over the map, from a room full of 
guys with hammers to very sophisticated processes and so what--
how do you design a product to be recovered efficiently in each 
of these scenarios. That is an area for further research that I 
think this bill could support.
    Chair Gordon. Thank you, Dr. Baird. As usual, you hit a hot 
button, and Mr. Smith, you are recognized.
    Mr. Smith. Thank you, Mr. Chair.
    First, a couple questions for Dr. Thomas. In light of the 
fact that I think many recycling efforts are cost effective 
both long-term and short-term, both directly and indirectly, 
and when you mentioned that approximately 18 percent of 
electronics are being recycled right now, does that mean the 
first user is not the last user or does that mean like the 
second user might be the last user as well?
    Dr. Thomas. That 18 percent is an estimate made by the U.S. 
EPA and that includes in that number both reuse and recycling.
    Mr. Smith. Okay, so----
    Dr. Thomas. It is kind of an upper limit number. The actual 
number is less.
    Mr. Smith. In that 18 percent, that might also----
    Dr. Thomas. That includes reuse.
    Mr. Smith. Okay. Thank you very much. And then furthermore, 
we know that there are certainly energy costs associated with 
some recycling efforts and reusing and refurbishing as well. 
Are there any organizations that collect the data on the energy 
consumption so that consumers might be more familiar with what 
might be a best practice?
    Dr. Thomas. Yes. University researchers do that kind of 
analysis. The energy use of products can also be directly 
measured, and I believe that in EPEAT's ratings for green 
electronics, energy use is included.
    Mr. Smith. All right. Thank you very much.
    And Mr. Bond, one of the things that I don't believe your 
testimony addressed is the rather patchwork nature of State 
laws and various approaches, and being a former State 
legislator I advocate, you know, flexibility. I think that we 
want states to be innovative and by no means do we want to see 
a boilerplate approach to this. But what lines of research 
would you say are most helpful for your members to be able to 
comply with so many different laws and what kind of approach 
might you suggest?
    Mr. Bond. In terms of the infamous patchwork, I would have 
to think a little bit about whether that question lends itself 
much to research although you could certainly research the 
added cost, and perhaps cost to competitiveness of some of 
that. We confront this as an industry in multiple arenas where 
you do have this infamous patchwork across the states so at the 
same time, we are a federal system and you need to respect 
that, so the industry has tried to engage where they can. It is 
one of the reasons why we as an association have most of the 
State leading tech associations affiliated with us so that we 
really can work on that basis. So I think that is an ongoing 
challenge for us. I think the best solution is to look forward 
to look for design for environment solutions so that you stay a 
step ahead of the regulators because ultimately--in this case, 
that patchwork, if you are reducing the need because you have 
really designed for the environment, then you don't have as 
much regulation. I think that ultimately we do want to make 
sure as a country we keep our innovation advantage. I think 
that is critically important in so many ways. If the Chair 
would bear a short analogy, it is kind of like Mr. Gordon is 
famously, I think, the fastest Member of the House when it 
comes to the annual three-mile race here, but at some point if 
we put enough weight on him, it would have to be in the form of 
a vest because he is not putting it on naturally, but at some 
point enough weight would allow somebody else to win that race. 
So we want to keep Mr. Gordon winning, we want to keep America 
winning.
    Mr. Smith. Thank you. I appreciate your comments, and I 
guess I would reiterate the fact that, you know, many of these 
efforts I think can be very profitable and I think that is 
good, especially in light of certain conditions facing our 
economy today, and having also served at the local level where 
a small town in Nebraska rarely has a landfill, I did learn a 
lot in terms of what we can and should do and we did do to 
extend the useful life of a landfill in a good, sustainable 
manner as well.
    So thank you, Mr. Chair.
    Chair Gordon. Thank you, Mr. Smith, and really let me just 
say, I think the thrust and the basis of this legislation is to 
make recycling a profitable, you know, business model for 
either the companies that Mr. Bond represents or others that 
want to do it, so that is what we want to do. We want to make 
this profitable so it is not a burden. And the other thing I 
will just quickly, a side note, you talk about as a State 
legislator, there is sort of a life cycle that I have seen here 
in Congress, and that is that industry starts off by saying, 
you know, no regulation, no regulation, and then some 
entrepreneurial state will--you know, they will do something 
here, another one will do something there, and then industry 
says oh, please regulate us, please regulate us because they 
need to have that continuity. That is something you will see 
over and over here.
    Mr. Lujan, a new Member of our committee, is recognized.
    Mr. Lujan. Thank you, Mr. Chair, and thank you to everyone 
that took the time to be with us today. I would like to get 
back to some of the discussion that took place with the concern 
of exporting some of the toxic materials and the number of 
people that are sometimes exposed to these, especially because 
most of them are low-paid workers that are sometimes exposed to 
these, and I appreciate the fact that we have been talking 
about sustainable design frameworks. The challenge is to do it 
appropriately and the recognition of the physical-chemical 
property database. I would just like to hear your thoughts on 
other accountability measures or standards that could be 
implemented within the e-recycling community to prevent this 
from happening.
    Dr. Thomas. I would like to point out that there are 
actually laws governing the export of used cathode ray tubes 
(CRTs). Those are the big monitors for TVs and CRTs. And there 
was a GAO (Government Accounting Office) report last year that 
concluded that those laws need to be enforced. So some of the 
legislation already exists. You might look at the CRT rule and 
it may need to cover some other electronic devices as well.
    Dr. Anastas. I completely agree with the perspective that 
we have a large problem that needs to be dealt with today in e-
waste. I guess the only point that I make is, the reason that 
the research, the innovations, and design for disassembly and 
new materials and new energy storage is so important is so that 
we know that two steps forward in our current problem is going 
to be two steps forward and not one step back, that we don't 
keep on creating. As we all know, the rate of production of 
these electronics is not slowing down and so that is why the 
design is so important in addition to the problem that you are 
focusing on.
    Mr. Bond. And I would add, Mr. Lujan, just very quickly, 
that you will find our industry very much in support of strong 
international safeguards and a regime here to protect workers 
and the environment here and around the world. These things do 
get tied up in other international agreements whether it is 
trade or others and so again affirming the Chair's call for 
getting it right. There are some facets to the question but you 
are going to find the industry supportive of your core goals.
    Mr. Cade. Towards that end, the U.S. EPA just concluded 
back in October last year standards called Responsible 
Recycling. I was part of that stakeholder process. It took 
about three years to work through it. I think a lot of the 
issues are addressed there. There are some people who would 
suggest that they are not high enough standards. I suggest that 
what we need to do is implement swiftly those responsible 
recycling standards, or the R2 standards, and then continue the 
research to see what is next in those steps. What has been 
presented and what is now public documentation is really, 
really quite good, and I believe the Institute for Scrap 
Recycling Industries is going to be the first body to have 
certification available for electronics recyclers, and quite 
frankly, we are excited about doing that. Hopefully that will 
come about by the end of the year.
    Mr. Lujan. Thank you. And Mr. Cade, specifically in your 
testimony you also addressed, and we heard from you today, 
about how we could be utilizing some of the technology to 
support a smart grid application, and just to hear your 
thoughts again just to expand that on a large-scale application 
of what kind of benefits we could see as a result of that?
    Mr. Cade. Well, the smart grid by the utilities will 
bring--will allow utilities to control the grid to the home. In 
order to really take advantage of that smart grid and 
differential pricing, you are going to need the user in the 
home, the homeowner, or the person in the apartment, to take 
advantage of that differential pricing or that deferred usage, 
and technology is an obvious answer to those issues. Also too 
is when this equipment is rebuilt and refurbished, it is U.S. 
jobs, and frankly, I am worried about that right now.
    And I believe a perfect example of what we can do in terms 
of refurbished equipment is the coming 2010 decennial census. 
It is a relatively short-term project as projects go on a 
government basis. It will have relatively large volume. I think 
that if we made sure in the census that refurbished equipment 
was part of the equation, I think we can really see it as a 
demonstration project that would be very bold by the Federal 
Government to bring some real awareness that reuse is a viable 
option.
    Mr. Lujan. Thank you, Mr. Chair.
    Chair Gordon. Thank you, Mr. Lujan.
    I see no one to my right other than my friend, Mr. Hall, 
who has passed. Dr. Griffith, would you like to be recognized?
    Mr. Griffith. Thank you, Mr. Chair. I think this is a very, 
very important discussion that we are having, and the 
manufacturer of consumer products with known carcinogens is an 
interesting concept, and we recognize that this is not only a 
great part of our economy but we also recognize the danger that 
we see here, and even though we may ship them off to be 
incinerated in some other country, once they are in the air we 
know they are on the way back here. And so small, trace 
amounts, whether it be antimony, arsenic, or brominated 
hydrocarbons, we recognize that 200-plus years ago the first 
malignancy that we related to hydrocarbon exposure were the 
chimney sweeps in London with testicular cancer. We know that 
this is going to occur as these electronic products become more 
imminent, closer to our skin, our bodies, and even implanted 
into us. So I compliment the Chair on this subject because I 
believe that it has great ramifications for us because we are 
not going to decrease the amount of these products in our 
environment but we are going to increase them, and I think the 
safety of it is not just in recycling, et cetera. I think it 
has a health care ramification. Thank you, Mr. Chair.
    Chair Gordon. Thank you, Dr. Griffith.
    Now the gentlelady from Pennsylvania.
    Ms. Dahlkemper. Thank you, Mr. Chair. I apologize. I was at 
another meeting and missed most of your testimony, so my 
question is fairly basic, but are there any existing e-waste 
programs either domestically or in some other foreign nation 
that we can actually look at for its merit to further study, 
possibly to replicate at this point?
    Mr. Cade. I would defer back to the Responsible Recycling 
standards that were set up by the U.S. EPA and really look to 
those as the standard that we have today, but again, I want to 
reiterate that we need more research and that is why I applaud 
the Chair in this draft legislation that we really do need to 
research and make sure that we do it right in the process. I 
mean, just kind of an interesting aside, my carbon offset or 
mitigation for traveling to this meeting is refurbishing a 
computer. You refurbish two computers, it is the equivalent of 
taking a car off the road for a year.
    Ms. Dahlkemper. Yes?
    Mr. Omelchuck. It is the case that, deferring to Mr. Bond's 
numbers, that approximately 18 states now have electronics e-
waste bills in place today. In addition, the best-known 
international example is the E.U. has a program. China is in 
the process of emulating that largely, not entirely. So there 
are a lot of models that can be researched and I think it would 
be very fruitful to research the environmental and economic 
aspects of all those and there is enough to research.
    Mr. Cade. If I can just add to that, one of the things that 
is really interesting, of those State models, there is only 
one, the State of Illinois, where reuse is actually included in 
the legislation and there is actually concepts on that. I think 
one of the things that is the advantage of all of the states 
is, we have a number of different experiments going on about e-
waste and the research is very important. I think when we talk 
to people, for example, in Oregon, about their law and we talk 
to them about reuse and how it was included in Illinois, they 
kind of went oh, yeah, we forgot that. So I think there is real 
fertile ground by the States' entrepreneurship, as the Chairman 
represented, coming out with the legislation and I suspect in a 
couple of years that we will be back here with the question of 
national legislation, and if we do our research right, we will 
have some very good answers and some very good understanding.
    Ms. Dahlkemper. Thank you.
    Chair Gordon. Just a quick comment. I think you are 
correct, and that is what we are trying to do--is get in front 
of that to have the research so when that inevitable likelihood 
of legislation comes up or regulation, that we can try to do it 
right.
    Ms. Biggert, you would like to close us out?
    Ms. Biggert. Yes. I probably could use a lifeline because I 
missed all the questions. I am sorry if I ask something that 
has already been asked and I am sorry. I had two Committee 
hearings and one markup all at the same time and I need a 
clone. Do you do cloning too or just computers? I think what is 
important, you know, is the recycling and maybe, Mr. Cade, you 
can just tell us--you probably told us--just tell us one more 
time about how important the reuse is and is there anything 
that would be better in what to do with our e-waste?
    Mr. Cade. Well, again, thank you Congresswoman, for your 
question. I think reuse really is the fundamental issue. The 
analogy I like to use is, currently without electronics it is 
the equivalent of taking a loaf of bread and taking three 
slices out of it and then putting it in the cupboard and two 
years later coming back and wondering why it is moldy and no 
longer good to use. We need to be able to make sure that people 
feel safe about getting rid of their equipment, that we have 
that standard set and that it is clear and it is transparent to 
individuals, and once that happens, then they will start to 
bring their equipment out and then we need to be able to have 
the database necessary to understand what is in that product so 
that we can figure out how to reuse it. So we need to build a 
complete infrastructure from scratch that includes reuse, that 
includes processing and includes understanding of what 
chemicals, et cetera, are in there. That was quite frankly in 
the stakeholder negotiations on R2. It was incredibly difficult 
to try to parse out all of those different steps with the lack 
of data.
    So, you know, Mr. Chair, I encourage you. The blanks that I 
saw in the draft legislation were basically around the dollar 
amounts. I know it is a tough request but I think money spent 
here will go a long way to helping our environment and helping 
not only individuals but also all of what we do here. So thank 
you very much.
    Dr. Anastas. If I could just add to that, I completely 
support what has been said about the recycle, reuse, and the 
imperative of that. We want to also keep an eye on design so 
that we make sure that we are not cycling materials through our 
society and our economy that are toxic, that are hazardous. The 
point that I would like to make is that there is nothing about 
the performance of these materials, whether it is in a display, 
in a housing, in battery storage, that requires them to be 
toxic. There is nothing about the manufacturer of an electronic 
that requires it to use literally thousands of times more 
material than actually winds up in the product. These are 
design challenges, and by taking on the basic research with the 
sustainability frameworks, we can change this equation.
    Ms. Biggert. Mr. Omelchuck.
    Mr. Omelchuck. Thank you. I would like to kind of add to 
Dr. Anastas's point and remind us that because the dramatic 
share of the impacts of electronics happen during their 
manufacture and their indirect materials, my point is, it is a 
pleasant concept to think about closing the material loop on 
electronics, and if we could only recover them at the end, we 
could make new electronics out of the old electronics and we 
would be--you know, that would be a nice closed loop. And the 
reality is that if we were to do that 100 percent, recover 100 
percent of electronics, we would be recovering perhaps a tenth 
of one percent of the environmental impact that was invested in 
manufacturing electronics. So I think it is important for us to 
keep that in mind, that closing the material loop is really not 
the goal, the overall goal.
    Ms. Biggert. Do you have any figures about how much goes 
into the landfill versus how much is recovered and reused?
    Mr. Cade. There are some figures, Dr. Thomas has a few, but 
quite frankly, those numbers I don't trust. We did a two-week 
study at one of the four waste collection centers of the city 
of Chicago and asked them to pull all computers that came 
through their garbage trucks, in other words, someone literally 
put it in their garbage. We asked them to pull all the PCs out 
of there, and there were only 37 that came in a two-week period 
for about a quarter of a million households. So it just doesn't 
seem like the numbers work on that. By the way, we did take one 
of the hard drives that had gone through the compression----
    Ms. Biggert. That had been squished?
    Mr. Cade. That had been squished, and we were able to read 
the information and who owned it. We looked up on the Internet 
and we found the guy's address. So we were able to actually 
backtrack with that. So again, it is important stuff that we 
need to work on.
    Mr. Bond. Congresswoman, if I could, I just wanted to 
underscore that many of the leading companies, I will give the 
example of HP, for instance, that have recycling programs, they 
do not send materials to landfills. So I don't want you to 
assume that everything automatically is headed----
    Ms. Biggert. No, I was thinking more of the consumer 
probably is the one that doesn't know what to do with it.
    Chair Gordon. I think the doctor might have a rebuttal.
    Ms. Biggert. Okay, Dr. Thomas.
    Dr. Thomas. No, I actually want to agree that we don't 
really know where electronics are going and how much is 
recycled. EPA tried to estimate this. They just pretty much 
have to sit down in a room with a piece of paper and make some 
estimates. We don't know where they are. We don't know how many 
are in people's basements, how long they keep them there. We 
don't know how many are sent to other countries. There is just 
nothing. We know very well what goes through the manufacturing 
system, what is retailed, what is sold and after that it is 
just dark.
    Ms. Biggert. I have a couple in my attic that are really 
old and they are the old Macs with the little screen and my 
kids used to use and I keep worrying about them being there. 
They are too old to be reusable, but what do I do with them? 
Just take them to the recycling centers that we have for 
electronics?
    Mr. Cade. Congresswoman, I will pick it up next week. I 
will be in town.
    Ms. Biggert. Well, I am going to have to dig them out. I 
have got a lot in the attic. Thank you.
    Chair Gordon. Thank you, Ms. Biggert. Let me thank our 
panel for a very interesting hearing, and let me once again 
suggest that we are welcome to your specific suggestions. This 
is only a draft. Mr. Hall raised some very good questions in 
his earlier comments. We want to try to address those so we can 
get the very best bill we can. This is an important topic.
    And so now the record will remain open for additional 
statements from the Members and for answers to any of the 
follow-up questions the Committee may ask of the witnesses. The 
hearing is now is adjourned.
    [Whereupon, at 11:45 a.m., the Committee was adjourned.]

                              Appendix 1:

                              ----------                              



                   Answers to Post-Hearing Questions
Responses by Valerie Thomas, Anderson Interface Associate Professor of 
        Natural Systems, School of Industrial and Systems Engineering, 
        and School of Public Policy, Georgia Institute of Technology

Questions submitted by Representative Ralph M. Hall

Q1.  The discussion draft includes a section that would make funding 
available for joint public/private research projects.

Q1a.  How would the program in the draft legislation differ from 
existing programs at the federal level?

A1a. Currently, there are no programs funding e-waste research at the 
federal level. Researchers proposing e-waste research can submit 
proposals to broad National Science Foundation programs related to 
reducing the environmental impacts of manufacturing; in this case the 
proposals compete against all other manufacturing and sustainability 
research topics.

Q1b.  How would this funding effort integrate into the existing overall 
e-waste strategy?

A1b. The U.S. EPA has been promoting e-waste recycling; this funding 
could support that effort.

Q2.  Many of you discuss what we should do for electronic waste that 
will result from products that are currently being sold or are on the 
drawing board. What do we do with all the orphan waste and products 
people still have stored in their attics? How will research assist us 
in properly disposing of this type of electronic waste?

A2. Immediate e-waste problems should be addressed by action, not 
research. Enforcement of the CRT rule, more comprehensive regulation of 
electronic waste exports, and legislation for end-of-life management of 
electronics would provide a basis for development of appropriate 
electronics recycling capability for existing products.

Q3.  What lessons can be learned from the ``Mercury-Containing and 
Rechargeable Battery Recycling Act'' about federal efforts to encourage 
recycling?

A3. The Mercury-Containing and Rechargeable Battery Recycling Act does 
not require battery recycling. It requires that rechargeable batteries 
have a recycling label and that they be easily removable, that EPA 
establish a public education program, and it loosens the hazardous 
waste restrictions on handling and transport of batteries. Despite 
significant voluntary efforts to promote recycling, the battery 
recycling rate remains below 20 percent. The lesson is that these 
measures are not sufficient to ensure high recycling rates.

Q3a.  Why do you believe that consumers will not recycle e-waste 
instead of disposing of it?

A3a. Currently, it is generally not easy for consumers to recycle e-
waste.

Q3b.  Car batteries are one of the few products that are recycled with 
regularity. This reality has to do, in part, with the fact that auto 
repair shops collect old batteries when they are replaced. How could 
this type of success be replicated in the e-waste field?

A3b. Most states have strong lead-acid battery recycling laws that 
prohibit lead-acid battery land disposal or incineration and require 
recycling, that require battery sellers to take back batteries for 
recycling, that require battery sellers to charge a deposit for sale of 
batteries in some cases, and that specify fines for noncompliance.
    This model of recycling could be replicated for e-waste.

Q4.  You suggest that a standardized label is needed for identifying 
and tracking various models of electronic equipment, and further 
suggest that manufacturers and recyclers would derive benefits from 
this system.

Q4a.  Can you expand on how labeling, be it electronic or printed, 
would improve upon visual identification and sorting of these pieces of 
equipment?

A4a. Visual identification and hand-sorting by trained workers can 
indeed be quite effective for some tasks.
    Automation does, however, have many advantages. Labels can be read 
automatically, either by a bar code reader (for bar code labels) or by 
an RFID reader (for RFID tags), and the information would be 
automatically recorded in a computerized database, which can link to 
information about that product, such as the value of components, the 
identification of hazardous components, instructions for dismantlement, 
and so on.
    Specifically, labeling could allow for better identification of re-
usable parts; reusable parts are a key component of the profitability 
of many electronics recyclers. In addition, labeling can significantly 
reduce costs for reporting to regulatory agencies and to large 
customers; recyclers report that these reporting costs are significant.
    The benefits of automation for recycling are the same as the 
benefits of automation for recycling. Initial benefits of automation 
include some cost reduction due to efficiency and some cost reduction 
due to reduced labor costs. As automation becomes more integrated into 
the industrial process, it allows for the development of new processes 
and innovations.

Q4b.  To optimize these efficiencies, is labeling needed for overall 
units, or should labeling also include components?

A4b. Discussions with recycling industry representatives generally 
indicate that labeling of key components as well as the overall unit 
would be most effective.

Q5.  There is a numbering system associated with the recycling of 
plastics. However, it has been suggested that this system does not work 
well due to lack of public knowledge. How would you propose to prevent 
similar difficulties with electronic labeling for recycling?

A5. The plastics labeling system was developed to help consumers sort 
plastics. Plastic recycling technology has changed over time so that 
the numbers are no longer relevant to the recycling technologies used 
in many locations.
    The technology for e-waste recycling can also be expected to change 
over time. For this reason, the label should simply identify the make 
and model of the product; the information about the recycling of that 
product would be kept in databases that can be changed without needing 
to change the label.

Q6.  What are the energy costs of recycling, reusing, or refurbishing 
electronics? What organizations collect data of this sort?

A6. No organizations are collecting and reporting data on the direct 
energy costs of recycling, reusing, and refurbishing electronics. The 
environmental impacts of recycling and refurbishing operations are 
generally assumed to be small compared to the environmental benefits of 
recycling. Life cycle assessments indicate electronics manufacturing is 
highly energy intensive and that, therefore, reuse of electronics can 
save energy by reducing manufacturing energy needs.\1\
---------------------------------------------------------------------------
    \1\ E. Williams, Energy Intensity of Computer Manufacturing: Hybrid 
Assessment Combining Process and Economic Input-Output Methods, Envir. 
Sci. Technol. 38 (22):6166-6174.
---------------------------------------------------------------------------
                   Answers to Post-Hearing Questions
Responses by Paul T. Anastas, Teresa and H. John Heinz III Professor in 
        the Practice of Chemistry for the Environment, School of 
        Forestry and Environmental Studies; Director, Center for Green 
        Chemistry and Green Engineering, Yale University

Questions submitted by Chair Bart Gordon

Q1.  How would a database containing the chemical and physical 
properties of materials used, or potentially used, in electronics be 
used? Does such a database currently exist?

A1. I am not aware of a database that duplicates the purpose of the 
proposed database. The proposed database would be used by electronics 
designers in assessing the physical/chemical properties which are 
directly related to both the performance as well as the impact of the 
electronic on human health and the environment. By having this 
information, those wishing to ensure that our high performance 
computers have a reduced impact on the environment can use it to 
identify substitute chemicals and alternative substances in the 
electronics components.

Questions submitted by Representative Ralph M. Hall

Q1.  The discussion draft includes a section that would make funding 
available for joint public/private research projects.

Q1a.  How would the program in the draft legislation differ from 
existing programs at the federal level?

A1a. I am not aware of any programs that are focused on the issue of 
the impacts of electronics on human health and the environment 
throughout their life cycle. The research that would be the basis of 
this draft legislation would provide new design tools to ensure that 
our current electronics waste programs are more effective and, as 
importantly, make sure that our future electronics don't cause the same 
issues as our current and historic approaches to designing electronics.

Q1b.  How would this funding effort integrate into the existing overall 
e-waste strategy?

A1b. While there is currently good work being conducted on electronics 
recycling and reuse, there is little research focusing on the basis of 
how to make all life cycle stages of electronics less harmful to humans 
and the environment. While the electronic waste programs currently are 
making a bad situation less bad, there is research needed to understand 
how we design our electronics to be genuinely good for humans and the 
environment. This means ensuring that they have increased performance 
and reduced adverse impact on the environment. Rather than simply 
dealing with only the waste at the end-of-life stage, these 
sustainability frameworks allow practitioners to be able to design such 
that economic and environmental goals are mutually reinforcing.

Q2.  Many of you discuss what we should do for electronic waste that 
will result from products that are currently being sold or are on the 
drawing board. What do we do with all the orphan waste and products 
people still have stored in their attics? How will research assist us 
in properly disposing of this type of electronic waste?

A2. The research that will be done under this legislation can help deal 
with the existing waste in many ways. The research can allow us to 
better understand how to separate the wide range of substances that 
make up most electronics that include plastics, polymers, metals, 
glass, and much more. By being able to separate these substances, we 
begin to be able to extract the value from this waste and use it 
productively. The research will also involve new sensors to be built 
into new disassembly facilities. It will involve new process and 
reactor technologies to be able to transform these mixed materials. 
This research will need many disciplines involved including 
electrochemists, mechanical engineers, product designers, analytical 
chemists, and others. While I am only scratching the surface of the 
various ways that this research can impact existing orphan electronics, 
it is only because the potential is enormous and there may be 
approaches in the research community that people have not even 
considered as yet.

Q3.  You point out that electronic production is increasing 
exponentially, so that even with steady improvements in each generation 
of devices, the overall negative environmental impact may still 
increase. What level of improvement over time is needed to begin to 
reduce the negative consequences of e-waste?

A3. The good news about the approaches that I have outlined in the 
testimony about sustainable design through the 12 Principles of Green 
Chemistry and Green Engineering is that it is not merely reducing 
material and energy (which it is), it is also addressing the intrinsic 
nature of the energy and the materials used in the electronics and 
throughout their life cycle. This means that even if some level of 
``waste'' were continue to be produced, the inherent nature of that 
waste would be of reduced concern for humans and the environment 
because it would be less toxic, less depleting, more degradable, less 
persistent, etc. These improvements would be coupled with the 
innovations in performance that have marked the history of the 
electronics industry and make the environmental and economic 
performances work hand-in-hand. This has been achieved in a number of 
other industry sectors and the potential in the electronics sector is 
tremendous.

Q4.  You quote a 1999 study that suggests the average lifespan for a PC 
is two years.

Q4a.  Is this driven mostly by businesses that regularly replace the 
inventory while home consumers hang onto their equipment longer?

A4a. I am not aware of the exact data on the breakdown of business 
electronics lifetime versus home electronics lifetime.

Q4b.  Has there been no change in the life-spans of personal computers 
in the last 10 years since this study was published?

A4b. The issue is very often not the functional lifetime of a computer 
or other electronics. Many of the electronics that are ``waste'' work 
fine and their life-spans are very long. These electronics are 
discarded because they are viewed as not having the latest capabilities 
or are stylistically not as appealing. Making the electronics simply 
more durable is not going to address these issues. Making their 
functionality and upgradability more modular may be one way to address 
the issue.

Q4c.  Do consumers and businesses have similar patterns of use and 
disposal of electronic devices?

A4c. I am not aware of data on the use and disposal patterns of 
business and consumers.

Q5.  What is your definition of ``toxic'' and ``hazardous material?''? 
Is the goal of complete elimination of these materials realistic?

A5. The definition of hazard is the ability to cause adverse 
consequence. There is nothing about the chemicals and substances used 
in electronics and the functions we wish them to serve that REQUIRES 
them to be toxic. That being the case, it is simply a scientific and 
design challenge to address this issue through the research this bill 
supports. This reduction and elimination of hazardous substances 
through green chemistry has been done by many companies in many sectors 
and it can certainly be done by the electronics sector. The research 
that will allow it to happen will simultaneously benefit the 
performance and economics of the electronics industry.

Q6.  Does better design necessarily mean less toxic, more efficient and 
easily recyclable? Would it also include more focused designing for 
difference consumer groups? How would that alter the environmental 
impact of electronic products?

A6. Hazard is a design flaw. Unless a particular hazard is intended, 
such as in the case of pesticides, then unintended hazard--unintended 
adverse consequence--is something that can and should be addressed.

Q7.  You describe a lack of quality data on the stocks and flows of 
various materials crucial to the electronics industry. What mechanisms 
currently exist to estimate the amount of precious metals available on 
the market and the reserves of those materials?

A7. The best work in this area that I am aware of is being conducted by 
Prof. Thomas Graedel of Yale University on the stocks and flows of 
metals in commerce. I am aware that his research requires working with 
national agencies in the U.S. and around the world as well as with 
private data sources. There is very little research funding in this 
area for the development of data sources. This is important of course 
strategically both for economic and national security reasons.

Q8.  In your testimony, you define frameworks of sustainable design and 
illustrate your point with the example of closing the material loop, or 
working towards achieving a zero waste scenario.

Q8a.  In order for this approach to work, particularly with material 
synergies outside the electronics industries, how would you propose 
fostering communication and information exchange between parties?

A8a. The sustainability design frameworks outlined in the testimony 
view closed loops as merely one aspect of sustainable design. It is 
essential to incorporate design into the inherent nature of the 
substances and energy sources to ensure they are benign and sustainable 
as well. Closed loops can be achieved at many scales; in the process, 
within a factory, within an industrial park, or within a city. Each of 
these scales will require different levels of communication and 
coordination. Transparency on what materials are flowing through a 
system is essential. This requires companies and other organizations to 
be willing or required to both know what materials are coming into and 
being released by their operations as well be willing to share this 
information. This communication and information exchange will allow for 
the boldest opportunities to be realized. Even in the absence of this 
level of communication, individual companies and industry sectors can 
still achieve closed loops very effectively within themselves.

Q8b.  Would the green database outlined in the draft legislation 
sufficient? Or would it be necessary to incorporate a clearinghouse 
such as the pollution prevention resource exchange?

A8b. The database suggested in the legislation would be an essential 
element that would enable closed loops to happen but it would not be 
sufficient on its own. It would inform designers what is possible in 
closed loop systems but not necessarily provide enough detail on where 
those materials are used geographically and industrially. A resource 
exchange database would be valuable but should be more robust than the 
current EPA database.

Q9.  How would you suggest adapting the IGERT program, which currently 
focuses on interdisciplinary research and education, to include 
partnerships with industry?

A9. The IGERT program is regarded as one of the crown jewels of the 
research programs from NSF. Partnership research programs with industry 
could be achieved through the development of a parallel program or an 
option within the IGERT program However, it may be easier to look at 
programs such as the NSF's Industry University Cooperative Research 
Centers (IUCRC) and instead extend those to include educational aspects 
to them especially for graduate students. The IUCRC has already dealt 
well with many of the problematic issues that arise in academic-
industry partnerships and this approach would ensure that the IGERT 
program is not unintentionally disrupted.
                   Answers to Post-Hearing Questions
Responses by Phillip J. Bond, President, TechAmerica

Questions submitted by Representative Ralph M. Hall

Q1.  The discussion draft includes a section that would make funding 
available for join public/private research projects.

Q1a.  How would the program in the draft legislation differ from 
existing programs at the federal level?

A1a. There are currently no programs at the federal level that would 
establish public/private research projects into the issue of green 
electronics design. The program, therefore, would establish a new 
program with a new focus.

Q1b.  How would this funding effort integrate into the existing overall 
e-waste strategy?

A1b. Currently, there is no federal strategy for providing direction or 
prioritization on the issue of e-waste. The U.S. Environmental 
Protection Agency regulates the management of hazardous wastes, which 
may include some (not all) electronic products. This funding effort 
would help prioritize environmental risks from electronic products and 
provide overall direction to a federal strategy.

Q2.  Many of you discuss what we should do for electronic waste that 
will result from products that are currently being sold or are on the 
drawing board. What do we do with all the orphan waste and products 
people still have stored in their attics? How will research assist us 
in properly disposing of this electronic waste?

A2. It is correct that design incentives or guideline or standards will 
not address historic electronic waste, which will require proper 
management. The research that will be generated through this 
legislation will help us determine which types of historic waste will 
require hazardous waste management and which may be discarded in 
conventional waste management facilities due to its low-risk status. 
Currently, that very basic information is missing.

Q3.  In your support for a National Academies study of e-waste, you 
suggest that an authoritative baseline of e-waste impacts is needed. 
What impacts of e-waste are currently in dispute?

A3. There has never been a science-based assessment conducted of the 
environmental risks posed by electronic products--as a result, this 
central issue, remains in dispute. Also, the best ways to manage the 
different types of e-waste--some products have high reuse potential, 
some products can be managed in municipal solid waste facilities and 
some will require treatment as hazardous waste--the categorization and 
requirements for each have never been fully researched and addressed.

Q4.  How are EPEAT's criteria affecting producers' design decisions?

A4. EPEAT, as a federal and institutional purchaser procurement 
requirement, operates as a significant driver of green design 
principles for electronics. The move to LED lighting for computer 
monitors (over mercury-containing lamps) is an example of an EPEAT 
environmental design success story.

Q5.  One of the things I noticed you did not address in your testimony 
was the patchwork of State laws dealing with electronic waste. If this 
framework continues for the next decade, what lines of research would 
be most helpful for your members to be able to comply with so many 
disparate laws?

A5. The State laws establish requirements for end-of-life management of 
certain electronic products--mainly, computers and televisions. 
Currently, they are operating as State experiments into which financing 
models work the most efficiently and cost effectively. There may be a 
time when the industry works with Congress and other stakeholders to 
establish a national model. Until that time, the information gathered 
at the State level regarding the costs and economies of scale 
associated with e-waste management will help inform this issue going 
forward.

Q6.  Industry often partners with academia to conduct research. Given 
the current level of interest in moving the electronics industry in a 
``green'' direction, why do you feel that this type of legislation is 
needed? Is it just a matter of funding basic research?

A6. The issue is larger than the simple issue of funding basic 
research. Electronic products are the engine of our economy and the 
need to design them for environmentally appropriate and more cost-of-
life end-of-life management is a societal issue in which all 
stakeholders must participate--the product designers, federal, State 
and local environmental agencies, the science community, environmental 
stakeholders, and recyclers--all stakeholders have a role to play in 
constructing sustainable solutions to this issue. It is critical that 
we fund the basic science that is at the core of the issue and we need 
to the Federal Government to play a central role for credibility and 
accountability purposes. Only then will all stakeholders accept the 
results and move forward in a balanced and meaningful way.
                   Answers to Post-Hearing Questions
Responses by Jeff Omelchuck, Executive Director, Green Electronics 
        Council, Electronic Product Environmental Assessment Tool 
        (EPEAT)

Questions submitted by Representative Ralph M. Hall

Q1.  The discussion draft includes a section that would make funding 
available for joint public/private research projects.

Q1a.  How would the program in the draft legislation differ from 
existing programs at the federal level?

A1a. I am not aware of other federal programs that would create centers 
to research issues related to e-waste and it does not appear to me that 
e-waste is a focus of much federal research. Perhaps existing programs 
could be directed to research the issues identified in the draft bill.

Q1b.  How would this funding effort integrate into the existing overall 
e-waste strategy?

A1b. I am not aware of an ``existing overall e-waste strategy.'' In 
fact, that is a very large part of the problem! I don't believe the 
Federal Government has developed a national program or approach to e-
waste recycling. Many municipalities and local agencies that manage 
solid waste have banned electronics of various types from their 
landfills or incinerators. Thus, in large parts of the U.S. there is no 
organized and regulated way for citizens to safely dispose of e-waste. 
As a result, our e-waste stays in our closets and basements, is 
disposed in municipal systems that are not designed to handle this 
material, or is dumped illegally. Several leading electronics 
manufacturers and retailers have implemented recycling programs but 
they are usually quite limited, at a cost, and collectively they 
recover only a few percent of total e-waste. Private sector 
``recyclers'' have emerged and some are very good, but much of that 
material is exported to countries where it is ``recycled'' using the 
worst possible practices.
    This absence of a federal program, refusal of municipalities to 
handle e-waste, the growing ocean of e-waste in closets and basements, 
and the resulting private sector has caused a growing number of states 
to develop and implement their own e-waste recycling programs. These 
programs are often quite different from each other, and each impacts 
producers, municipalities, recyclers, retailers, and consumers 
differently. Because of federal inaction we are on a path to create 50 
different State-specific programs.

Q2.  Many of you discussed what we should do for electronic waste that 
will result from products that are currently being sold or are on the 
drawing boards. What do we do with all the orphan waste and products 
people still have stored in their attics? How will research assist us 
in properly disposing of this type of waste?

A2. You are quite right to focus on the ocean of e-waste the public has 
in our homes, and that problem will not be solved by changing product 
design practices. We simply must develop and implement an effective e-
waste recycling program and we must do it fast--it is the only way to 
deal with the growing ocean of legacy e-waste and should be the highest 
priority. While certain research may be helpful in implementing an 
effective e-waste solution, the lack of scientific research is not 
preventing a solution. What is preventing a solution is lack of 
political will. That is why I proposed including economic and policy 
research in the scope of research included in the bill.
    Electronics are fundamentally different from other products, and 
certainly from the ones that come to mind when we think about 
recycling, like bottles, cans, and newspaper. Whereas the primary 
environmental reason to recycle bottles and cans is to reduce the 
volume of material in landfills, reduce litter, and recover the 
material for re-use, the primary environmental problem with e-waste is 
its toxicity. We need to collect e-waste in order to keep it out of 
standard municipal landfills and other inappropriate disposal methods 
because they contain many toxic materials. The electronics industry has 
done a good job over the last several years of reducing the overall 
toxicity of electronic products in general, but as you observe, that 
doesn't help us much with the ocean of legacy e-waste that was designed 
and manufactured before this recent revolution.
    The key is collecting e-waste from the public. Once collected there 
exists, or can be quickly created, sufficient infrastructure to recycle 
it properly. By the way, e-waste recycling can be a relatively labor 
intensive process and could be a key source of jobs.
    If we develop and implement an effective national e-waste recycling 
system we will have solved the clear and present danger of toxics 
presented by legacy e-waste, but we will forever be dealing with toxic 
e-waste unless we can find a way to change the nature of the product 
itself. This is particularly important when we realize that it is 
impossible to mine and create toxic materials, manufacture products 
with them, use those products in our homes, businesses, and schools, 
and collect and recycle them, without putting miners, manufacturers, 
users, recyclers and the environment at risk. It is a far better long-
term solution to find a way to change the design of these products over 
time so that perhaps, in time, they are not toxic. We will still likely 
want to recycle them for other reasons, but we will not be putting 
every person in the process at risk.

Q3.  How does the co-mingling of different producer's products in the 
waste stream impact recycling operations? How can improvements in one 
producer's products adversely affect the overall waste stream?

A3. First, let me clarify that there are very good environmental and 
economic reasons to co-mingle products from different manufacturers in 
the waste stream. It would be very inefficient to create separate 
collection and recycling systems for each manufacturer, you'd have to 
create parallel systems everywhere, and you'd have the problem of 
orphan products. Even if one were to create consortia of producers who 
banded together to share a recycling infrastructure, the existence of 
multiple consortia is less efficient than one infrastructure, and if 
the consortia combined over time we have effectively created one co-
mingled system.
    Even though a co-mingled collection system is much more 
environmentally and economically efficient, it has its challenges:

        1)  It presents recyclers with a very wide variety of products 
        to deal with. Many electronic products contain components that 
        must be removed from the product in order to be treated 
        appropriately and it is difficult for recyclers to know the 
        best way to do that for every product. Even if a producer 
        created a special button that, when pressed, would release all 
        the hazardous components, the button would do recyclers little 
        good if they didn't know it existed or where it was on each 
        product.

        2)  The co-mingling of different producer's products makes it 
        difficult for individual manufacturers to benefit from advances 
        in design or manufacturing processes they might make that would 
        make their products more easily, cost effectively, or 
        environmentally soundly recycled. Thus, the co-mingled nature 
        of e-waste collection removes the incentive any manufacturer 
        would have to improve their product.

    These challenges are not insurmountable. For example, as part of my 
written testimony I provided the report from an EPA-funded research 
project that GEC recently completed in which we conceptualize a common 
database where producers could put information that recyclers need in 
order to effectively recycle their products.
    The second issue of creating an incentive for producers to make 
their products more recyclable over time could be addressed by creating 
a way to evaluate specific products for ``recyclability'' and creating 
a differential fee to cover their recycling, so the recycling fee would 
be less for products that were designed to be more easily recycled. As 
in most current e-waste recycling systems, this fee could be levied at 
the time the product is sold when its identity is known and the fee can 
be easily collected, either visibly from the consumer, invisibly from 
the consumer, or from the manufacturer or retailer, or some 
combination. This would provide a mechanism to optimize design of the 
product and its recycling system over time.
    To answer your last question, there are several examples of how one 
producer making what appear to be improvements can actually adversely 
affect the overall waste stream, and several examples of how apparent 
advances simply make no difference:

        <bullet>  The use of bio-based and biodegradable plastics would 
        appear to reduce petroleum use and reduce waste at end-of-life. 
        However, bio-based plastics are generally not compatible with 
        recycling practices used for petro plastics and actually 
        contaminate those recyclate streams. So unless bio-based 
        plastics can be effectively identified and separated during 
        recycling, and there is an industrial compost facility 
        available, they inhibit plastics recycling. The same situation 
        exists for wood or bamboo electronics enclosures.

        <bullet>  A few manufacturers have employed novel disassembly 
        methods, particularly to allow removal of hazardous materials 
        like batteries or lamps. However, unless recyclers know about 
        them, how to use them, and have the tools (if any), they 
        usually end up dismantling the product with a hammer, often 
        breaking the parts that the manufacturer intended to protect, 
        for instance, CFL lamps that contain mercury.

        <bullet>  Different plastic resins must be recycled in 
        different processes and plastics are difficult to separate by 
        type, so it would be very helpful to reduce the number of 
        different plastics that are used in electronics. However, one 
        or a few manufacturers doing that wouldn't help much. It would 
        need to be industry-wide.

        <bullet>  Most producers mark plastic parts with codes that 
        identify which type of plastic resin the part is made from to 
        facilitate separation and recycling. However, some of the most 
        sophisticated e-waste recycling systems sort plastics by other 
        characteristics (specific gravity, etc.) in automated systems 
        so the marks are useless (though not harmful).

Q4.  How does the EPEAT program compare to the Energy Star program in 
consumer awareness and purchasing decisions?

A4. ENERGY STAR has perhaps the highest consumer awareness of any eco-
label, exceeding 75 percent awareness in the U.S. public. ENERGY STAR 
has come to be trusted by millions of consumers as a reliable way to 
identify energy efficient products that reduce greenhouse gas emissions 
and save money.
    EPEAT was designed primarily for use by institutional purchasers, 
organizations that buy products on purchase contracts. EPEAT was 
launched in 2006 and is now required by more than $60 billion worth of 
purchase contracts, including those of the Federal Government. EPEAT 
covers a full range of product environmental characteristics, including 
energy efficiency (in fact, ENERGY STAR is EPEAT's primary energy 
criterion). We do not track consumer awareness of EPEAT but it is 
certainly very low. We are beginning to make plans to increase EPEAT's 
consumer awareness.
    EPEAT and ENERGY STAR have a long history of cooperation and are 
currently exploring ways to work together to help consumers identify 
electronics that meet a broad range of ``green'' criteria.

Q5.  In your testimony you mention a Design for Environment, End-of-
Life registry that is a critical source of recycling information for 
many electronic products. Would the Pollution Prevention Resource 
Exchange be an appropriate place to warehouse this information?

A5. Perhaps. We would welcome the opportunity to explore that idea 
further.

Q6.  How can changes in software design reduce e-waste?

A6. Many believe that software ``advances'' are one of the leading 
causes of PC hardware obsolescence. Think of your last several 
computers. How many met their end-of-life because they physically 
broke? I'll bet that most became obsolete because they would no longer 
run the applications software and operating systems that were the only 
options available, or succumbed to a virus or other software problem 
that became too maddening to fix, or ``got too slow.'' Of course, the 
hardware doesn't actually slow down over time. These performance 
degradations are caused by software changes. It seems likely that the 
majority of PC obsolescence is caused by software. However, it appears 
that relatively little research has been done on this question.
    We would like to study this issue further and would welcome the 
participation of government, industry, academic, ENGO, and other 
interested parties who can contribute.
                   Answers to Post-Hearing Questions
Responses by Willie Cade, Founder and Chief Executive Officer, PC 
        Rebuilders and Recyclers, Home of the Computers for Schools 
        Program

Questions submitted by Representative Ralph M. Hall

Q1.  The discussion draft includes a section that would make funding 
available for joint public/private research projects.

Q1a.  How would the program in the draft legislation differ from 
existing programs at the federal level?

A1a. The program described in the draft legislation would be managed 
using sound data collection and management systems. Research, 
education, and technical assistance priorities would be developed 
through careful examination and consideration of the data collected 
through this program. This approach would ensure that resources are 
allocated such that maximum benefits are derived from the monetary 
resources invested.
    Current methods for tracking the origin, use and management of e-
waste are extremely limited. EPA currently estimates the amount of 
electronic products sold, stored, recycled, disposed of, and exported 
in the U.S. using a series of assumptions and estimates based on market 
research data for sales and data from electronics collection programs 
along with some government statistics for sales. These data are usually 
not complete or current and are developed only for purposes of deriving 
national estimates. Additionally, the information is woefully 
inadequate for making strategic decisions regarding feedstock, market 
and system management. Current EPA e-waste management efforts focus on:

        1.  number and weight of products that become obsolete

        2.  amount of electronic products that are recycled or disposed 
        of

        3.  amount of electronic equipment that is stock-piled

        4.  collection rates of current electronics recycling programs, 
        and

        5.  export of electronic material

    The development of a more sustainable e-waste management system is 
contingent on the quality of data available for decision-making 
purposes. Consequently, development of a more complete, accurate and 
useful data collection and management system is paramount to 
establishing a more sustainable e-waste management system. Examples of 
additional data needed to support an effective system include the 
following:

        1.  Where the waste originated/how far it traveled

        2.  User information (personal, commercial, industrial, etc.)

        3.  Manufacturer name

        4.  Model numbers

        5.  Serial numbers

        6.  Product type (TV, monitor, CPU, etc.)

        7.  Product age

        8.  Product service life

        9.  Reason for discarding (e.g., obsolete, damaged, software 
        issues, etc.)

    This information could be combined with other pertinent databases 
associated with product information (e.g., model numbers could be 
cross-referenced with specific parts lists) and demographic information 
(e.g., census, Thomas Registry, etc.) to create a comprehensive 
database that would be extremely valuable for users interested both in 
the quality of the products they produce, availability of reusable 
components, and methods for remanufacturing, reusing and recycling 
them.

Q1b.  How would this funding effort integrate into the existing overall 
e-waste strategy?

A1b. U.S. EPA has already performed cursory analysis of the problems 
and opportunities associated with electronic wastes. They have also 
developed some very basic assistance materials for helping individuals 
and organizations better manage electronic waste. This program would 
build on these efforts by providing the data collection, research, 
education, and technical assistance means necessary to fully develop 
and implement a more sustainable system for producing and managing 
electronic devices. It is envisioned that such a system would minimize 
waste, pollution, and safety hazards while maximizing opportunities for 
remanufacturing and recycling.

Q2.  Many of you discussed what we should do for electronic waste that 
will result from products that are currently being sold or are on the 
drawing board. What do we do with all the orphan waste and products 
people still have stored in their attics? How will research assist us 
in properly disposing of this type of electronic waste?

A2. People are keeping these systems in their attics or basements for 
an estimated three to four years. This is a waste of the resources 
invested in this equipment. Research will help us to understand the 
reasons that people store this equipment so long. Our current guess is 
that people are afraid to get rid of this equipment for fear of their 
personal information being misused or that they would be contributing 
to a growing environmental problem. Understanding these problems and 
addressing the needs will help use get equipment sooner and allow us 
greater reuse opportunities. Better identification of the items and 
materials that comprise the current waste stream will better enable us 
too safely and cost effectively process this equipment.

Q3.  What components are best suited for reuse? Do enough of these 
components exist to create a stable supply of sufficient quantity? 
Would high reuse and recycling greater standardization of component 
circuitry? What effects would the use of reclaimed components have on 
industry warrantees and hardware support?

A3. Solid state components are best suited for reuse. They also happen 
to be the items that require the most resources for their initial 
production. I have been working around computers for the last 15 years 
and last month was the first time I ever saw a solid state component 
physically fail. Yes there is more than enough equipment to create a 
stable supply. Component circuitry is highly standardized by 
generation, but the generational turn over is very rapid. While there 
may be 1,000 different computer model on the market at any give moment 
there may be only 100 different components. I believe that reuse of 
reclaimed components would have no effect on industry warrantees and 
hardware support. My program offers a three year hardware warranty on 
our three- to four-year-old refurbished computers.

Q4.  How can changes in software design reduce e-waste?

A4. To date most software design has been about increasing 
functionality. As software design matures more emphasis will be placed 
on efficiency. More efficient software will require less powerful 
hardware and allow people to keep using their hardware longer. This can 
be seen in the beta testing of the new Microsoft Windows 7 operating 
system.

Q5.  Some computers are too old to be refurbished for general computing 
task. Are there customers for components from these computers? What is 
the quality of the hardware in these very old systems and what uses can 
they be put to?

A5. The quality of these ``very old'' systems is very good. Proper 
quality control testing can identify week parts and eliminate them from 
production. We are just now learning the different ways to use this 
equipment. My company is investigating ways that homeowners and 
businesses can use e-waste to help reduce their energy consumption. The 
smart grid will provide a vast amount of opportunities to monitor and 
control energy use that our current ``dumb'' electrical grid does not.
    Refurbishing computers educates, creates local jobs, is cost 
effective and helps the environment. I believe that we could provide 
refurbished computers for the upcoming census at a significantly 
reduced cost per unit with out sacrificing any needed capabilities or 
quality. In fact using refurbished computers would more effectively 
stimulate the U.S. economy because all of the money spent on 
refurbishment is for U.S. jobs where as 80 percent to 90 percent of the 
money spent on new equipment is for overseas manufacturing jobs.

Q6.  What is your definition of ``toxic'' and ``hazardous materials''? 
Is the goal of complete elimination of these materials realistic?

A6. My definitions of ``toxic'' and ``hazardous materials'' are 
materials that can cause harm to people and the environment. I think it 
is important to distinguish between equipment that contain toxic or 
hazardous materials but do not pose any risk of exposure during the use 
of the equipment. The most concerning issue around electronic equipment 
is its manufacturing and disposal. Modern methods of major manufactures 
are fundamentally safe. Real concern occurs when informal process such 
as burning are used. I believe that we need to research safely 
processing this equipment rather than eliminating substances of concern 
from the equipment because I believe it is unrealistic to eliminate 
them.

Q7.  Your testimony mentions that computers from one manufacture are 
older that the stream as a whole. Have other recyclers seen the same 
phenomena and if so are there specific lessons to be drawn from this 
manufacture's designs? Additionally, this manufacturer has been 
criticized for creating products that are particularly difficult to 
disassemble and recycle. Are there trade-offs between longer use and 
recyclability?

A7. I know of no other Refurbisher/Recycler that has quantitative data 
on this issue. There are very valuable lessons to be learned from these 
differences. I believe one of the major benefits to this kind of 
research is that it will increase the product quality for the industry 
as a whole. I do not believe that there are inherent trade-offs between 
longer use and recyclability rather I think they go hand-in-hand.


                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


            Statement of Representative Mike Thompson (D-CA)

    Thank you for the opportunity to comment briefly on electronic 
waste, or ``e-waste.'' I appreciate Chairman Gordon and Ranking Member 
Ralph Hall allowing me to be a part of this hearing on e-waste, a 
subject I've been involved with since I was first elected to Congress. 
I also applaud the Chairman and the Committee's continued work and 
interest on this critical issue of our age.
    As you know already, electronic products are becoming smaller and 
lighter, but they also are creating an ever-growing environmental and 
waste disposal problem. That's because it's often cheaper and more 
convenient to buy a new PC or cell phone than to upgrade an old one. 
Today, the average lifespan of a computer is only two years and 
Americans are disposing of 3,000 tons of computers each day. These 
discarded items, more often than not, wind up in the landfills of 
developing countries, where the waste becomes not just an environmental 
issue but a moral one as well. A recent GAO report, ``E-Waste: EPA 
Needs to Better Control Harmful U.S. Exports through Stronger 
Enforcement and More Comprehensive Regulation,'' found that most e-
waste exported from the U.S. is dismantled under unsafe conditions, 
using methods like open-air incineration and acid baths to extract 
component metals.
    The legislative language you consider today, including grant 
programs to spur studies into making electronic equipment easier to 
recycle on the front end and training our nation's engineers in ``green 
design,'' will lay a critical piece of the foundation for comprehensive 
e-waste legislation in the future. Truly an ounce of prevention is 
worth a pound of cure; if obsolete computers and other such items can 
be diverted from the waste stream at the outset, half the battle will 
have already been won.
    Thank you again for bringing much needed attention to this issue 
and to allow us to gather expert testimony on the problem of e-waste. I 
look forward to working with you further to enact a comprehensive plan 
to reduce e-waste.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
